<html>
<title> - LEVERAGING TECHNOLOGY TO IMPROVE AVIATION PART I AND II</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
        LEVERAGING TECHNOLOGY TO IMPROVE AVIATION PART I AND II

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                    JULY 13, 2005 and JULY 19, 2005

                               __________

                           Serial No. 109-31

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
27-448                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection, and 
  Cybersecurity:
  Prepared Opening Statement, July 13, 2006......................     5
  Oral Statement, July 19, 2006..................................    87
  Prepared Opening Statement, July 19, 2006......................    88
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection, and Cybersecurity     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security:
  Prepared Opening Statement, July 13, 2005......................     4
  Oral Statement, July 19, 2005..................................    89
  Prepared Opening Statement, July 19, 2005......................    90
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    31
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    27
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    33
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    35
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................   108
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    38

                               WITNESSES
                        Wednesday, July 13, 2005
                                Panel I

Mr. Allen Barber, President, L-9 Communications Security and 
  Detection Systems, Inc.:
  Oral Statement.................................................    15
  Prepared Statement.............................................    15
Ms. Chathleen A. Berrick, Director, Homeland Security and 
  Justice, U.S. Government Accountability Office.................    22
Mr. Michael Ellenbogen, President and Chief Executive Officer, 
  Reveal Imaging Technologies, Inc.:
  Prepared Statement.............................................    38
Mr. Todd Hauptli, Senior Executive Vice President, American 
  Association of Airport Executives, Senior Vice President, 
  Airport Legislative Alliance:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18
Mr. Louise Parker, President and Chief Executive Officer, General 
  Electric Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                                Panel II

Mr. Deepak Chopra, President, OSI Systems, Inc.:
  Oral Statement.................................................    52
  Prepared Statement.............................................    53
Mr. Anthony R. Fabiano, President and Chief Executive Officer, 
  American Science and Engineering, INC.:
  Oral Statement.................................................    41
  Prepared Statement.............................................    42
Mr. Cherif Rizkalla, President, Smiths Detection, Americas:
  Oral Statement.................................................    56
  Prepared Statement.............................................    57
Mr. Rick Rowe, Chief Executive Officer, SafeView, Inc.:
  Oral Statement.................................................    71
  Prepared Statement.............................................    72
Mr. John W. Wood, Jr., President and Chief Executive Officer, 
  Analogic:
  Oral Statement.................................................    48
  Prepared Statement.............................................    48

                         Tuesday, July 19, 2005
                                Panel I

Mr. Clifford A. Wilke, Assistant Administrator and Chief 
  Technology Officer, Transportation Security Administration:
  Oral Statement.................................................    91
  Prepared Statement.............................................    93

                             For the Record

Letter to the Honorable Edward J. Markey.........................    37


                        LEVERAGING TECHNOLOGY TO
                       IMPROVE AVIATION SECURITY
                                 PART I

                              ----------                              


                        Wednesday, July 13, 2005

                          House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2212, Rayburn House Office Building, Hon. John Linder 
presiding.
    Present: Representatives Linder, Rogers, Sanchez, Markey, 
Dicks, DeFazio, Langevin and Thompson (ex officio).
    Mr. Linder. The Subcommittee on Economic Security, 
Infrastructure Protection and Cybersecurity will come to order. 
The committee is meeting here today to hear testimony on how 
technology can be leveraged to improve aviation security.
    I am John Linder. I am not the chairman of the 
subcommittee, but the chairman, Dan Lungren, has been kidnapped 
and is being held captive in the Judiciary Committee markup of 
the USA PATRIOT Act.
    I would like to welcome everybody to today's hearing of the 
Subcommittee on Economic Security, Infrastructure Protection 
and Cybersecurity. This afternoon, we will examine how current 
and emerging technologies may improve the efficiency and 
effectiveness of airline-passenger-checked baggage screening 
and checkpoint security.
    The Transportation Security Administration spends 
approximately $4 billion a year to screen passengers and 
baggage. While that is undoubtedly a lot of money, I fear this 
country is not getting nearly the return it would hope on such 
an investment. The deficiencies of the current system are well 
documented. Checkpoint x-ray machines and metal detectors are 
outmoded technology and have limited ability to detect modern 
terrorist threats.
    The TSA also uses a Band-Aid approach to cover up the 
shortfalls with the technology, such as requiring passengers to 
empty their pockets, take off their coats, remove the laptop 
computers from their cases. They also strongly recommend that 
passengers remove their shoes. Moreover, TSA deploys thousands 
of screeners to provide an additional layer of secondary 
screening in the form of wandings and patdowns.
    To make matters worse, at airports where it does not have 
either the money or the space for an Explosive Detection 
System, TSA has deployed explosive trace detection systems, or 
EDTs. EDT machines require screeners to swab luggage surfaces 
for traces of explosives; and a sample collection is difficult 
to take correctly, taking an average of 8 minutes to fully swab 
each piece of luggage. The result is a checkpoint security 
system that is too slow, too costly, too labor intensive, 
inefficient and, quite simply, not effective enough.
    I am hopeful that emerging technologies could alter the 
current state of checkpoint security. I want to emphasize that 
no single technology will offer a 100 percent solution to the 
multitude of aviation security threats. I believe the American 
people are better served, however, through the automation of 
existing systems and the deployment of emerging technologies. 
We must develop plans and identify effective technologies that 
are suitable to the aviation environment and drive toward the 
goal of improving detection and reducing operating costs. They 
offer the best hope of improving TSA screening operation.
    I would like to thank all of our witnesses who are 
appearing before us today. We look forward to them providing 
the subcommittee with the testimony and insight on how this 
government may better protect the traveling public. After all, 
the worth of prevention in this case cannot be measured in 
ounces or pounds but rather in hundreds if not thousands of 
lives.
    I now recognize the ranking minority member, Ms. Sanchez, 
for any comments she chooses to make.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I am very grateful that the majority has agreed to have 
this hearing because I think this issue of technology and how 
we can use it and having some experts in front of us who have 
been working with technology in these three-plus years where we 
have been trying to figure out a way to check more people and 
check them more effectively, I think it is an incredibly 
important topic. I know that you have a lot of varied 
experiences.
    I know from the very beginning when we began this committee 
as a select committee we have had plenty of meetings with many 
technology companies who tell us they have the solution to 
everything. I think in some cases we have spent some money 
fairly quickly and maybe didn't get the result that we had 
hoped we would. But now we are really at a standpoint where we 
have had some years behind us, maybe more technology is 
available, and I think it is important, I think, in particular 
because, you know, there is so much frustration still at the 
airports.
    I know I was in line the other day and went through and did 
the whole works and my bag got--handbag got put, taken off and 
looked at, personal search and then they put the handbag back 
through the x-ray machine, and then they checked again by hand 
and then they put it through again through the x-ray machines 
and then they checked it again by hand. And by the third time I 
just said to the gentleman, do you think you might have found 
whatever you are looking for by now? He told me they thought 
they had seen a knife in there. I mean, it was just a little 
handbag.
    So when we have these occurrences there begins to be a real 
credibility problem, a credibility gap about what we as a 
government are doing to protect people. So I am hoping we get 
some insight from you and we can begin to find some solutions 
to this.
    I am also pleased that my local airport, John Wayne 
International airport in Orange County, California, has the in-
line Explosive Detection System, or EDS; and I think that LAX 
just received their letter of intent from the TSA for 
reimbursement to get that in-line EDS system there, also. But, 
unfortunately, there are a lot of airports that don't have 
that.
    You know, I think we need to upgrade our two-dimensional x-
ray machines. As I just indicated, I think implementation of 
in-line EDS is important, and it is going to help us. But I 
think there is just a whole bunch of reform that we need to do 
and really make a good plan now.
    I know that in our bill that we passed last year we had 
$250 million for research and development and installation of 
weapons detection equipment. We had $650 million for in-line 
EDS system installation. We had $100 million to research 
explosives detection technology in particular with respect to 
plastic explosives, which is a big concern not only at airports 
but at places like Disneyland and other places where they would 
really like to be able to screen people for that. $300 million 
to research and develop and install new air cargo security 
technology, a big issue for a couple of my colleagues in 
particular who have been pushing here on this side of the 
committee for that; and, unfortunately, the President's budget 
for fiscal year 2006 did not include funding for these 
initiatives.
    So I hope that we have a candid discussion and testimony 
here with respect to these topics; and I thank you, Mr. 
Chairman.
    Mr. Linder. Thank the gentlelady.
    The gentleman from Mississippi seeks to inquire.
    Mr. Thompson. Yes, thank you very much, Mr. Chairman.
    I, too, look forward to the testimony of our witnesses 
today.
    The creation of the Transportation Security Administration 
was one of the first actions Congress took in response to the 
September 11, attack. Congress directed TSA to hire Federal 
screeners and install screening equipment to close security 
gaps and restore confidence among Americans that it was safe to 
fly again. Four years later, we now know, thanks to the Defense 
Contract Audit Agency, that TSA, in its rush to meet a 
congressional mandate, lost control of its $741 million 
contract to hire 60,000 screeners. Thanks to the GAO and the 
Department's Inspector General, we now know that TSA, in its 
haste, purchased $4.5 billion worth of screening equipment that 
needs to be upgraded if we are to better screen our traveling 
public. In fact, the Inspector General said that significant 
improvement in performance may not be possible without greater 
use of new technology.
    What brings us to the subject of the hearing today is, what 
is TSA doing? Is it successfully identifying promising 
technologies? Is it providing R&D support? Is it moving the 
technologies in a timely fashion to the pilot or trial phase 
and then seeing the technologies through to development and 
installation?
    We want to hear from our witnesses today. I look forward to 
hearing that.
    I am particularly interested in hearing how the constant 
turnover at TSA and within the Border and Transportation 
Security Directorate has impacted development of aviation 
technology. TSA needs a plan for optimal deployment of in-line 
EDS and EDT machines to replace stand-alone systems at the 
Nation's more than 400 airports. That is why Congress in the 9/
11 Act directed TSA to give high priority to developing, 
testing, improving and deploying airport checkpoint screening 
technologies, create a strategic plan for the deployment and 
use of EDS at airport screening checkpoints, and expediting the 
installation of in-line baggage screening equipment at 
airports.
    I would also like to hear how TSA is doing with the $100 
million Congress authorized for investments in emerging 
explosive technologies at passenger checkpoints. TSA launched 
it last year. How are they doing?
    TSA cannot get a redo when it comes to securing the skies. 
We need to get it right.
    Thank you, Mr. Chairman; and I look forward to the 
testimony.
    Mr. Linder. Thank you.
    I ask unanimous consent for Chairman Cox's statement to be 
made part of the record and remind the other members that if 
they have a written statement that it will be part of the 
record.
    [The statement of Chairman Cox follows:]

    Prepared Opening Statement of the Honorable Christopher Cox, a 
Representative in Congress From the State of California, and Chairman, 
                     Committee on Homeland Security

                             July 13, 2005

    Thank you, Mr. Chairman.
    Preventing terrorists from bringing or placing explosives aboard 
commercial aircraft is one of the Transportation Security 
Administration's (TSA's) most important mandates. Sadly, the technology 
that TSA relies upon, including much of the new technology that has 
been deployed since September 11th, has limited ability to detect some 
of the most pressing terrorist threats, such as improvised explosive 
devices--although we now are much more likely to catch knifes, nail 
clippers, and other less critical items.
    Because of the deficiencies with the current screening machines, 
TSA has been forced to rely upon time-consuming and invasive procedures 
such as pat downs and opening up and swabbing of baggage. Furthermore, 
the system requires screeners to make judgments based upon limited 
information, introducing a large amount of human error into the system.
    In fact, testing conducted by the Department of Homeland Security's 
Inspector General and the Government Accountability Office raises 
serious questions as to whether the existing screening system can ever 
operate at optimal levels of efficiency or effectiveness.
    While TSA continues to spend the lion's share of its budget on a 
deficient passenger and baggage screening operations, the development 
and deployment of new screening technologies have not received the 
priority attention that these important functions deserve. Almost four 
years after Congress charged TSA with screening passengers and checked 
baggage for threat items, TSA has yet to devise a comprehensive 
technology strategy to improve the efficiency or effectiveness of its 
aviation screening operations.
    Nor has TSA moved with urgency to use existing technology to reduce 
operational costs. As GAO has noted, TSA has gone about its technology 
deployment in a haphazard fashion, without rigorous cost-benefit 
analysis. The labor-intensive nature of operating the current equipment 
has made TSA the lead federal agency in on-the-job injuries. In fact, 
30 percent of TSA screeners filed workers compensation claims during 
2004, mostly related to lifting heavy baggage during the screening 
process.
    As long as TSA continues to employ a system that relies upon 
outdated equipment and the judgment and physical labor of thousands of 
screeners, we will continue to have a costly and ineffective system. 
TSA must promptly move to identify and prioritize investment in 
technologies that are best suited for each of its airports, bearing in 
mind each airport's unique characteristics and passenger volume.
    The current system is a terrible waste of resources, an 
inconvenience to the traveling public, and is of questionable security 
benefit. I thank the witnesses in advance for appearing today to 
provide their expert views on these issues and I look forward to your 
testimony.

          Prepared Opening Statement of Hon. Daniel E. Lungren

                             July 13, 2005

    [Call hearing to order]
    I would like to welcome everyone to today's hearing of the 
Subcommittee on Economic Security, Infrastructure Protection, and 
Cybersecurity.
    This afternoon we will examine how current and emerging 
technologies may improve the efficiency and effectiveness of airline 
passenger checked baggage screening and checkpoint security.
    The Transportation Security Administration spends roughly $4 
billion annually screening passengers and baggage. While that is a lot 
of money, it is what we get (or don't get) for that price tag that 
concerns me the most.
    The deficiencies of the current system are well documented.
    Checkpoint X-ray machines and metal detectors are outmoded 
technology and have limited ability to detect modern terrorist threats.
    TSA uses a band-aid approach to cover up the short falls of its 
technology, such as requiring passengers to empty their pockets, take 
off their coats, and remove their laptop computers from their cases. 
They also strongly ``recommend'' that passengers remove their shoes. 
And TSA deploys thousands of screeners to provide an additional layer 
of secondary screening in the form of wandings and pat-downs.
    The result is a checkpoint security system that is too slow, too 
costly, too labor intensive, inefficient, and--most troubling--not 
effective enough.
    Emerging technologies--such as those we will hear about today--
could alter the current state of checkpoint security.
    While serious concerns remain--including cost, operational 
integration, and privacy--these technologies offer the potential to 
improve checkpoint efficiency, enhance screening effectiveness 
dramatically, and reduce labor costs.
    TSA's system for checked baggage screening is slightly better, but 
it is still mostly a patchwork of randomly placed machines. To meet the 
unrealistic deadlines of the 2001 Congressional mandates, TSA was 
forced to deploy explosive detection systems (EDS) wherever they could 
find space without much regard for what would be optimal from an 
operational standpoint.
    The placement of the EDS machines has driven up labor costs and on-
the-job-injuries and does not allow for automation that would make full 
use of their speed.
    To make matters worse, at airports where it does not have either 
the money or space for an EDS, TSA has deployed explosive trace 
detection systems (ETD). ETD machines require screeners to swab luggage 
surfaces for traces of explosives. Sample collection is difficult to do 
correctly, and it takes an average of 8 minutes to fully swab each 
piece of luggage.
    Automation of existing systems and the deployment of emerging 
technology offers the best hope of improving TSA's screening 
operations.
    While this could require substantial upfront capital in some 
airports, the resulting reduction in labor and operating costs will pay 
back the initial investment, in most cases, in less than two years.
    Finally, it must be remembered that no single technology will offer 
a 100 percent solution to the multitude of aviation security threats.* 
The key is to develop a plan and identify effective technologies that 
are suitable to the aviation environment and drive towards the goal of 
improving detection and reducing operation costs.
    Every dollar wasted is an opportunity lost.
    I thank our all of our witness for appearing before us today and 
now recognize the Ranking Member of the Subcommittee, Ms. Sanchez.

    Mr. Linder. We are pleased to welcome our first panel. 
Thank you for coming. Thank you for being willing to take the 
opportunity to help us.
    We ask that, due to the number of witnesses on our panels, 
two panels, we will have, that you keep your opening oral 
testimony to 3 minutes. Your written testimony will be made 
part of the record. All of the members of the panel will be 
allowed to testify before any questions.
    On the first panel, Louis Parker is President and Chief 
Executive Officer with General Electric Security. Allen Barber 
is the President of L-3 Communication Security and Detection 
Systems, Inc. Michael Ellenbogen of Reveal Imaging is still on 
an airplane. Hopefully, he can join us. Todd Hauptli, Senior 
Executive Vice President of American Association of Airport 
Executives and Senior Vice President of Airport Legislative 
Alliance; and Cathleen Berrick, Director of the Homeland 
Security and Justice, U.S. Government Accountability Office.
    Thank you all for coming.
    Mr. Linder. Mr. Parker.

                  STATEMENT OF A. LOUIS PARKER

    Mr. Parker. Thank you.
    I would like to thank the subcommittee for the invitation 
to discuss using technology to improve aviation security and 
reduce costs. The focus of this panel--and my remarks--is the 
benefits of automating checked baggage screening at our 
Nation's airports with in-line Explosive Detection Systems, 
EDS. My written statement addresses a broader range of aviation 
security technology currently offered by GE and new 
technologies under development.
    Despite significant upgrades to aviation security since 9/
11, there is much room for improvement in operational 
efficiency and cost reduction. The Washington Post recently 
reported that Dulles Airport incurs delays up to an hour on 
some flights due to slow screening. Lack of investment in in-
line EDS screening will create adverse impact throughout the 
aviation system as air traffic continues to grow.
    The reasons to expedite EDS in-line bag screening are 
compelling because it provides the best security, is the most 
economical solution for many airports, offers a variety of 
time-tested screening solutions for both small and large 
airports.
    EDS technology, by definition, is certified to meet the 
highest standard of detection. The weak link in baggage 
screening is the human factor. We must minimize human 
intervention and maximize automation for effective security. 
EDS technology will clear congestion in many airport lobbies 
and reduce the risk of tampering with bags after screening.
    Since the origination of EDS certification in 1994, false 
alarm rates have halved and throughput has doubled. We 
anticipate an escalation of technology advancement, but little 
of this will be of any use in lobbies where throughput and 
efficiency improvements are limited by manual loading speed.
    Technology can provide both enhanced security and cost 
reduction. EDS is a non-intrusive screening method that 
minimizes bag openings, an enormous benefit. When coupled with 
the Yxlon x-ray defraction system added to the family of GE-
certified EDS, we are one step closer to the goal of full 
automation. Using diffraction x-ray to resolve alarms of CT-
based EDS greatly reduces bag openings and associated staff. 
Deploying diffraction technology pays for itself in 2 years.
    San Francisco airport is a pioneer in in-line EDS. They 
estimate that their $70 million infrastructure investment has 
saved approximately 600 TSA FTEs. The airport estimated that 
in-line EDS screening lowers the cost per bag from $2.35 to 
$0.38.
    It is also notable that TSA reports a 77 percent reduction 
in workmen's compensation at SFO because of reduced baggage 
handing.
    Savings opportunities are not limited to large airports. 
Lexington, Kentucky, achieved an impressive return on its 
capital investment. Its in-line system results in an annual 
savings of $3 million in operational costs with a 16-month 
payback.
    Payback will take less than a full year for future small 
airport systems. As in-line projects at airports such as Dallas 
and Denver are completed, many machines currently in airline 
lobbies will become available. Hundreds of CTX2500 and 5500 
machines can be reused in smaller airport in-line systems. 
Simple in-line applications can be done as little as $100,000 
per machine.
    In March, the GAO reported that TSA estimates a $1.3 
billion savings over 7 years with 1-year payback for the nine 
lucky airports federally funded through letters of intent, 
LOIs.
    Despite solid economic justification, funding for the 
capital investment remains a challenge. In-line EDS makes sense 
from a security, economic and operational perspective. We must 
continue to increase the efficiency of the system through 
implementation of technology. We must also explore financing 
options to accelerate the availability of funding for this 
much-needed investment in the safety and security of our 
Nation's aviation system.
    Mr. Linder. Thank you very much, Mr. Parker.
    [The statement of Mr. Parker follows:]

                 Prepared Statement of A. Louis Parker

    Thank you Chairman Lungren, Congresswoman Sanchez and Members of 
the Committee for this opportunity to discuss the benefits of 
leveraging technology to improve security at our nation's airports. 
Securing our commercial aviation system remains a high national 
priority. We have experienced first-hand the devastating effects that 
inadequate security can bring. We recognize that increasing the 
effectiveness of security operations must be done in a cost-effective 
manner given the limited resources available--and GE is willing to work 
with the US government to increase security through effective and cost-
saving technology.
    As reported on July 4, 2005 in the Washington Post, Dulles 
International Airport is experiencing increasing delays due to the 
baggage screening operation. This problem will escalate not only at 
Dulles but nationwide as traffic levels continue to rise. We believe 
that the solution is automating screening with In-line systems. I will 
discuss the economic justification for and benefits of In-line EDS 
screening; the need for adequate funding; future technology 
developments for aviation and transportation security and thoughts on 
how to accelerate achieving our goal of protecting the flying public 
and the aviation industry.
    Although much money has been spent on aviation security since the 
tragic events of 9/11, the job is not completed. The 9/11 Report by the 
National Commission on Terrorist Attacks Upon the United States 
recommended:
    ``The TSA should expedite the installation of advanced (in-line) 
baggage screening equipment''. There seems to be general agreement that 
this must be done, but little consensus on how to accomplish this task.

Background
    InVision Technologies, Inc. developed the first technology to be 
certified as an EDS in 1994. GE acquired InVision in 2004 as a major 
part of GE's commitment to becoming a leading provider of security 
solutions. In the eleven years following this major achievement, a 
family of GE Security explosive detection products has been developed 
to meet the variety of needs at different size airports. This includes 
five, certified checked baggage EDS products.
    In addition to checked baggage EDS, GE trace detection portals and 
electronic trace detection (ETD) systems are deployed at airports and 
other facilities to detect explosives on people, their belongings and 
cargo. GE also provides cargo container security systems, biological 
detection, nuclear and radiological detection, access control, 
integration of security systems and other security products and 
services to the public and the private sectors worldwide.
    Continuing its history of innovation and as another first, GE 
received EDS certification for a diffraction based x-ray system last 
year. Ten years from the first EDS certification, a powerful, new 
technology has been added to the war on terrorism by combining CT with 
diffraction x-ray screening in a system-of-systems designed to optimize 
automation, efficiency and security.

    Substantial improvements to EDS technology have been made over the 
years. Lower false alarm rates, higher throughputs and increased 
reliability have been achieved on a continuing basis. Features such as 
Multiplexing (MUX) and Remote Image Replay (RIR), that were made 
possible by networking the equipment, have provided impressive progress 
in process efficiency and cost savings. The San Francisco and 
Jacksonville airports have MUX and RIR and have seen staffing 
requirements decrease by as much as 70%.

The Business Case for In-line EDS
    In March of this year the Government Accountability Office (GAO) 
produced a report on In-line EDS at airports entitled ``Systematic 
Planning Needed to Optimize the Deployment of Checked Baggage Screening 
Systems''. GAO concluded that use of EDS systems was the most cost 
effective method of screening checked baggage at many of our nations' 
airports.
    Only nine airports have received full (75%) Letter-of-Intent (LOI) 
funding for their In-line projects to date. All but one of these 
airports is a Large Hub facility requiring major construction to 
institute a screening system. Despite the substantial investment, GAO 
reports that TSA estimated that ``in-line baggage screening at (the 
nine airports receiving LOIs) would save the federal government $1.3 
billion over 7 years compared with stand-alone EDS systems TSA would 
recover the initial investment in a little over 1 year''. Given that 
many airports without In-line systems employ an even more labor-
intensive and costly screening process using trace detection, the 
savings potential for the Large and Medium Hub airport system is likely 
to be even greater.
    Working closely with airports that have In-line EDS baggage 
screening with CTX equipment, GE has analyzed the cost savings and 
other benefits of such systems. As expected, these are substantial and 
produce models worth deploying at other airports. Not all airports are 
viable candidates for the most complex In-line EDS systems, that 
centralize screening to handle large throughput requirements; however, 
it does make sense for many airports and for the federal government. As 
GAO noted, even at an average cost of approximately $2.5 million in 
infrastructure cost per EDS, the payback is rapid.
    Our modeling for Large Hub airport baggage screening operations, 
defined as an average 5000 bag per hour peak, shows that a $57 Million 
dollar capital investment will result in a $20 Million dollars per year 
savings in operational expense. This analysis compares In-line EDS to a 
standalone type EDS screening operation currently conducted in 
ticketing lobbies. The savings are primarily in labor related costs. If 
one were to compare In-line EDS to using trace detection for primary 
screening of checked baggage in this model, the operational cost 
savings becomes an astronomical $70 Million dollars per year at a Large 
Hub size airport. Although trace detection as the primary checked 
baggage screening method at this size airport is not the preferred 
option, the Transportation Security Administration (TSA) frequently 
relies on trace detection to varying degrees due to the inefficiencies 
inherent in lobby area EDS screening and the lack of available EDS 
equipment.
    Each airport is unique; therefore, modeling alone does not allow us 
to confidently extrapolate system costs.It is better to use actual 
airport cost estimates to obtain a valid projection of capital 
requirements. Since every airport will not be a candidate for In-line 
baggage screening systems, it is also more appropriate to limit 
discussions to those that are. Based on survey data gathered by the 
airport associations, it is estimated that the first sixty-four 
airports identified as benefiting from such an In-line system, would 
require $4 Billion in infrastructure capital from the federal 
government. Adding in new equipment costs, we estimate a total need of 
nearly $5 Billion. Although the larger airports require a larger 
investment, the operational savings are also greater, resulting in an 
estimated annual operational savings of $1 Billion dollars.
    San Francisco's latest In-line project provides a real life 
example. The airport spent $16 Million in infrastructure costs to 
install 11 CTX 9000 EDS machines in Terminal T-3. This Terminal houses 
United Airlines domestic operation, handling over a third of the 
airport's total checked baggage. This investment resulted in a 
reduction of over 70 TSA FTEs required to handle checked bag screening. 
The airport's average infrastructure cost per EDS machine is $1.7 
Million.

Small Airport Solutions
    Simpler and less expensive Mini In-line systems are a proven 
checked baggage screening option for smaller airports and airport 
operations with lower throughput requirements. These options can cost 
from as little $100,000 to $1.5 Million per machine in associated 
infrastructure costs.
    Blue Grass International Airport in Lexington, KY, Traverse City, 
MI and Ft. Walton Beach, FL screen all their checked bags with two 
CTX5500 EDS machines. Blue Grass estimates that its system saves $3.1 
Million per year in operating expenses for the TSA, with return on its 
investment in just 16 months. Payback on the infrastructure investment 
required providing in-line systems to Small Hub size airports drops to 
less than one year if existing EDS are reused.
    Capital investment is minimized through reuse of EDS equipment. The 
federal government owns over 500 CTX2500 and 5500 EDS machines, many of 
which can be relocated and reused for In-line projects at smaller 
airports. As currently funded projects at airports such as Dallas-Ft 
Worth and Denver come online, these valuable EDS assets will become 
immediately available for use at other facilities. There are enough 
machines in existing inventory today to cover all the Small Hub 
airports without investing any additional dollars for equipment. There 
would even be machines left over for screening break cargo, mail or 
other screening applications at any high-risk site.
    Leigh Fisher, a well-established aviation industry consultant, has 
independently analyzed the checked baggage screening options. They 
reported their findings at an aviation industry conference in 2004. 
They found for the mid-range of airports the most cost effective 
solution is a small EDS In-line system. Their analysis shows that In-
line EDS is appropriate even for airports originally considered too 
small to warrant such systems.
    This type of low cost In-Line installation option has existed for 
over a decade. The first In-line EDS was installed in United Airlines 
International check-in counter in San Francisco in 1995. Dozens of such 
installations were in place prior to the 9-11 tragedy. Systems placed 
directly in bag conveyor lines were installed for as little as $110,000 
per machine. Since these projects often involved one EDS per airline or 
airport, a project that covered an entire airport operation today would 
have an even lower cost per machine. This is because general costs such 
as design and permitting would be spread over more machines. These 
lower throughput solutions are every bit as viable today for small 
airport and low throughput requirement operations in large airports.

Safety Benefits
    An additional consideration and benefit of In-line EDS screening is 
the reduction of on-the-job injuries. TSA is experiencing the highest 
level of workman's compensation claims in the federal government. 
Automating bag handling with In-line EDS systems will dramatically 
decreased this problem. The TSA reports that claims were down 42% and 
total cost of workmen's compensation is down 77% with implementation of 
its In-line system in San Francisco.

Additional Security Considerations
    Crowded ticketing lobbies are an attractive and vulnerable target 
for terrorists and other criminals. Moving baggage screening away from 
this area is prudent in order to mitigate this risk. In-line baggage 
screening also minimizes the potential for serious operational impacts. 
Evacuating a ticketing area to resolve an unknown threat wreaks havoc 
on timely ticketing, boarding and aircraft departure. Even an hour 
delay at one airport can cost millions of dollars and produce a ripple 
effect in operational impact through the aviation system.
    Screening baggage in non-public, controlled access areas is also 
inherently more secure than in public lobbies. There is far better 
ability to prevent tampering with bags after they have been screened. 
The chain of custody of the bag is unbroken and all personnel handling 
the bag have undergone background checks in order to be given access to 
the secured areas of the airport.

Cargo and Mail
    Equipment installed to handle checked baggage can and does serve 
multiple purposes. The machines can be used to screen counter-to-
counter packages, break bulk cargo and mail that is carried aboard 
commercial aircraft.

Creative Financing
    Public support wanes as time passes following a major security 
event. When this happens, competing needs often jeopardize security 
funding. Relying on the annual appropriations process for the federal 
government to fund In-line EDS projects is problematic for airports and 
their communities. Delays and funding uncertainty result in excessive 
construction and redesign costs, as well as added complexity in 
executing capital improvement programs. Taxpayer monies are spent on 
inefficient and labor-intensive processes that do not provide the same 
level of security that can be achieved using the same funds more 
effectively.
    Congress and the industry, led by AAAE and ACI-NA, recognized the 
challenge of financing the capital expenditures required to install 
explosive detection systems in U.S. airports. The Letter of Intent 
Program (LOI) was an excellent first step in ensuring that airports 
would receive the necessary capital funds. This Program did not 
address, however, the fact that substantial funds would be needed in a 
relatively short timeframe. This has resulted in a funding shortfall. 
Only eight LOIs have been issued to date, covering only nine of the 429 
certified airports. TSA has not issued a new LOI since FY04 and has no 
funding for additional LOIs in the proposed FY06 Budget.
    Other government capital programs, and almost all major investments 
by private industry, utilize longer term financing options to meet 
their needs. It is unusual and unnecessary to require up front funding 
from DHS annual appropriations of both EDS equipment procurement and 
EDS installation by airports (with LOI reimbursement). Multi-year 
leases with annual renewals and managed service agreements are but two 
of the financing tools used by other government agencies to fund their 
major capital projects. Such financing options must be explored as a 
method of solving these funding problems.
    Two examples of using long-term financing demonstrate the type of 
savings possible. Assumptions used:
        1. Private sector capital utilized
        2. Government repayment using annually appropriated funds
        3. A 7-year financing term
        4. A 10-year useful life for EDS equipment
    Applying a financing plan as described above to our Large Hub 
airport model, we can cover debt on the $57 Million dollars over 7 
years with an approximate annual repayment obligation of $10 Million. 
The corresponding annual operational savings realized in the first year 
and each year of the 7-year financing term is $20 Million dollars. The 
resulting $10 Million per year in net savings begins in Year 1 and 
continues for the 7-year term of the financing. After completion of the 
7-year financing term, the annual net savings would be $20 Million for 
the balance of the useful life of the assets. Total savings over a 10-
year period to the federal government for financing an In-line EDS 
system versus retaining its standalone EDS lobby screening operation is 
$130 Million dollars.
    If we look at the project in total, it is estimated that a capital 
investment of $5 Billion dollars is needed to fund both infrastructure 
and equipment to fully implement the In-line EDS solution. Full 
deployment of In-line EDS can result in annual operational savings of 
$1 Billion per year. For analysis purposes, if we were able to have a 
common financing start date for all airports requiring In-line EDS, the 
operational savings applied to repayment coupled with $500 Million per 
year authorized by Congress for construction of In-line EDS would 
result in a payback period of less than 4 years, at which point the 
annual saving to the Government would be $1 Billion dollars net per 
year.

Bag Delivery Services
    A promising potential for baggage screening involves the ingenuity 
of private entities. The business of baggage delivery for a fee is a 
growing enterprise. The public may well be willing to pay for the 
convenience of having their bags picked up in advance of a trip and 
transported by a private service to their destination. This business 
model may provide some answers to screening of bags and cargo. If the 
public pays for this service, the cost of security screening can be 
included in the fee. A centralized screening facility on-airport can 
also be used to screen cargo and as an overflow facility for airline 
baggage.

The Future
    Although great strides were made over the last decade in EDS 
performance, we anticipate that improvements and breakthroughs will 
escalate based on the existence of a real market need for better 
solutions. With GE's entry into the aviation security arena, a 
substantial increase in resources, including technological expertise, 
has become available to apply to R&D efforts to advance the state of 
the art.
    GE is already leveraging its industry-leading position in imaging 
and other technologies to develop tomorrow's solutions. Carry-on 
baggage screening, passenger portals combining multiple screening 
technologies, container security devices with multiple threat detection 
capability and standoff detection are only a few of the innovations in 
the works.
    To realize the benefits of such innovations and to spur research in 
advanced security technology solutions, there must be a plan and a path 
from research to development to deployment. Technologies developed for 
aviation are not only portable to other transportation industries, but 
can be used to mitigate threats in other areas such as our borders, 
ports, government buildings, nuclear facilities, chemical plants, and 
iconic structures. A timely example is millimeter wave combined with 
smart video used in standoff detection applications. This technology 
could be deployed unobtrusively in public areas such as metro and rail 
stations to detect explosives without requiring aviation security style 
portals.
    As the aviation industry continues its trend toward technology-
driven automation critical to cutting expenses and improving 
efficiency, TSA must do the same. The airlines and airports are moving 
rapidly towards automating all of passenger processing, from printing 
boarding passes on home computers to common-use, self-serve kiosks. 
Processes that are expensive, labor-intensive or even simply 
frustrating for the customer cannot be supported in such an 
economically sensitive industry.
    The future of checked bag screening, as well as screening of 
passengers, carry-on bags and cargo, must rely on automation. Not only 
does automation save life-cycle screening costs, it greatly improves 
the ultimate security of the system by minimizing the unknowns 
associated with the human factor.
    Reducing the human factor in the screening process will also 
minimize bag openings. One of the most attractive benefits of EDS is 
its ability to perform non-intrusive detection. The need to open bags 
for threat resolution, along with the associated opportunities for 
misplaced bag contents, can be almost eliminated by coupling CT and 
diffraction-based EDS technologies. Yxlon EDS diffraction x-ray is 
designed to resolve bags that alarmed on the CTX EDS and cannot be 
cleared by On Screen Resolution. We estimate the payback on 
implementing Yxlon EDS equipment at approximately two years.
    Another example of leveraging technology is implementing something 
as inexpensive and simple to install as Remote Image Replay for 
automatic electronic images of and data on alarms to be used in threat 
resolution. GE calls this feature ViewLink for CTX5500 and 2500 
products and Passive Threat Resolution Information (PTRI) as part of a 
Multiplexed CTX9000 networked system. This screening automation feature 
saves San Francisco Airport's security operation over $3.5 Million 
dollars a year in labor and consumables.
    Increased research with rapid testing and deployment of successful 
technology can provide continuous improvements to efficiencies and 
economics of security. Automation is the key to optimizing these 
systems. This is the direction in which we must continue.

Summary
    In-line EDS makes sense from a security, economic and operational 
perspective. We must continue to increase the efficiency of the system 
through technological advancements and flexible system designs that 
meet the needs of all stakeholders. We must also explore financing 
options to accelerate the availability of funding for this much-needed 
investment in the safety and security of our nation's aviation system 
and the flying public.

[GRAPHIC] [TIFF OMITTED] T7448.001

[GRAPHIC] [TIFF OMITTED] T7448.002

[GRAPHIC] [TIFF OMITTED] T7448.003


    Mr. Linder. Mr. Barber.

    STATEMENT OF ALLEN BARBER, PRESIDENT, L-3 COMMUNICATION 
              SECURITY AND DETECTION SYSTEMS, INC.

    Mr. Barber. Thank you.
    The L-3 Explosive Detection System was TSA certified in 
1998. We have fielded 550 systems installed at our Nation's 
airports. Thirteen other countries have also acquired this 
technology to assist in them their efforts to bolster aviation 
security.
    I would like to make threeSec. ints for the committee:
    One, aviation security continues to pose a significant 
risk. The use of trace detection systems for checked baggage 
screening at many U.S. airports continues at high labor costs 
and marginal security. Meanwhile, substantial improvements in 
in-line EDS have occurred over the last year to reduce cost. 
Baggage throughputs are up substantially.
    Boston Logan's new terminal A, for example, has achieved 
well in excess of 600 bags an hour at peak periods this summer. 
We encourage the committee to visit the Nation's first 100 
percent in-line system at Logan airport to understand the 
challenges they face and the successes they have achieved.
    Installation of in-line EDS remains the highest priority, 
and we urge the committee to press for the necessary funding. 
In-line provides improved security and will recoup the total 
financial investment in a very brief period because of the 
tremendous labor savings it achieves.
    Second, technology improvements for checked baggage 
screening have also improved labor efficiency. For example, 
networking and on-screen resolution of alarms have improved 
performance significantly. There is almost 100 L-3 examiners 
networked now versus four last year at substantial labor 
savings of about 30 percent. Further reductions of false alarm 
rates by approximately 20 percent should be deployable by the 
end of this calendar year. These incremental improvements are 
very cost effective as they are primarily software changes and 
can be retrofitted to upgrade existing systems and provide 
significant labor savings.
    Third, the investment made in aviation security 
technologies has created a pool of relevant technologies that 
can now be applied to other transportation modes. The event of 
the last week in London was tragic. Transportation security is 
a tough task operationally because of its distributed nature. 
However, rail threats are not as difficult to detect 
automatically as aviation. Last year's TSA TRIP program 
demonstrated that screening for rail threats in a terminal or a 
rail car can be done effectively and have very low false alarm 
rates.
    Thank you for opportunity to appear.
    Mr. Linder. Thank you, Mr. Barber.
    [The statement of Mr. Barber follows:]

                 Prepared Statement of Allen R. Barber

    Mr. Chairman and Members of the Subcommittee:
    I am Allen Barber, President of L-3 Communications' Security & 
Detection Systems Division. I am pleased to have the opportunity to 
appear before you today on the subject of leveraging technology to 
improve aviation security. We have been extensively involved in this 
field since the mid-1990's and, following the 1998 initial 
certification of our eXaminer Explosive Detection System (EDS), we have 
delivered more than 550 systems to TSA for installation at our nation's 
airports. Thirteen other countries, including Japan, Mexico and Korea, 
have also acquired our in-line EDS to assist them in their efforts to 
bolster aviation security.
    The tragic events of last week in London underscore both the 
continued threats we face from terrorism and the need to redouble our 
collective efforts to protect our citizens from such violent acts. 
Transportation security, including rail, is a daunting task 
operationally because of its distributed nature. However, I think it is 
fair to say that screening for rail threats may not prove to be as 
difficult a technical challenge as it was in the aviation environment. 
In fact, last year's TSA TRIP program demonstrated that screening for 
rail threats in a terminal and on a rail car can be done effectively 
with existing high-throughput automatic detection technology and at 
very low false alarm rates. Addressing rail security is an operational 
question: where do you focus resources for fielding security systems? 
We believe that focus should be where the greatest economic and human 
impact would be--at the large hubs and the links to those hubs. TSA 
could field equipment and study concepts of operations at several key 
sites to determine the maximum benefits so passenger and baggage flows 
can be optimized while maximizing security and throughput. The 
investment made in aviation security technologies has thus created a 
pool of relevant technologies that can now be applied to other 
transportation modes. We do not need to re-invent the technology in 
order to address multi-mode transportation security.
    Aviation security continues to pose the greatest risk and cost. The 
use of explosive trace detection (ETD) systems for checked baggage 
screening at many U.S. airports continues at high labor cost & marginal 
security. Meanwhile, substantial improvements to in-line EDS have 
occurred over the last year. Baggage throughputs are up substantially 
at new in-line installations. Boston Logan's new Terminal A has 
achieved well in excess of 600 bags per hour at peak periods this 
summer. We encourage the Committee to visit the nation's first large 
in-line system at Boston's Logan airport to understand the challenges 
they face and the tremendous successes they've achieved.
    In-line EDS is universally recognized as the most secure and cost-
effective solution for checked baggage screening. Simply stated, 
lobbies were designed for the movement of people and, consequently, 
lobby installations of EDS do not realize the labor savings, 
particularly with the handling and resolution of alarms. We also have 
gained experience and knowledge from installing over 170 in-line 
systems in a variety of baggage handling systems. This now enables us 
to recommend simple and scaled down in-line solutions for less busy 
airports (i.e., Cat 2 and Cat 3 airports), which makes in-line EDS for 
these airports the cheaper, faster, and better approach as well.
    The funding and installation of in-line EDS, in my view, remains 
the highest EDS priority and will provide the greatest return on 
investment. We urge the Committee to press for the necessary funding 
and a concrete plan to accelerate these installations. In-line EDS will 
not only provide improved security for the traveling public, but will 
recoup the total financial investment in a very brief period because of 
the tremendous labor savings to be achieved.
    Technology improvements for checked baggage screening will also 
improve labor efficiency, but not to the same extent as in-line EDS. 
For example, networking and On-Screen-Resolution (OSR) of alarms has 
improved performance significantly. There are almost 100 L-3 eXaminers 
networked now, versus 4 last year at substantial labor savings of 30%. 
Further reductions of the false alarm rates by approximately 20% should 
be deployable by the end of this calendar year. These incremental 
improvements are very cost effective as they are primarily software 
changes and can be retrofitted to upgrade existing systems.
    As technology improvements are proven in a real operational 
environment, they should be fielded or back-fit on the basis of return 
on investment (ROI). There remains a clear need to invest in the R&D 
efforts necessary to develop new or improved technology, and we cannot 
afford to let ourselves focus so greatly on today's needs that we fail 
to provide for tomorrow's. There should be a continuing investment in 
R&D to generate the innovations that will provide cheaper and more 
effective security solutions.
    Another area where focus is needed is on aviation cargo security. I 
believe it is important that a roadmap be developed by DHS that leads 
to 100% air cargo screening in a way that does not unduly hamper air 
commerce. As part of this roadmap, it would be useful to ensure that 
the collective and sometimes disparate needs of affected DHS agencies 
are coordinated and effectively integrated into a unified set of 
equipment certification requirements and regulatory standards. 
Demonstrations to date show that existing EDS is very effective for 
screening break bulk cargo. A variety of approaches for pallet and 
truck screening are also available. I believe it is time that we 
develop a more targeted approach towards conducting actual cargo 
screening on an accelerated basis. Hopefully, the development of a 
roadmap would facilitate this effort. The development of in-container 
security devices will begin to yield prototypes in FY 2006. Combined 
with trusted shipper programs, a reasonable layered cargo security road 
map is now feasible.
    Advancements in checkpoint screening is the area most in need of a 
system solution. We believe that efforts should be undertaken to 
integrate automated detection technology into the carry-on baggage 
screening equipment. Automatic detection of threats for carry-on 
screening systems will be available from L-3 by the end of the fiscal 
year in standard X-ray machines that fit the current checkpoint 
footprint. However, initially they will have high false alarm rates & 
should be used to ``suggest'' to operators where to look. With the 
spiral additions of other technology over time, this will be an 
excellent way to improve the security of checkpoints while learning the 
value of each new development. L-3 continues to evaluate numerous 
checkpoint technologies. Some are showing great promise. Continued 
support for evolving technologies is key to rapid development & 
subsequent fielding.
    In closing, Mr. Chairman, thank you for permitting me to share my 
views on ways to leverage technology for aviation security. I would 
like to briefly summarize some of the key steps I believe are needed. 
First, there should be a stronger focus on accelerating in-line EDS. 
Finding the resources to get this job done now will improve security 
and will pay for itself rapidly. Second, the tools needed for air cargo 
screening largely exist, and a cohesive plan to initiate such cargo 
screening should be developed. Third, sufficient resources must be 
devoted towards R&D to continue to develop cheaper and better 
technology not only for checked baggage and cargo, but for checkpoint 
security as well. Adoption and fielding of improved technology should 
be based on ROI. And, last, although not an aviation issue per se, 
existing automated detection of threats can be applied to address 
existing security gaps in rail and other transportation modes. It is 
largely a matter of developing a plan for addressing the greatest 
risks--hubs, and finding the financial resources to do so.
    That completes my prepared statement, Mr. Chairman. I would be 
pleased to respond to any questions that you may have.

    Mr. Linder. Welcome, Mr. Hauptli.

  STATEMENT OF TODD HAUPTLI, SENIOR EXECUTIVE VICE PRESIDENT, 
           AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES

    Mr. Hauptli. Thank you, Mr. Linder.
    Two major points I want to try and make, one on screening, 
the second on the Registered Traveler Program.
    On screening, as both Louis and Al have said, in-line EDS 
systems make a lot of sense. We need more of them. Ten systems 
in place today. Eight more in the queue with letters of intent. 
But literally dozens of airports across the country need these 
in-line systems.
    The multiplexing or networking that Al just talked about, 
very important; and you should see that in places like San 
Francisco and other locations. It really reduces the number of 
personnel that you need, dramatically driving down the 
personnel costs; and the costs of putting these systems in 
place is recouped in sometimes a year-and-a-half to 2 years. 
There is an up-front capital expenditure that is necessary. But 
that is an example how the Washington sort of arcane budget 
process gets in the way of technology helping aviation 
security. So we need a fix there.
    Now, not all airports need an in-line full-blown EDS 
system. Some of the small- and medium-sized airports just need 
better technology. And if Mr. Ellenbogen were here he would 
talk about his recently certified machines that hold great 
promise for some of the small--and medium-sized airports that 
don't require as much terminal modification. So whether it is 
the in-line systems at some of the larger airports or better 
technologies at some of the smaller airports, it is important 
to try and drive toward those technological advances.
    Registered Traveler Program, we need an interoperable 
nationwide Registered Traveler Program. Six million passengers 
account for the overwhelming majority of the 700 million 
enplanements each year, the proverbial if you need to find a 
needle in a haystack you have got to make the haystack smaller; 
and a Registered Traveler Program and the use of technology 
could do that and make a significant difference.
    I am pleased to report to the subcommittee that we have 
created a new Registered Traveler Interoperable Consortium, 
airports, the Transportation Security Clearinghouse, airlines 
and private sector technology partners working together on 
common business practices and on technical standards for a 
nationwide interoperable Registered Traveler Program. We need--
with due respect to TSA and the Federal Government, we need to 
move at the industry's pace and at the aviation systems pace, 
not at the Federal Government's pace, to put a program like 
this in place.
    Thank you, Mr. Chairman.
    Mr. Linder. Thank you very much.
    [The statement of Mr. Hauptli follows:]

                   Prepared Statement of Todd Hauptli

    Mr. Chairman, I want to thank you and the subcommittee for holding 
this important hearing on leveraging technology to improve aviation 
security. I am testifying today on behalf of the American Association 
of Airport Executives (AAAE), Airports Council International--North 
America (ACI-NA), and our Airport Legislative Alliance, a joint 
legislative advocacy organization. AAAE represents the men and women 
who manage primary, commercial service, reliever, and general aviation 
airports. ACI-NA represents local, regional and state governing bodies 
that own and operate commercial airports in the United States, and 
Canada.
    Today's hearing is especially timely given the situation that is 
emerging at a number of airports across the country this summer with 
air travel returning to and in many cases exceeding record levels. What 
travelers are finding--as many of you on the subcommittee can attest to 
as frequent fliers--is that the trip to the airport is quickly becoming 
a test of patience and endurance due in large part to the ongoing 
challenges TSA faces in meeting its passenger and baggage screening 
mandates.
    Overcrowding at ticketing areas due to increased passenger volume 
and the presence of SUV-sized explosive detection (EDS) equipment that 
has been parked ``temporarily'' in terminal buildings by TSA continues 
to be a problem at a number of airports, and passenger screening 
checkpoints at many locations resemble Disneyland on a busy day. In 
addition to being a major inconvenience for passengers, this situation 
represents a growing security threat that must be addressed as quickly 
as possible.
    Recognizing the problems inherent in the existing, labor-intensive 
passenger and baggage screening model, the airport community has for 
several years now been very vocal in encouraging the federal government 
to embrace technology as a means of expediting the passenger and 
baggage screening process and better utilizing scarce federal 
resources. While there are a number of new technological tools that 
merit serious consideration, we would like to highlight for the 
subcommittee today the case for moving forward with in-line 
installation of EDS equipment to screen checked baggage and the promise 
we believe programs like Registered Traveler offer in focusing limited 
resources on true threats to the aviation system. Moving quickly in 
these areas will provide enormous bang for the buck while greatly 
enhancing security.
    Federal Government Must Partner With Industry to Solve Security-
Related Challenges
    Moving forward, it is clear that airports and the aviation industry 
can and should play an active role in partnering with the federal 
government to design and implement meaningful solutions. The 
establishment of effective public/private partnerships has already 
proven extremely successful, for example, in building a system for 
processing fingerprint-based background checks and additional 
background screening for more than 1.6 million employees at airports 
through the Transportation Security Clearinghouse. Additionally, the 
airport community and its aviation industry partners are moving forward 
to create a permanent, interoperable Registered Traveler program that 
will bring screening consistency and improved security to the aviation 
system. These examples and others illustrate that the best path forward 
is one where federal resources and standards are combined with airport 
and aviation industry knowledge, expertise, and creativity.
    In-Line EDS Systems: Enhanced Security, Improved Efficiency, 
Reduced Personnel Costs
    Perhaps, the greatest area of opportunity in terms of enhanced 
security, increased efficiency, and potential long-term TSA budget 
savings in the baggage screening arena comes from the permanent 
installation of explosive detection equipment in the nation's 
airports--a fact that has been acknowledged by the 9/11 Commission and 
others.
    In order to attempt to meet congressional deadlines to screen all 
checked baggage placed aboard commercial aircraft, TSA quickly placed 
thousands of explosive detection system and explosive trace detection 
machines (ETD) in airports across the country. Many of those machines 
have been placed in airport ticketing lobbies without the kinds of 
integrated approaches that take maximum advantage of their certified 
throughputs and alarm reconciliation capabilities. The result, too 
often, is crowded airport lobbies (a safety and security hazard), major 
backups at a number of security screening checkpoints, and a huge 
increase in the number of TSA personnel necessary to operate the 
equipment. At many airports with ETD solutions, especially during peak 
times, TSA checkpoint screeners are directed to baggage screening, 
resulting in extremely long lines at the passenger checkpoints.
    While virtually everyone agrees that the best solution at many 
airports is to move EDS equipment from crowded lobbies and place it 
``in-line'' as part of an airport's integrated baggage system, making 
the necessary changes at airports--reinforcing flooring, electrical 
upgrades, building new facilities, etc.--are neither easy nor 
inexpensive. Current cost estimates run in the $4 billion to $5 billion 
range for airports nationwide. These upfront capital costs are modest, 
however, when compared to the extraordinary expenses necessary to pay 
for literally thousands of extra screeners year after year using 
today's model. In-line screening in airports such as Tampa 
International Airport has also been shown to reduce the rate of TSA 
screener on-the-job injuries. The handful of airports that currently 
have in-line baggage systems report that they have paid for themselves 
with personnel cost reductions in as little as 16 months. The personnel 
saved by these solutions are then available for other airports or to 
accommodate growth at the host airport.
    The Government Accountability Office verified the benefits of in-
line EDS installation in a March 2005 report (GAO-05-365) entitled 
``System Planning Needed to Optimize the Deployment of Checked Baggage 
Screening Systems.'' Among other things, the report notes that at the 
nine airports where TSA has committed resources to moving EDS equipment 
in-line, these systems will save the federal government $1.3 billion 
over seven years through a dramatic reduction in personnel 
requirements. Specifically, it is estimated that in-line EDS systems at 
those nine airports will reduce by 78 percent the number of TSA baggage 
screeners and supervisors required to screen checked baggage from 6,645 
to 1,477. The report further notes that TSA will recover its initial 
investment in in-line systems at those airports in just over a year.
    Despite the clear benefits of moving forward with in-line EDS 
installation, gaining the resources necessary to expedite the process 
at airports has been difficult. Through fiscal year 2005, Congress has 
appropriated $1.783 billion for EDS-related terminal modifications, 
although significant portions of those funds were used by TSA on the 
short-term challenges associated with getting EDS machines in airports 
to attempt to meet the original statutory deadlines. With conservative 
estimates that the federal government needs to commit a total of $4 
billion to $5 billion to get the job done at airports that require 
these solutions, the federal government has met less than half of that 
need since September 11.
    Current Situation: Only a Few Airports Have In-Line Systems or 
Funding for In-Line Systems
    Currently, only 10 of more than 430 commercial service airports 
currently have in-line EDS systems--Boise; Jacksonville; Lexington, 
Kentucky; Manchester; Tulsa; Boston; Harrisburg; San Francisco; John 
Wayne International; and Tampa. An additional eight have received 
commitments from TSA to fund in-line systems through the Letter of 
Intent (LOI) process--Atlanta; Boston (previously noted); Denver; 
Dallas/Fort Worth; Las Vegas; Los Angeles and Ontario International; 
Phoenix; and Seattle-Tacoma.
    The LOI process allows interested airports to provide immediate 
funding for key projects with a promise that the federal government 
will reimburse the airport for those expenses over several years. At 
Dallas-Fort Worth International Airport, for example, the airport used 
its strong rating in the financial market to leverage the LOI and to 
issue bonds to install these systems. This approach takes advantage of 
professional airport management capabilities and maximizes the use of 
limited federal resources to ensure that key construction projects get 
underway as soon as possible.
    Under the LOI process, the federal government has committed to 
reimbursing airports for these projects over a three to five year 
period. The following lists the LOI airports and the total project cost 
at those airports:





LOI Airports
Airport                                     Total Cost

Atlanta...................................  $125 million
Boston Logan..............................  $116 million
Dallas/Fort Worth.........................  $139 million
Denver International......................  $95 million
Las Vegas McCarran........................  $125 million
Los Angeles/Ontario.......................  $342 million
Phoenix...................................  $122 million
Seattle/Tacoma............................  $212 million
Total LOI Airports:.......................  $1.276 Billion


    Unfortunately, the prospects for gaining resources to move forward 
at airports beyond the nine LOI airports remain bleak. The TSA budget 
request for FY 2006 calls for only $250 million for EDS installation 
projects, the amount mandated in law by VISION-100 FAA reauthorization 
legislation. While $250 million is certainly a significant amount of 
money, the fact is that it will allow TSA to move forward at only a 
handful of airports.
    In fact, TSA has estimated that roughly $240.5 million of the $250 
million requested will be used to meet existing commitments at the nine 
airports covered by the existing eight LOIs with the agency (the LOI 
for Los Angeles World Airports covers both Los Angeles International 
Airport and Ontario International Airport). The $240.5 million figure 
assumes that the agency is allowed once again to ignore provisions in 
law that require the federal government to pay for 90 percent of the 
costs of those projects, otherwise it will be much higher.
    While the projects at those nine airports are necessary, critical, 
and a top priority, the simple fact of the matter is that incremental 
installments of $250 million a year will not get projects started at 
additional airports in the foreseeable future. Clearly, more resources 
are needed to address the dozens of other airports that do not 
currently have LOIs with the TSA. To give the subcommittee an idea of 
the scope of current needs that exist beyond the LOI airports, we have 
included the latest data we have from a number of airports that have 
identified EDS installation as a major challenge facing their facility.


          Airports Currently Without Funding in Place for EDS Installation (With Project Cost Estimate)



Albuquerque                            $48 million  Anchorage                                        $27 million
Biloxi                                  $5 million  Bismarck                                         $20 million
Bradley                                $35 million  BWI                                              $65 million
Charlotte                              $40 million  Chicago Midway/O'Hare                            $90 million
Cincinnati                             $20 million  Cleveland                                        $45 million
Colorado Springs                       $15 million  Detroit                                         $100 million
Elgin AFB                               $2 million  El Paso                                          $15 million
Ft. Lauderdale                         $85 million  Grand Rapids                                     $20 million
Guam                                   $14 million  Honolulu/Kahului                                 $78 million
Houston                               $115 million  Jackson                                           $9 million
John Wayne                             $12 million  Kansas City                                      $34 million
Memphis                                $42 million  Miami                                           $200 million
Milwaukee                              $35 million  Minneapolis/St. Paul                             $30 million
Nashville                              $40 million  Newark                                           $99 million
New Orleans                            $14 million  New York LaGuardia                               $98 million
New York JFK                          $250 million  Oakland                                          $30 million
Omaha                                  $18 million  Orlando                                         $140 million
Palm Beach                             $30 million  Panama City                                      $10 million
Philadelphia                           $65 million  Portland                                         $45 million
Port Columbus                          $22 million  Providence                                       $38 million
Raleigh-Durham                         $40 million  Richmond                                         $30 million
Rochester                              $10 million  St. Louis                                        $90 million
St. Thomas                             $10 million  Salt Lake City                                   $20 million
San Antonio                            $40 million  San Diego                                        $20 million
San Francisco                          $22 million  San Jose                                        $172 million
San Juan                              $130 million  SW Florida                                       $28 million
Tampa                                 $124 million  Tucson                                           $10 million
Washington Dulles                     $121 million  Washington Reagan National                       $52 million

Total:                              $3.019 billion


    We believe that there are dozens of additional airports not listed 
here that have yet to develop comprehensive cost estimates or that have 
not responded to our requests for information.
    Despite these overwhelming needs, the federal government does not 
yet have a long-term EDS solution at a significant number of airports 
across the country. The TSA's task has not been made any easier by 
opposition from the Office of Management and Budget (OMB) to the 
issuance of additional LOIs to airports for these projects. It is our 
sincere hope that OMB will quickly move past what we believe is a 
short-sighted view of this problem and focus on the long-term benefits 
that can be achieved by immediately investing to make the terminal 
modifications necessary to accommodate EDS equipment.
    Mr. Chairman, in-line systems require up-front capital 
expenditures, but they pay for themselves in short-order through major 
reductions in personnel costs. This is an example of budget rules that 
are ``penny-wise and pound foolish.'' One need only look to the real-
world example of the airports where EDS systems have been properly 
installed to get real examples of the dramatic personnel savings that 
can be achieved by moving forward with these projects.
    We continue to look for creative approaches to address the existing 
EDS installation funding shortfall, and look forward to continuing our 
work with you and your staff in that regard. Airports stand ready to 
support the LOI process, and airport managers have repeatedly expressed 
to TSA their ability to accommodate a wide variety of financing options 
to help the federal government fulfill its responsibility.
    Beyond additional resources, we urge TSA to continue its work with 
airport operators and managers to ensure that proposed solutions and 
changes are really the best course at an individual facility. Airport 
professionals understand the configuration and layout of their 
facilities better than anyone and are uniquely suited to highlight 
where pitfalls lie and where opportunities exist. In addition, TSA must 
continue to work with airport operators to optimize the use of limited 
space in airport facilities and to pay airports for the agency's use of 
space in accordance with the law.
    Airports are pleased to see funding in the TSA budget request for 
ongoing maintenance of EDS machines. As the machines age and as their 
use continues to grow and their warranties expire, it is critical that 
funding is provided to keep the existing machines in operation and to 
restore machines that fail.
    Encouraging Development and Deployment of New EDS Technology
    In addition to investing in necessary infrastructure improvements 
and maintenance, the federal government needs to look toward the 
promise of new technology and invest in making those promises a 
reality. We remain convinced that there are a number of additional 
applications for new technology to improve baggage screening, for 
example. ``On-screen'' resolution using EDS equipment, for example, 
offers great promise in enhancing the efficiency of integrated in-line 
baggage systems, and the utilization of technology to achieve that goal 
should be encouraged.
    The key is for the federal government to encourage innovation in 
these areas and to make it a priority to investigate and approve new 
technology as quickly as possible. We are encouraged by the recent 
certification by TSA of smaller ``next-generation'' EDS equipment that 
can be more easily integrated into check-in areas. We believe this 
equipment holds tremendous promise at numerous smaller airports across 
the country as a possible replacement for personnel-intensive trace 
detection equipment. At many of these smaller facilities, in-line 
solutions will not be feasible for one reason or another, so the rapid 
deployment of this type of equipment will produce enormous benefits. We 
commend TSA for its efforts to certify and deploy this equipment at 
several pilot-program airports and urge that the results of these 
pilots be evaluated and incorporated into future practices.
    We must also look beyond our borders to learn from the experiences 
of the rest of the world. In many instances, the goals that we have 
been discussing over the course of the past several years both in terms 
of operations and technology are already a reality in many places. We 
would be wise to study those successes and incorporate best practices 
where appropriate.
    Passenger Screening: Implementation of Registered Traveler and 
Other Programs Critical
    In our view, one of the key components to improving the 
effectiveness and efficiency in the passenger screening arena is 
shifting the focus from finding dangerous ``things'' to finding 
dangerous ``people.'' The most important weapon that the 19 terrorists 
had on September 11 wasn't box cutters; it was knowledge--knowledge of 
our aviation system and existing security protocols, which they used to 
their advantage.
    Programs like Secure Flight and others can help identify threats 
before dangerous individuals have access to the aviation system and 
they must be pursued with careful consideration provided to a full 
range of individual privacy issues. Additionally, we must quickly take 
advantage of the opportunity that exists through deployment of a 
Registered Traveler program to greatly reduce the number of people 
subject to intense scrutiny at screening checkpoints. With more than 
700 million passengers traveling through the U.S. aviation system each 
year--a number that is anticipated to grow to more than one billion 
annually within the next decade--we simply cannot afford to treat each 
passenger the same way. Six million passengers make up the overwhelming 
majority of all travel, and we should make every effort to provide a 
different screening protocol for this group of trusted travelers. The 
subcommittee has been apprised of the many benefits of the RT program 
during your recent series of hearings on the subject.
    The goal moving forward for TSA and industry should be to create a 
permanent, interoperable RT program that improves security, expedites 
passenger processing, creates screening consistency, and reduces the 
passenger ``hassle factor.'' We believe strongly that the program needs 
to move forward now operationally rather than wait for governmental or 
proprietary solutions to answer all the questions over time.

    Conclusion
    Mr. Chairman, we appreciate the opportunity to highlight a few 
areas in which the quick deployment of technology can produce enormous 
benefits in terms of additional security and greatly reduced costs to 
the federal government. The sooner we can move forward in these areas, 
the sooner we can shift resources to other homeland security needs--a 
priority that the tragic events in London last week tragically 
reinforced.
    Airports have aggressively and persistently attempted to develop a 
collaborative working relationship with TSA and DHS since the federal 
government assumed direct control of passenger and baggage screening in 
the wake of 9/11 with the passage of the Aviation and Transportation 
Security Act (P.L. 108-176), and our efforts in that regard continue. 
In our view, a close working relationship makes perfect sense given the 
unique expertise of airport operators and the incentives airports have 
as public institutions to perform security responsibilities at the 
highest levels.
    Thank you for allowing us to testify today.

    Mr. Linder. Ms. Berrick.

 STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR HOMELAND SECURITY 
       AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you, Mr. Linder and members of the 
committee.
    My testimony today focuses on potential efficiencies and 
increased security that can be achieved through the integration 
of Explosive Detection Systems with baggage conveyor systems to 
screen checked baggage for explosives and the need for better 
planning to deploy this equipment.
    TSA has made substantial progress in deploying Explosive 
Detection Systems at the Nation's airports. However, due to the 
high cost and time required to integrate this equipment in-line 
with baggage conveyor systems, TSA deployed most of this 
equipment in a stand-alone mode, mainly in airport lobbies. 
This resulted in operational inefficiencies, including 
requiring a greater number of screeners and screening fewer 
bags for explosives each hour. This configuration also resulted 
in increased security risks due to crowding in lobbies where 
the machines were located.
    TSA also deployed explosive trace detection machines to 
conduct primary screening of checked baggage. Trace detection 
involves a screener swabbing a bag which uses chemical analysis 
to detect traces of explosives. Trace detection is used as a 
primary screening method at more than 300 airports Nationwide. 
Trace detection is more labor intensive and less efficient than 
screening using Explosive Detection Systems, and there are also 
some security tradeoffs.
    TSA and airport operators are taking steps to install in-
line baggage screening systems to achieve efficiencies and 
enhance security. However, resources have not been made 
available to fund these systems on a large-scale basis, and the 
overall cost of installing these systems is not known. We found 
that TSA has not conducted a systematic analysis to determine 
at which airports they could achieve long-term savings and 
enhance security by installing in-line systems.
    At the nine airports where TSA helped fund the installation 
of in-line systems, TSA found the test systems could save the 
Federal Government over $1 billion over 7 years and that the 
government could recover its initial investment in little over 
1 year.
    Although an in-line system can yield significant savings 
they may not be the best solution for all airports. At one 
airport where TSA helped fund an in-line system, TSA estimated 
after the installation began that the system actually resulted 
in a $90 million loss due in part to the significant up-front 
investment required to make airport modifications. TSA also has 
not determined whether greater use could be made of Explosive 
Detection Systems rather than relying on trace detection for 
airports where in-line systems may not be economically 
justified.
    An analysis of airport baggage screening needs would help 
TSA determine the optimal deployment of Explosive Detection 
Systems, potentially resulting in significant savings to the 
government and enhanced security. This analysis would also help 
TSA to determine how to effectively use new technologies such 
as the smaller and faster Explosive Detection Systems.
    This concludes my opening statement. I would be happy to 
respond to any questions at the appropriate time.
    [The statement of Ms. Berrick follows:] Maintained in the 
committee file.
    Mr. Linder. Thank you all very much.
    I will recognize myself for 5 minutes to begin the 
questioning period.
    The on-line EDS, is there any new technology here? Anybody 
take a shot at this. Mr. Parker, is there some new technology?
    Mr. Parker. We have new technologies being added to on-line 
EDS. I mentioned x-ray diffraction which can be coupled with 
on-line EDS to actually make it almost completely automated.
    Mr. Linder. And will it pick up plastic explosives?
    Mr. Parker. Yes.
    Mr. Linder. Will it pick up vials of anthrax?
    Mr. Parker. Anthrax, no. Trace detection. We can do that 
through other forms but not through the checked bags.
    Mr. Linder. Mr. Barber.
    Mr. Barber. Yes. And L-3 is also working a contract with 
TSA for x-ray diffraction to add--to reduce the alarm rates 
after the machine to further increase the automation and remove 
the operator from the scene as much as possible.
    Mr. Linder. Is there a means to standardize aviation 
security technology benchmarks for the vendors to all be on the 
same page, or should we not do that?
    Ms. Berrick. If I could add, I think where this needs to 
start is TSA needs to conduct risk assessments across aviation 
and all modes of transportation to determine what are the 
threats that they need to develop technologies to counter and 
then also what are the vulnerabilities and criticality. Once 
they conduct these threat assessments, which we found they 
haven't completed in the aviation sector--
    Mr. Linder. Have they started it?
    Ms. Berrick. They have. They started and focused primarily 
on threat assessments. They have done much less related to 
vulnerability assessments and criticality assessments. Once 
they complete these assessments, they need to develop 
operational requirements and then establish benchmarks that 
technology companies should strive for to meet to fill security 
gaps.
    Mr. Linder. I fear that the TSA has become a wholly owned 
subsidiary of the airline industry.
    Mr. Hauptli, tell me, of the six million regular travelers, 
how many of the 690 million flights do they make up?
    Mr. Hauptli. Mr. Linder, I don't know that off the top of 
my head. I just know that those 6 million passengers make up--
it is something like 60 or 70 percent of the enplanements for 
the year. So the point being that is a group of people that 
travel on a regular basis. They are willing--most, if not all 
of them, are going to be willing to submit to whatever sort of 
process people decide is necessary, additional background 
checks, whatever vetting needs to happen so that they can move 
through the system as efficiently as possible.
    Mr. Linder. I expect you are working closely with that.
    Is there any expectation that if they get a fingerprint, a 
biometric and you have been checked, that you don't have to go 
through the gates, don't have to take your computer out of the 
case, don't have to take off your shoes?
    Mr. Hauptli. We arm-wrestle with TSA all the time about 
that, sir, in terms of what they would be willing to sort of 
give up in the security process. And that is clearly one of the 
things that we focus on, is the whole notion of do you have to 
take your shoes off. Do you have to take your computer out of 
the case.
    Mr. Linder. Well, what is the point? If you have to go 
through the same process, what is the point?
    Mr. Hauptli. And that is our point as well. We argue that 
there ought to be--that people still should be subject to 
screening and security, not to the secondary screening, and 
that there are things like whether or not you have to take your 
coat off, whether or not you have to take your computer out of 
your bag, whether or not you have to take your shoes off that 
TSA should look at.
    Mr. Linder. Are we looking at a new version of technology 
coming along where you can walk through a magnetometer of some 
new development that will sniff everything--explosives, 
weapons, et cetera, vials of anthrax? Are we getting anywhere 
near the point of that?
    Mr. Barber. There is a variety of technologies that are 
emerging, Congressman, that are potentially applicable. They 
are in the early stages in many cases. Others are in more 
mature stages of development.
    The technology right now for automated detection at a 
checkpoint is really centered around the CT that currently 
exists. Unfortunately, it is physically very large and would 
have a significant impact from a footprint standpoint on a 
checkpoint. But there is automatic detection that is available 
that is older technology, that if we look at spiral development 
of adding other technologies as they become available to reduce 
alarm rates down that may be a more practical or certainly more 
interim kind of a solution. Even if it doesn't provide the 
solution, it may provide operator aids so that we can at least 
start to get some explosive detection into the checkpoint.
    Mr. Linder. Either of your companies working on backscatter 
activity?
    Mr. Parker. We are working on a technology, the millimeter 
waves, which is another--it is not backscatter, but it is 
something that competes with backscatter. It is faster. No 
ionization issues.
    Also, Congressman Linder, if I can also just make a comment 
on the sensors fusion, if you will, pulling things together, 
varying technologies together. You know, as an example, we 
recently were able to demonstrate pulling together a shoe 
scanner using quadrupole resonance technology along with trace 
detection, three access and networking as well as biometrics, 
networking all that together. So that capability is there. We 
just need to know what the standards are and the plans for 
deployment and we can work on those technologies.
    Mr. Linder. Thank you.
    My time has expired. Ms. Sanchez, I recognize you for 5 
minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I want to ask you, Ms. Berrick, a couple of questions.
    First of all, you mentioned that the TSA has not finished 
but it has begun to work on some risk assessment threat 
information with respect to the airports. Do you know if they 
have begun to do that for rail or mass transit or some of the 
other responsibilities that they have with respect to passenger 
transportation?
    Ms. Berrick. To a much lesser extent, although they are 
beginning to. Right after September 11, TSA obviously focused 
on aviation security; and because of that the Department of 
Transportation really still had a role in security up until 
pretty much recently. They are still involved, but TSA is 
starting to become more involved in other modes of 
transportation.
    For example, in rail security they have conducted some 
threat assessments, but they have done much more limited 
vulnerability assessments identifying how vulnerable different 
stations are to potential threats. Then also criticality 
assessments, meaning how critical are different stations or 
trains in terms of loss of life or economic impact.
    So, to answer your question, they have primarily focused on 
aviation more so than other modes of transportation. They are 
starting to get involved more in other modes of transportation, 
but they still haven't completed all of the risk assessments.
    Ms. Sanchez. So from your, I would assume, somewhat limited 
view, because you are just one person and we have really never 
done this before and you are sort of breaking into the field, 
if you will, could you rate what, in your opinion, what 
percentage of airline plan risk assessment vulnerability they 
have done that you think they might have to do, what percentage 
of rail, what percentage of mass transit?
    Ms. Berrick. In those three, estimating, I would say in 
aviation security they have probably done about 75 percent 
where they need to be. And TSA identifies continually and so 
does DHS that they need to follow a risk management approach. 
So they agree with this approach. It is just a matter of doing 
it, and it does require some time and resources.
    In rail, I would say that it is less, probably around 40 
percent; and that is a combination of what TSA has done and 
also what the Department of Transportation has done related to 
rail.
    And I would say right about 30 percent also for mass 
transit. Because, again, the Department of Transportation has 
also been doing some vulnerability assessments that are useful.
    Ms. Sanchez. Great.
    The in-line EDS system, we just heard that with the nine 
systems it is estimated that it is going to be about a billion 
dollars of savings over 7 years and that the initial investment 
would be recovered in a little bit over a year. If that is the 
case, have you talked to TSA? I mean, you know, when we see the 
budget that they have proposed, they have, quite frankly, 
failed to ask for funds for in-line EDS systems, even on some 
of the letters of intent that they have. Have they justified 
that to you as you have looked over their plans?
    Ms. Berrick. In our review of their baggage screening 
program they have identified, first of all, it requires a huge 
up-front investment to install an in-line system; and, right 
now, with the letter of the intent agreement, it is a 75 
percent/25 percent cost share between the Federal Government 
and the airport. So the airports would have to be willing to 
put up 25 percent to fund the in-line system. So TSA's position 
is it is very capital intensive and airports have to agree to 
partner with us in these systems.
    Having said that, one of the things we recommended based on 
the work that we did was TSA really needs to conduct, 
basically, an analysis to develop a business case to identify 
and provide Congress information that you can use to make 
informed decisions about where would in-line systems make 
sense. In doing that analysis, they could identify what would 
be the benefits to the government in terms of reduced screeners 
and potentially enhanced security and also what would be the 
benefits to the private sector, the air carrier and the 
airports that also receive benefits from--because baggage is 
moving through the system much more quickly.
    So I think if TSA does an analysis, identifies to the 
Congress what the benefits are and which airports' in-line 
systems make sense--because, again, it probably doesn't make 
sense for all airports--then you would have the information 
that you need to make informed decisions.
    Ms. Sanchez. One last question, very quickly.
    When you have been reviewing and taking a look at some of 
this, you know there is this whole issue of new technology and 
everybody comes through the door. They have got the latest and 
the best. Do you see a plan with TSA in partnership with some 
of these private companies to sort of almost in a visionary way 
look to see where the next new thing is that they need? I mean, 
are they thinking that far ahead? Or is it just like, this guy 
is in front me today; do I buy his product or not?
    Ms. Berrick. We did do a study of TSA and DHS 
transportation security R&D programs and identified some areas 
for improvement. One was the plan that you are mentioning. TSA 
had not developed a strategic plan for research and development 
for transportation security. I am told that it is being drafted 
right now, and it is soon to be finalized.
    Everything we identified was that DHS and TSA were not 
managing the R&D programs very well. For example, when we asked 
for a listing of all of your R&D programs, it took a very long 
time to get that listing because it wasn't centrally managed. 
Also, about 90 percent of the programs didn't have estimated 
deployment dates. So, although we got a listing, it was unclear 
when these technologies were ever going to come to fruition. So 
we made some recommendations to help them better manage their 
R&D program.
    But it looks like they are moving in the right direction 
with the strategic plan. Now they just need to put the 
management in place to make sure they follow through with that.
    Mr. Dicks. Will the gentlelady yield just on this for just 
a quick intervention?
    Ms. Sanchez. If the chairman will allow.
    Mr. Linder. The gentlelady's time has expired. But go 
ahead.
    Mr. Dicks. How much are they spending on R&D?
    Ms. Berrick. In the 2006 President's budget request, I am 
not sure exactly what they are requesting for R&D. It has been 
about--I think last year was about $150 million for R&D. I am 
not certain what they have requested this year, but they have--
if you look at all of their transportation security R&D and 
programs, they have about 200 right now; and about 70 percent 
of that is in aviation.
    Mr. Linder. The gentlelady's time has expired.
    Gentleman from Mississippi.
    Mr. Thompson. Thank you very much.
    You need a little more time to ask.
    Mr. Dicks. Well, the other gentleman wanted to comment on 
this question, Mr. Chairman.
    Mr. Hauptli. Mr. Dicks, I was just going to make the point 
that in the previous budget TSA ended up using some of their 
R&D money to pay for screeners, much to the chagrin of Mr. 
DeFazio and Mr. Mica and the folks who had been overseeing that 
issue at the time. Because of the pressure that they had on 
their budget to pay for personnel, they robbed Peter to pay 
Paul, which was very disappointing to the industry.
    Mr. Dicks. I thought you were going to say robbed Peter to 
pay John.
    Mr. Thompson. Reclaiming my time, one of the questions, Ms. 
Berrick, is how--in your review of TSA, did you find how they 
went about identifying new technology as a department?
    Ms. Berrick. That is one of the things we did look at. The 
first thing we looked at, it was to what extent did they do 
these risk assessments to identify what were the security holes 
that they needed to fix? And what we found there was that they 
were moving in the right direction. They had conducted some of 
these risk assessments, but there was more work that they 
needed to do.
    We also looked at their coordination with other Federal 
agencies that are involved in research and development and also 
with the private sector, and we found that TSA could do a 
better job in coordinating with other agencies in terms of 
research and development programs that they had undergone. For 
example, Department of Transportation and NASA had some related 
R&D projects.
    Then also we talked to some private sector stakeholders, 
and they felt that TSA could do a better job partnering with 
them on research and development programs that were out there.
    Another thing that we found in a lot of transportation 
security work that we have done is that the private sector 
often looks to TSA to identify promising R&D programs and 
promising technology that they could apply. Understanding that 
they have a role in homeland security, they are willing 
oftentimes to spend the money. It is just they need some 
guidance from TSA on what is the best place to spend it. So we 
also found that in the work that we have done.
    Mr. Thompson. Thank you.
    One of the things is the notion that all of our airports 
are the same and, therefore, they need all of the identical 
equipment. Did you find whether or not TSA had separated 
airports based on some review of what technologies might be 
best for individual airports?
    Ms. Berrick. TSA has categorized airports based on the size 
and the amount of volume that the airports have. But in terms 
of doing a systematic analysis across the airports, because, as 
you mentioned, they are very different in terms of baggage 
screening, they have not done that. They have started to do it. 
We did make a recommendation that TSA do that. They started 
this analysis.
    But we think it is critically important because, as you 
mentioned, in-line systems may not be appropriate for every 
airport. We have over 300 airports that are relying primarily 
on explosive trace detection, and there are some limitations 
with that. So--and even as in-line systems are installed that 
sprang up from Explosive Detection Systems that potentially 
could be moved to some of these smaller airports in place of 
the trace detection.
    So we think it is critically important that TSA conduct 
this planning, and at the time of our review they had not done 
that.
    Mr. Thompson. For the people who are actually in the 
business, have you found the fact that DHS does not really have 
a technology plan--have you found that as a deterrent to doing 
business with them, or would you like for them to come forth 
with a technology plan that you could look at?
    Mr. Parker. We work very closely together with TSA and DHS 
on technology and the plans going for the future. I think the 
only issue is that they tend to work on one technology at a 
time, as opposed to--just like Congressman Linder was asking on 
there is capability of putting multiple technologies together 
in a solution. And that is where it gets a little difficult 
because they just tend to work on one technology at a time, as 
opposed to a concurrence of technology.
    Mr. Thompson. Mr. Barber.
    Mr. Barber. Yeah. Our experience with TSA is if we bring an 
idea to them they are very receptive to it. The level of 
complication sometimes does become a deterrent when we are 
looking at beginning to add multiple technologies to what is 
currently available for in-line. However, if we can put 
together a reasonable business plan we have had a fair amount 
of success in working together with TSA.
    As the lady from the John Wayne area said, there is a lot 
of technologies out there, and everybody has got the latest and 
greatest thing. I think we are all looking at the technologies 
ourselves trying to find the best combination that fully 
automates these things. The better the partnership, the better 
we can achieve that.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Linder. The Chair recognizes the gentleman from 
Washington.
    Mr. Dicks. Thank you, Mr. Chairman.
    I am not sure I know how to--can you hear me? So as we have 
it up here, GAO reported in 2004 that $126 million is spent on 
TSA aviation R&D, which was 80 percent of the entire amount of 
R&D done by TSA. That is our number. So the total R&D is about 
$155 million. But a big significant part is being put into the 
aviation account, is that correct?
    Ms. Berrick. That is correct.
    Mr. Dicks. And you are saying that part of that money was 
borrowed to pay the cost of the screeners?
    Ms. Berrick. In some past years, the R&D budget that TSA 
received for R&D programs was moved to other areas, including 
paying screeners salaries.
    Mr. Dicks. Do you have any idea how much it was?
    Mr. Berrick. I don't have it off the top of my head.
    Mr. Dicks. Can you get us that for the record?
    Ms. Berrick. Certainly. I will get that information.
    Mr. Dicks. Apparently, also we have a limit on the number 
of screeners. This is something that was imposed by Congress 
which I have a problem with because I think we are going to see 
a--you know, hopefully without another 9/11 type incident--a 
significant growth in passenger levels. They are going to 
expand. And I worry that with this congressionally imposed cap 
that we are not going to have the ability to properly screen 
these people or we are going to have tremendous lines at some 
of the key airports like Atlanta and Seattle, Portland and Los 
Angeles.
    Bennie, I can't think of your airport down there. I am 
trying to work on it.
    Mr. Thompson. Jackson.
    Mr. Dicks. But isn't that a problem if they continue this 
cap, that there is going to be a problem of getting the job 
done?
    Ms. Berrick. That is a concern.
    One of the things that TSA recently did that I think will 
help address this problem is they developed a model to try to 
identify the optimal numbers of screeners at each airport. They 
are putting in different factors such as the time required for 
training, overtime, leave, things of that nature, to make sure 
they are coming up with the appropriate numbers at each 
airport.
    Another thing that they are doing is they established 
mobile screening teams. So if they have a particular high 
volume at a certain airport they can deploy these teams to that 
airport to help pick up some of the slack so--
    Mr. Dicks. I must admit that has worked pretty effectively 
at Seattle-Tacoma. I mean, they have sent people there. They 
created a training center there. But there was a lot of 
congressional review of what they were doing. And Mr. Rogers 
helped us on that, by the way.
    But I just worry about this cap. I just think, you know, I 
would rather have another way of dealing with it rather than an 
arbitrary cap. I think some judgment to the agency about how 
many people to hire. You know, I realize there was a tremendous 
growth the first few years. But if we have a growth in traffic, 
I just worry about that.
    Ms. Berrick. GAO has actually been mandated to look at this 
very issue about the screener cap and how TSA is allocating 
screeners among the airports and do they have enough. And we 
have started that. So, in the future, we will have more 
information to provide you on that subject.
    Mr. Dicks. Okay.
    Mr. Parker, on the EDS system, that is your system, right, 
General Electric?
    Mr. Parker. Yes.
    Mr. Dicks. What is the problem? Is the problem just the 
cost of getting these things out there? That is the problem? 
What do we have? Eight airports now or nine airports that have 
ordered these systems?
    Mr. Parker. Right.
    Mr. Dicks. Is it because of the change in structure at the 
airports, that these are large airports and therefore they have 
to do a major reconstruction of the airport to put the system 
in? Is that the biggest problem? And the 25 percent match, and 
I assume is part of the problem, too.
    Mr. Parker. Well, I think it is a couple of things. Yes, 
there is a major investment in the baggage handling system to 
install it, and also the fact that today there is no financing 
alternatives that are being pursued to help with the up-front 
cost.
    Mr. Dicks. Well, the government does this letter of intent, 
right, and that means that they intend to put up 75 percent of 
the cost. Has that worked effectively or not? I mean, I guess 
if only eight or nine airports have done it, it has been 
limited in its success.
    Mr. Parker. It is limited.
    Mr. Dicks. Is a big part the 25 percent? Is that the 
problem? Or is it the reconfiguring the airport that is the 
problem?
    Mr. Parker. I think it is a factor of both, frankly. It is 
reconfiguring and the up-front cost.
    Mr. Hauptli. Mr. Dicks, if I could just add a couple of 
points on that.
    Part of the problem, the airports have been very 
frustrated. Congress authorized $500 million a year for this, 
and the administration has only asked for $250,000 a year or 
$250 million a year. Congress has provided somewhere in that 
range, and so there is a gap there.
    Mr. Dicks. This is the money for--
    Mr. Hauptli. For installing--
    Mr. Dicks. For fulfilling the letter of intent.
    Mr. Hauptli. Yes, sir, for installing the in-line EDS 
systems at the Nation's airports.
    The biggest part of the expense is not the equipment 
itself. It is the modifications to the airport. Congress 
originally made it a 90 percent Federal participation, 10 
percent local matching share; and because the dollars had not 
been appropriated sufficient to meet that, Congress has in the 
appropriations process ratcheted that back or attempted to 
ratchet that back over the past couple of years to 75/25.
    Mr. Dicks. So that has had a negative effect.
    Mr. Hauptli. Yes, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Linder. The gentleman's time has expired.
    Gentleman from Oregon is recognized for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Just to follow up on that. My understanding--Ms. Berrick, 
have you looked at the return on investment for the 
installation of this equipment? My understanding is that we 
have some analysis on threat resolution here from General 
Electric. We have heard other, I think, testimony on this. The 
return on investment because of the diminution of labor costs 
is quite high for these in-line systems, is that correct?
    Ms. Berrick. Right. We looked at TSA's estimates, and they 
identified that the systems could pay for themselves in a 
little over 1 year. And this is primarily due to the reduction 
in screeners that would be required to run an in-line system. 
Specifically, they estimated that they could reduce the number 
of screeners by 78 percent, which is very significant.
    Mr. DeFazio. So if the administration spent a little bit 
more money in 1 year and installed the new equipment in 
cooperation with all the airports that are standing in line for 
equipment and just want the Federal Government to partner with 
them, the government would recoup within 2 years that total 
investment and begin saving money in the annual budget.
    Ms. Berrick. Right. I should clarify that that is what TSA 
has estimated. We have gone to them and said, now that you have 
established some in-line systems, do you have actual data 
showing savings? And they haven't done a lot of analysis on 
that end. But the front-end analysis based on the projections 
that they made and we also independently looked at those, there 
is opportunity for substantial savings.
    Mr. DeFazio. So you were going to look at back-end 
analysis, real-world analysis?
    Ms. Berrick. Right. We want to get that information after 
they have been installed.
    Mr. DeFazio. That would be very helpful.
    On the issue of diffraction-based resolution of threat, 
where would this be in the--I am thinking of the British system 
where you have two levels of automated threat and the third 
level is operator. Are you anticipating we run things through 
an EDS, operators would look at it, and then it would go to the 
diffraction-based system? Or, would it go through the regular 
EDS, go through the diffraction-based and only things that 
couldn't be resolved there would be looked at by the operator?
    Mr. Barber. The key is the technology needs to be fielded 
to help reduce alarms, and operationally I think what you are 
asking is what is the best bang for the buck to reduce labor 
cost. I mean, one could take the scenario that you just take 
out the operator and let the equipment do the resolution and 
then all bags go to search that are finally not resolved. But 
it is probably some combination. But until the technology gets 
fielded and we get some trials in conjunction with the 
improvements that are being made in the basic EDS then we will 
know what the best course of action is.
    Mr. DeFazio. So this could tell the difference between a 
bomb and fruitcake for instance.
    Mr. Barber. Yes.
    Mr. DeFazio. Which the current systems have a little 
trouble with.
    Mr. Barber. Sometimes, yes.
    Mr. DeFazio. I for the life of me don't understand why TSA 
doesn't do a very general announcement when a person buys a 
ticket saying, don't pack. . .and here is the things you 
shouldn't pack or your bag may be opened and things might 
disappear or might arrive in disarray. But they are very 
resistant to doing that. I don't know why. But that could help 
the problem, too, on the front end. Tell people not to pack 
this stuff because of those problems.
    Your return on investment estimates for threat resolution 
or these other investments, are they in line with what TSA has 
said? I mean, have you looked at those issues?
    Mr. Barber. For example, networking in our case, 
Congressman, the networking and on-screen resolution, just as 
an incremental technology add-on, is on the order of 30 percent 
savings versus just having in-line. We have about 170 systems 
that are now on line out of the 550 that we have fielded; and a 
hundred of those are now networks, compared to four before. So 
it makes a big difference whether you are looking at 
incremental technology add-ons or just going in-line. But we 
believe also that the savings is significant just going in-
line. That is the biggest bang for the buck, no questions.
    Mr. DeFazio. Mr. Parker.
    Mr. Parker. Yes, if you look at an example I gave on San 
Francisco, that is, 46 of our systems all networked together in 
one control room; and the savings that I articulated in my 
comments were specifically as a result of that.
    Mr. DeFazio. Those are phenomenal savings. It seems like we 
are shorting the taxpayer here by not making an up-front 
investment one time that would save us money beginning 18 
months out.
    Mr. Hauptli, just the Orlando model--we had some 
testimony--Trusted Traveler. I agree with you. I would love to 
get specifics on how many people take what number of flights. 
Because the numbers are all over the place. But we all agree 
there is some small number of people that take a large number 
of flights, travel frequently.
    Mr. Hauptli. Most of them are right up here.
    Mr. DeFazio. There are others--but, yeah--who suffer as 
much or more than we do.
    But, on Orlando, do you--I have tremendous concerns that we 
have the $79.95 model, which is something that was market 
tested, is not being sold at or near cost, not regulated, and 
there is potential for a monopoly gouging the other airport 
profits in this and the airport might have an incentive to 
create really long lines for the people who haven't bought 
their product and they haven't profited from it. Do you have 
concerns about this poor profit model?
    Mr. Hauptli. Sir, I will go ahead and mark you as undecided 
in your view on the Orlando model. That is not an issue that we 
have really taken a look at. We haven't focused on that 
specific example. Orlando is not part of this initial group of 
founding airports that is part of this consortium. They may try 
and come in later, and we would welcome them.
    But I think that you are going to find that it will 
probably, as this moves forward, vary from airport to airport 
as airports decide what additional sorts of benefits that they 
might want to provide to the people who sign up. In some 
instances, you could envision a situation where people would 
want to provide preferred parking as well as part of the whole 
travel experience. There is a whole range of possibilities.
    We are just really at the infancy in the creation of, 
again, these common business rules and technical standards. So 
I know that there is concern expressed by some about what 
Orlando is trying to do. They are sort of off on their own on 
that one.
    Mr. DeFazio. Okay. Thank you.
    Mr. Linder. The time of the gentleman has expired.
    Gentleman from Rhode Island is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman; and I want to thank 
all of our witnesses for testifying today.
    I would like to turn my attention first to EDS equipment, 
and my first question is for Ms. Berrick. How is TSA 
determining which airports receive letters of intent for in-
line EDS systems and do they use risk assessments in making 
these determinations or physical assessments of particular 
airports' needs or some other method? In particular, T.F. Green 
airport in Rhode Island, my home State, has been eagerly 
awaiting its LOI for several years now; and, meanwhile, its 
stand-alone system is creating continuous hazards and problems 
for employees and travelers due to its placement right at the 
main ticketing area. So that question.
    My next question is for Mr. Hauptli. Do you think that 
letters of intent have been an effective way to construct 
public-private partnerships to enable development of in-line 
EDS systems and how do you think TSA should in fact prioritize 
which airports receive funds for in-line EDS systems 
construction?
    Ms. Berrick. With respect to criteria for issuing letters 
of intent, initially, TSA's criteria were really two points. 
The first was who was going to be requesting the LOI first. So 
it was really almost a first-come-first-serve basis. Along with 
that is who was willing to--what airports were willing to 
upfront the 25 percent cost share. So initially that was really 
the criteria, which airports were willing to do this and 
willing to make this up-front investment.
    Since that time, TSA has put some criteria in place; and 
that criteria is primarily if these airports did not have in-
line systems would they fall out of compliance of 
electronically screening checked baggage for explosives. So it 
is, from a security standpoint, if we don't have in-line 
systems, will airports not be able to screen baggage.
    And you asked about risk assessments, and they are starting 
to use that as a part of their criteria. But it is really in 
its infancy. They need to do more in that area.
    Mr. Langevin. So you are saying before it was first-come-
first-serve with no assessment made at all.
    Ms. Berrick. Right. That is what we were told by TSA. And 
now again they have started to develop criterion moving 
forward, and we recommended and they agreed that they need to 
develop a plan on which airports' in-line systems would make 
sense in terms of savings and efficiency, and as part of that, 
they are developing criteria and moving forward. But the 
initial letters of intent they reported to us that it was based 
on which airports were willing to make the up-front investment 
and who came in first and requested it.
    Mr. Langevin. Okay. That indicates again how backwards the 
system is as far as I am concerned.
    Okay, Mr. Hauptli.
    Mr. Hauptli. Yes. Mr. Langevin, the question in part was 
how effective has the letter of intent program been. I would 
say if you look at 50 or 60 of them that have been received and 
for the only 8 or 9 of them being issued and the Office of 
Management and Budget essentially sitting on the DHS and 
sitting on TSA and telling them not to issue any additional new 
letters of intent, which has been tremendously frustrating to 
the airport community--so a promising program.
    TSA asked for help in the creation of a letter of intent 
program. It was modeled after a similar kind of program that is 
used in the airport improvement program in the FAA and got 
going. But then OMB sort of came in and said, let's not do any 
more of these; and so TSA hasn't issued any more of them.
    There is--like I said, there is a bunch of airports 
chomping at the bit to get letters of intent. In the written 
testimony there is a whole list of those airports with dollar 
amounts associated next to it.
    Mr. Hauptli. Congress has not appropriated sufficient 
funds, so from an airport perspective this is a 4--to $5 
billion program that Congress is appropriating 250--to $300 
million a year to solve. At that rate, it will take 10, 15 
years to get these in place, and we don't have the luxury of 
that kind of time.
    Mr. Langevin. No, we don't. Thank you, my time has expired, 
but I may have some questions for the record and I yield back, 
Mr. Chairman.
    Mr. Linder. The gentleman from Massachusetts is recognized 
for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    It is a national scandal that we do not screen cargo that 
goes onto passenger planes in any meaningful way. It is a 
scandal. And it will be a national tragedy if Al-Qa'ida 
exploits that weakness in our defense system, if the TSA is 
allowed to continue to use the excuse that the technology does 
not exist to screen cargo.
    Seventy-five percent of all cargo can be screened using 
existing technology that is already used to screen the baggage 
of passengers which is screened on those very same passenger 
planes. As you all know, a package this size doesn't even have 
to go through the known shipper program to get onto a plane. If 
it was in our bags, they would take it out, they would wand it, 
they would look at this three different ways. If you put it on 
this cargo, not even the known shipper program is--
    Mr. Barber, as you know, the RAND study in September of 
2004 determined that 75 percent of all commercial cargo 
transported on passenger planes could be inspected for screened 
luggage.
    Mr. Barber, I would like to start with you. L-3 worked 
successfully with the Massachusetts Port Authority at Logan 
Airport on an air cargo inspection program that began 2 years 
ago. This program demonstrated the feasibility of screening 100 
percent of the cargo that is loaded on passenger planes.
    I expect that you are aware that the Bush administration 
and the airlines claim that the technology doesn't exist to 
inspect 100 percent of the cargo loaded aboard airliners, even 
though we currently inspect 100 percent of airline passengers, 
their check bags, their carry-on bags. The Bush administration 
would have us believe that screening 100 percent of the 
containers in the cargo bay is beyond the technological 
capacity of the Federal Government. NASA will be launching a 
shuttle, but we are told we can't figure out how to screen 
bags, cargo, that is almost identical to passenger bags.
    In fact, when I made the amendment with Congressman Shays, 
Asa Hutchinson says, because of the significant technological 
limitations, there is no practical way to achieve 100 percent 
manual inspection of the air cargo. And that is absolutely 
untrue. Absolutely untrue.
    Mr. Barber, I understand that L-3 provides Dutch customs 
with equipment to inspect cargo that is carried aboard 
passenger planes and cargo planes in Amsterdam. Could this 
equipment be used for a similar purpose in the United States?
    Mr. Barber. Absolutely, Congressman. It is a truck screener 
primarily, or a container screener; it does provide an image 
for an operator. It does not do explosive detection, but it 
could provide an image. And if we considered adding technology 
to that in a layered approach, that is a potential solution, 
yes.
    Mr. Markey. Thank you.
    Mr. Parker--
    Mr. Dicks. For explosives, too?
    Mr. Barber. Well, the current capability in cargo, large 
cargo screening, unlike the packages the Congressman has shown, 
would not be able to discriminate for explosives, but other 
technologies could be added on. I mean, you could do something 
as simple as put portals or holes in the cargo and try to draw 
off a sample to try and get at least some indication of it, 
like the trace equivalent. Plus, if you combine that with the 
trusted shipper kind of program, you can begin to build a 
layered security solution. And it may not be perfect, but it 
would be an approach.
    Mr. Markey. Mr. Parker, do you believe that the technology 
currently exists to inspect 100 percent of air cargo carried 
onto passenger planes?
    Mr. Parker. Certainly when it comes to break cargo, that 
technology does exist.
    Mr. Markey. Thank you, Mr. Parker, for that answer.
    I would like to read, if I may briefly, Mr. Chairman, 
something for the record that was sent to me by the head of the 
Massachusetts Port Authority, Mr. Craig Coy, who wrote to me in 
February of this year to update me on the results achieved by 
the cargo demonstration at Logan Airport conducted in 
coordination with L-3.
    In his letter, Mr. Coy said to me, quote: 100 percent 
screening of all air cargo on all types of aircraft is 
technically possible. Two, a Federal mandate for this is 
critical, both in order to deal with the liability issues and 
to provide the technical standards this complex screening 
challenge must meet. And third, a Federal mechanism needs to be 
established that fairly distributes the cost among the major 
players, the Federal Government, the shippers, the carriers and 
the airports.
    I ask unanimous consent that this letter in its entirety be 
placed into the record, Mr. Chairman.
    Mr. Linder. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7448.012
    
    Mr. Markey. In the aftermath of the London bombings, for 
someone from Boston that had 10 people led by Mohammed Attah, 
who hijacked two planes 3 miles from my house 4 years ago, this 
is a very serious business. The next sleeper cell could very 
well right now be activated and getting ready to move, and this 
is a wide-open opportunity to recreate to a very large extent 
what happened on 9/11. And I believe that what you are telling 
us today is that the Federal Government, the Bush 
administration, has no excuse for not putting together a 
comprehensive program to ensure that no passenger flies in 
America that has their shoes screened and their bags screened, 
but the cargo under their feet unscreened that can be used as 
an opening for Al-Qa'ida.
    Thank you, Mr. Chairman.
    Mr. Linder. The hearing has come to an end; it will be 
adjourned. I want to thank our witnesses, you have been very 
helpful, your time has been very valuable to us--just this 
panel. We have another panel coming up. So thank you very much 
for your time.
    Mr. Rogers. [Presiding.] At this point, due to the large 
number of the second panel that is here, we would request 
unanimous consent that the oral statements by each of our 
witnesses be limited to 3 minutes. Without objection, so 
ordered.
    I would like to thank the panel for their time. I know 
everybody is busy, and we really do appreciate your 
availability and your willingness to come and make statements 
and testify before this committee.
    [The statement of Mr. Ellenbogen follows:]

                Prepared Statement of Michael Ellenbogen

    Mr. Chairman, on behalf of Reveal Imaging Technologies, I would 
like to thank you for the opportunity to appear before the Committee to 
offer my observations on deployment of Explosive Detection System (EDS) 
technology to improve efficiency and enhance the effectiveness of 
airport security screening. As a relatively new company, this marks 
Reveal's second opportunity to testify on our next generation aviation 
security solution, and we very much appreciate your invitation to 
appear before the Committee today.
    The enactment of the Aviation and Transportation Security Act 
(ATSA) was a defining moment in the history of aviation security and 
the security industry. For the first time Congress mandated 100 percent 
screening of all passengers checked baggage, along with other 
improvements to the aviation security system, such as screening of 
carry-on baggage for explosives. This law has dramatically improved 
aviation security.
    In addition to establishing the screening deadline, Congress 
provided clear direction by specifying that baggage screening must be 
performed using the Transportation Security Administration's (TSA) 
Certified Explosive Detection Systems. Based on ATSA's clear direction, 
Reveal developed a next-generation EDS that was based on computed 
tomography (CT) technology, but at the same time was
        <bullet> less expensive;
        <bullet> smaller and lighter; and
        <bullet> in-line with the way an airport operates.
    ATSA had the unforeseen benefit of creating a climate whereby 
private funding became available for entrepreneurs with solutions to 
aviation security challenges. It was in this environment that Reveal 
was able to raise in excess of $20 million in private funds for one 
express purpose--to develop, certify, and manufacture a next-generation 
explosive detection system.
    Yet, even though we are privately owned, we consider the 
Transportation Security Administration our partner. We are making every 
effort to work with TSA to find innovative solutions to meet the 
national mandate to screen airline passenger baggage. Reveal counts on 
direction from TSA to improve our current product and develop future 
products that will fulfill screening requirements while meeting the 
operational needs of airports, airlines and passengers. This 
collaboration with TSA is essential if federal research and development 
(R&D) funds are going to be augmented by private investment in the 
development of innovative solutions that provide not only the highest 
level of security, but also the highest possible levels of customer 
service to the millions of air travelers in this country.
    Now more than ever the aviation industry needs clear direction from 
TSA on the agency's strategic plan. Without this direction, it is 
impossible to produce the detailed cost benefit analysis that is 
required by private investors before they provide funds to improve 
existing products or design new products. In this time of limited 
taxpayer dollars, both Congress and TSA should welcome the leveraging 
of federal R&D funds with private investment.

    Checked Baggage Screening: Lessons Learned
    There are two broad categories of EDS machines currently available.
        <bullet> Stand-alone machines that are deployed in ``lobby'' 
        installations.
        <bullet> Integrated machines that are deployed in ``in-line'' 
        installations.
    The two primary advantages of the lobby installations are the quick 
implementation time and the fact that passengers will be present if 
their bag is flagged for physical search. This approach is labor 
intensive, uses valuable lobby space, and is not convenient for the 
passenger. It is clear to all that this is not an effective long-term 
solution.
    The current solution to the lobby problem is to install EDS 
machines directly into the baggage conveyor system. This option 
requires significant modification to the baggage conveyor system and 
airport infrastructure in order to add the EDS equipment, conveyors, 
and bag tracking systems. To implement this solution, most airports 
will be required to re-construct existing terminals to house the 
baggage screening equipment and personnel--or even create new buildings 
or extensions to do so. Government estimates project that up to $5 
billion in additional equipment and airport infrastructure will be 
required to achieve the 100 percent inspection mandate using the in-
line solution.
    This is not meant to imply that placing EDS equipment in-line is 
not a good approach. In fact, we believe that in-line screening is 
indeed the best option available to both airports and TSA. By placing 
EDS equipment in-line and networking the systems to a single screener, 
TSA will be able to realize substantial labor savings year after year. 
Your colleagues on the Appropriations Committee acknowledged this in 
the committee report (H.R. 108-541) accompanying the fiscal year 2005 
Homeland Security bill, by stating that ``if TSA deployed inline 
Explosive Detection Systems (EDS) machines with multiplexing 
capabilities, TSA could save up to six FTEs for each suite installed.'' 
Clearly there is a sound financial reason for the Federal Government to 
implement this solution.
    What about the other stakeholders? Does deploying EDS equipment in-
line make sense to airports, airlines, and passengers. Again, I believe 
the answer is an unequivocal yes. This was clearly articulated last 
year in Congressional testimony by representatives of Airports Council 
International and American Association of Airport Executives. In their 
written testimony, Mr. David Plavin and Mr. Todd Hauptli stated,'' 
nowhere can better improvements be made in aviation security and system 
efficiency than in the area of explosive detection (EDS) installation 
at airports. While the costs of moving EDS equipment out of crowded 
terminals lobbies and placing it `in-line' as part of the airport's 
integrated baggage system are significant with a price tag estimated 
between $4 billion and $5 billion nationally, investing now in this 
effort will improve security and service and produce significant 
personnel savings.''

Next Generation Explosive Detection Systems
    Reveal has spent the last year working with Congress, TSA, 
airports, and airlines trying to answer the question, ``Is it possible 
to deploy EDS in-line and gain the inherent personnel savings for TSA, 
while at the same time reducing the $4 billion to $5 billion airport 
installation price tag?'' One doesn't have to spend very much time with 
airports before you recognize that the needs and desires of each 
airport are different. For example, the screening issues confronting 
Los Angeles International Airport are different from those of Gulfport-
Biloxi International Airport in Mississippi. Given this reality, how do 
you best solve this dilemma and still provide airports with the options 
they will ultimately require?
    Reveal has designed, certified, and built a product that not only 
provides a means for TSA to achieve their personnel savings, but also 
provides airports and airlines with a way to deploy EDS in-line at a 
fraction of the cost. It is also a true success story of how industry 
and government can work together to very quickly define, develop, and 
produce new and innovative technology.
    Briefly, Reveal developed a way to reduce the size of EDS machines 
without conceding detection performance. This allows next-generation 
EDS machines to be far smaller and less expensive than the incumbent 
generation of screening units. While sharing the same tunnel size as 
existing EDS products, these systems can now be built into the 
passenger ticket counter or check-in desk in a network of EDS scanners.
    This distributed architecture provides in-line EDS without forcing 
airports to undertake the costly redesign and rebuild of their baggage 
conveyor system. Because it is fully networked, this next-generation 
EDS solution provides screener labor savings identical to custom in-
line rebuild programs, but without the billions of dollars in airport 
infrastructure reconstruction and disruption to airport operations.
    Furthermore, for some airports, the passenger check-in counter is a 
logical place to perform baggage screening since they typically wait 
about two minutes for their boarding pass. This ``dead'' time provides 
the next-generation EDS machines with a way to significantly reduce the 
false alarms being experienced by alternative installations that have 
only a few seconds to scan a bag. And because the bag stays with the 
passenger, any conflict resolution can occur while the passenger is 
with the bag, potentially increasing passenger satisfaction. These 
smaller next-generation units can also be used anywhere passengers and 
their baggage check in, including curbside and remote check-in or at 
self-serve kiosks.

Passenger Checkpoint: The Next Challenge
    I would like to very briefly discuss what I see as the next 
challenge for TSA and this Committee--screening carry-on luggage for 
explosives. Although at first glance this might not seem to be related 
to the deployment of in-line EDS, I believe they are very closely 
related. To a large extent, the issues TSA encounters for checked 
baggage will be replicated when they begin to investigate potential 
options for screening carry-on baggage for explosives. These are 
natural choke points in the airport security process and must be dealt 
with in a ``distributed'' manner at airports.
    Although deployment of EDS at checkpoints can improve the overall 
detection performance of the passenger screening process, as well as 
eliminate the need for redundant hand searching of selectee bags 
(pending protocol), simply replacing existing checkpoint X-ray systems 
with a traditional 100% EDS solution would be cost prohibitive and 
would likely further slow the passenger screening process.
    TSA has recognized the need to improve the security process at the 
passenger checkpoint. However, TSA and airports are struggling to keep 
up with passenger processing using today's screening systems and 
procedures. We are all familiar with stories of how long lines formed 
during peak periods. These lines will continue to lengthen as air 
traffic grows and TSA enhances security at passenger checkpoints. 
Furthermore, in most locations airports do not have additional real 
estate to expand passenger checkpoints.
    The system Reveal has developed for checked baggage is a uniquely 
designed for passenger checkpoint screening. By applying similar 
protocols to those being developed for checked baggage, it is possible 
to improve security, increase passenger throughput, and reduce TSA 
labor by screening carry-on baggage with an EDS. I believe that 
airlines and airports would eagerly embrace a system that can 
significantly increase the throughput of the passenger checkpoint as a 
means to improve customer service while eliminating the need to expand 
checkpoints.

Conclusion
    Mr. Chairman, since the tragic events of 9/11, EDS manufacturers 
have primarily been focused on meeting and supporting the deadlines 
mandated for checked baggage screening deployment. As has been 
articulated in previous testimony before Congress by the airport 
community, ``it is now time to move forward to ensure that limited 
federal resources are wisely utilized to enhance security, system 
efficiency, and passenger convenience.'' I believe that the items 
outlined in my testimony are critical to this effort. In particular,
        <bullet> TSA must continue to work in close partnership with 
        industry to encourage innovation and approve new technology as 
        rapidly as possible. This is the only way that industry will be 
        able justify the large investments required to develop new 
        technologies that will ultimately enhance aviation security and 
        improve customer satisfaction.
        <bullet> There is no ``cookie cutter'' formula that can be 
        applied to every airport in the United States. As an airport 
        director said to me once, ``If you have seen one airport. . 
        .you have seen one airport.'' We must recognize the unique 
        needs of individual airports and take their requirements into 
        account as we continue to enhance aviation security.
        <bullet> Deploying EDS equipment ``in-line'' does not mean that 
        airports need to exclusively undertake large, expensive, time-
        consuming construction projects. TSA and industry have 
        contributed significant resources to develop next-generation 
        EDS equipment that provides a lower cost alternative to the 
        vast majority of the nation's airports. There needs to be a 
        plan for how to take advantage of this investment.
    I appreciate the Committee's continued interest in this topic and 
look forward to working with you and TSA to accomplish our mutual 
goals.

    Mr. Rogers. And the first witness that I would call for any 
statement that you might have is Anthony Fabiano, President and 
Chief Executive Officer of American Science and Engineering, 
Inc. And we welcome your oral statement, and you could make a 
longer written statement for the record, if you would like.

                  STATEMENT OF ANTHONY FABIANO

    Mr. Fabiano. Thank you, sir. Congressman Rogers, I have an 
appendix that you all should have a copy of as part and parcel 
to our presentation.
    I would like to thank the Chairman, the Ranking Democratic 
Member, and members of the subcommittee on behalf of American 
Science and Engineering for this opportunity to speak about how 
to make our airports safer and our traveling public more 
secure. We believe security checkpoints at our Nation's 
airports can and should be more effective.
    Today I would like to tell you about a technology invented 
and patented by our company, called Backscatter X-Ray Imaging. 
Backscatter can provide a much higher level of detection over a 
broader range of threats than any technology currently employed 
at airports for inspecting carry-on baggage and people. 
Backscatter can identify small metal objects such as detonator 
wires, nonmetallic weapons such as ceramic knives, and very 
small amounts of explosives in a sealed packet.
    The Department of Homeland Security, Office of Inspector 
General, reported in its audit of passenger baggage screening 
procedures at domestic airports in 2004 and 2005, the most 
recent report revealed that the quantity of threats that go 
undiscovered through our current airport checkpoints is still 
unacceptable. The report concludes by encouraging TSA to 
expedite its testing programs and give priorities to 
technologies such as Backscatter x-ray that will enable the 
screening workforce to better detect both weapons and 
explosives. With current and contemplative technology used at 
airports, several classes of threats may go undetected and be 
carried on board aircraft. They include metal weapons, smaller 
than the metal detector threshold setting; sealed envelopes of 
explosives with no residue trace; nonmetallic weapons such as 
ceramic knives and composite pistols, weapons or explosives 
concealed in sensitive areas of the body.
    Backscatter Image x-raying, when used to scan people, is a 
safe and effective method to find almost all classes of 
threats, including those described above. It is almost 
impossible to hide a threat on the human body that goes 
undetected by Backscatter. Backscatter Imaging is very safe; 
the x-ray exposer from a Backscatter scan is equivalent to the 
exposure you receive from background, and only 3 minutes when 
flying in an airplane at altitude.
    Figure 4, in your presentation, at appendix A is a 
Backscatter image of a person hiding several types of threats 
beneath their clothing. As you see, it would be difficult to 
hide something like a weapon or explosive.
    This unfiltered Backscatter x-ray creates a detailed image 
of the subject. Our company and TSA appreciate the sensitive 
nature of these images and have worked diligently together to 
develop approaches to address privacy concerns. AS&E has 
developed software algorithms for modifying the images to 
highlight potential threats and yet diminish the image in 
sensitive regions of the body.
    I draw your attention to figure 5 of appendix A, which 
shows a privacy-enhanced image, which is the only image seen by 
the reviewer. The reviewer never sees the original unfiltered 
image, nor do they have the opportunity to save or display the 
image elsewhere.
    In summary, American Science and Engineering stands ready 
to deploy its Backscatter personal scanners at airports today 
with software algorithms to address the privacy concerns. 
Backscatter detects all threats accurately and repeatedly, it 
is safe, privacy should no longer be an issue, it is cost 
effective to operate, it is available now.
    We urge the members of this committee to support DHS and 
TSA in their plans to deploy Backscatter at airports as soon as 
possible. The security of our Nation and the safety of its 
traveling public will be the better for it.
    Thank you for the opportunity to present, and I would be 
pleased to answer any questions.
    Mr. Rogers. Thank you, sir.
    [The statement of Mr. Fabiano follows:]

                 Prepared Statement of Anthony Fabiano

    Chairman Cox, Ranking Member Thompson and Members of the Committee 
on Homeland Security, on behalf of American Science and Engineering 
Inc., we would like to thank you for the opportunity to speak today 
about how to make our airports safer and our traveling public more 
secure. We believe security checkpoints at our nation's airports can 
and should be more effective. Today, I would like to tell you about a 
technology invented and patented by our company, called Backscatter X-
ray Imaging. Backscatter has been the technology of choice for 
protecting most high threat facilities around the World, including the 
Russell and Dirksen Senate Office Buildings. Backscatter can provide a 
much higher level of detection over a broader range of threats than any 
technology currently employed at airports for inspecting carry-on 
baggage and people. Backscatter can identify small metal objects, such 
as detonator wires, non-metallic weapons, such as ceramic knives, and 
very small amounts of explosives in a sealed packet. The U.S. Military 
is also using Backscatter to effectively find Improvised Explosive 
Devices hidden in vehicles and on people in the theater of operations, 
Iraq. Over 50 systems are currently deployed, with more on the way.
    TSA recognizes the advantages of using Backscatter X-ray Imaging 
for finding potential threats hidden on people and in carry-on baggage, 
and recently announced plans to pilot Backscatter for personnel 
screening at airport checkpoints. The Department of Homeland Security 
(DHS), Office of Inspector General (OIG) reported in September 2004 on 
its ``Audit of Passenger and Baggage Screening Procedures at Domestic 
Airports''. After suggestions by the OIG were implemented by TSA 
following this report, the audit was repeated and a follow-on report 
was issued in March 2005. The March 2005 report stated that the 
quantity of threats that go undiscovered through our current airport 
check points is still unacceptable. The study's conclusion was that the 
``majority of screeners. . .were diligent in the performance of their 
duties'' and that ``the lack of improvement since [the] last audit 
indicates that significant improvement in performance may not be 
possible without greater use of technology.'' The report concludes by 
``encourag[ing] TSA to expedite its testing programs and give priority 
to technologies, such as backscatter x-ray, that will enable the 
screening workforce to better detect both weapons and explosives.''
    First let me tell you briefly what Backscatter is and why it is 
unique. X-rays do one of three things when they impinge on an object or 
person: they pass through, get absorbed or scatter. If the object is 
not very dense, they would pass through without stopping. If the object 
is dense, like metal, they might get absorbed. The difference of what 
goes through versus what gets absorbed is used to map the dense 
contents of an object and to make a determination if there is something 
in the image worth worrying about. An example in medicine would be a 
conventional chest X-ray. This technique, called transmission X-ray, is 
also used today to determine if there is a threat in your carry-on bag. 
However, if the object is made of or contains an organic material, such 
as explosives, it might be very hard to see in Transmission X-rays. The 
difference between what gets through versus what gets absorbed is not 
great enough to make a good diagnosis. However, organic materials 
scatter X-rays in all directions, including backwards. By creating an 
image of the back scattered X-rays we can identify the presence of 
those organic materials, including explosives.
    At today's airports two techniques are used for inspecting carry-on 
baggage, Transmission X-rays and Trace Wipes. First your bag is sent 
through a Transmission X-ray scanner. We've all done this, you put your 
bag on a conveyor, an image is taken as it goes through the machine and 
a TSA inspector determines if you are carrying a threat. If they can't 
make a definitive determination, they might put your bag through a 
second time or send it to another station where a wipe of the outside 
of your bag would be analyzed for traces of explosive residue. If the 
explosive material is missed during the X-ray, it may never go to a 
secondary ``wipe'' screen and would be missed.
    Figures 1, 2 and 3 of appendix ``A'' illustrates how Backscatter 
helps identify objects missed in baggage by conventional X-ray imaging. 
Figure 1 is a Transmission X-ray image of a briefcase with a laptop 
computer containing 3 explosive devices. The image was taken with a 
system currently used at airport checkpoints. Figure 2 shows the same 
image after ``dual-energy'' processing to highlight explosives. Only 1 
explosive is revealed.
    A Backscatter X-ray image of the same bag with the laptop is shown 
in figure 3. In this image all three explosive devices are clearly 
seen. Today, two potential threats would likely have gone undetected.
    Let's now consider threats hidden on a passenger. Backscatter 
technology is particularly well suited to identifying threats on a 
person.
    Today, airport security checkpoints primarily use metal detectors 
to find threats concealed on travelers. There are three fundamental 
limitations of metal detectors:
        1. First, they only alarm on metal objects, leaving many non-
        metallic weapons and explosive devices undetected.
        2. Second, the size of the metal object detected is subject to 
        the nuisance alarm threshold setting. Small metallic objects, 
        such as a plastic handled box knife may go undetected.
        3. Third, alarms need to be resolved by another person or 
        device. Portable metal detector wands and pat-downs are often 
        used. This slows the process, is labor intensive and is subject 
        to the competency and thoroughness of the person performing the 
        function. Pat-downs are considered by many to be very intrusive 
        and have been met with substantial resistance by the traveling 
        public.
    Recognizing that metal detectors can not find explosive devices, 
TSA has recently tested trace portals at airports. These devices can 
identify trace amounts of explosives if residue from one explosive 
material is present on the person or their clothing. If the explosives 
are sealed or if there is no residue, the explosives may go undetected, 
regardless of their size. In addition, there are classes of explosives 
that do not give off enough trace materials to trigger an alarm.
    Therefore, even when using both metal detectors and trace portals, 
several classes of threats may go undetected and be carried onboard 
aircraft. They include:
        --Metal weapons smaller than the metal detector threshold 
        setting.
        --Sealed explosives with no residue trace.
        --Non-metallic weapons such as ceramic knives and composite 
        pistols.
        --Weapons or explosives concealed in sensitive areas of the 
        body.
    Backscatter X-ray Imaging though, provides the broadest range of 
detection capability when used to scan people, including those threats 
just described. It is almost impossible to hide a threat on the human 
body that goes undetected by Backscatter.
    Backscatter imaging is very safe. The X-ray exposure from a 
Backscatter scan is equivalent to the exposure received from background 
in only three minutes when flying in an airplane at altitude.
    The amount of radiation exposure given to the person during the 
procedure is extremely small. The National Committee for Radiological 
Protection & Measurement have determined that up to 5000 scans per year 
are safe for even the most sensitive class of people, including 
pregnant women and children. It is equivalent to the exposure received 
from background when flying in an airplane at altitude for just a few 
minutes.
    Figure 4 of Appendix ``A'' is a Backscatter image of a person 
hiding several types of threats beneath their clothing. As you can see, 
threats including handguns, knives, and explosive material are clearly 
detectable.
    This unfiltered Backscatter X-ray creates a detailed image of the 
subject. Our company and TSA appreciate the sensitive nature of these 
images, and we have worked diligently with TSA to develop approaches to 
address privacy concerns. By physically separating the scanned person 
from the image reviewer and using gender-specific reviewers, some 
privacy concerns may be eased. However, AS&E has gone a step further 
and developed software algorithms for modifying the images to highlight 
potential threats and yet diminish the image in sensitive regions of 
the body. Figure 5 of Appendix ``A'' shows the privacy enhanced image 
which is the only image seen by the reviewer. The reviewer never sees 
the original unfiltered image nor do they have an opportunity to save 
or display the image elsewhere. Figure 6 is another sample image in 
which the explosive is highlighted by the computer in red.
    American Science and Engineering stands ready to deploy its 
Backscatter personnel scanners at airports today with software 
algorithms to address privacy concerns. Backscatter X-ray Imaging 
detects the broadest range of threats, including metallic weapons, non-
metallic weapons, and explosives by providing a clear and unambiguous 
image of the threat. With Backscatter systems there should be little 
need to resolve false alarms with a second security person or method, 
thereby improving the efficiency of the screening process.
    We urge the Members of this Committee to support DHS and TSA in 
their plans to deploy available Backscatter systems at airports as soon 
as possible. The security of our nation and the safety of its traveling 
public will be the better for it.
[GRAPHIC] [TIFF OMITTED] T7448.004

[GRAPHIC] [TIFF OMITTED] T7448.005

[GRAPHIC] [TIFF OMITTED] T7448.006


    Mr. Rogers. The Chair now recognizes John W. Wood, Jr., 
President and Chief Executive Officer of Analogic.

                 STATEMENT OF JOHN W. WOOD, JR.

    Mr. Wood. Thank you, Mr. Chairman.
    Analogic came to the airport security business through 
medical imaging, and for more than 30 years we have developed 
CT-based technology. And to draw an analogy, no patient 
entering the hospital with a serious illness such as cancer or 
heart disease would expect to have an image taken of them with 
an old-fashioned, century-old, two-dimensional x-ray system. 
They would expect to be imaged with a CT or MRI, which provides 
a complete three-dimensional volumetric reconstruction of the 
organs in the body.
    We do the same thing with checkpoint carry-on luggage, and 
we have developed a machine called COBRA, developed with our 
own company's funds. We are quite pleased with the TSA response 
to this new technology that offers several advantages.
    First, a two-dimensional x-ray in place in airports for 30 
years now won't recognize objects completely. A pistol at the 
wrong angle looks like a block, a knife at the wrong angle 
looks like a line. We provide a complete automated 
reconstruction of the image, and also use computers to 
recognize these threats: guns, knives, explosives. This 
eliminates the fatigue issue with screeners required to change 
out jobs every 20 minutes because it is an automated process. 
It does not require, for instance, that a laptop be removed 
from a briefcase. It is a powerful enough technique we can 
completely image it. This speeds the flow.
    And last, one of our machines could replace two or three of 
the existing scanners and save hundreds and millions of dollars 
by reducing the number of screeners, the 45,000 screeners 
there, because instead of having to look at a bag, an image of 
every bag, you might look at only every tenth bag, a bag that 
might have a threat in it. So we believe this offers many 
advantages.
    The TSA has just completed a 45-day test at Boston's Logan 
Airport in which we imaged thousands of bags that led this week 
to a mildly humorous incident in which a traveler at Logan had 
in his briefcase a tequila bottle shaped like a Colt .45 
semiautomatic pistol. It was not picked up by the conventional 
x-ray system. The glass and liquid are low density, but the 
shape jumped out in our system very clearly. So the fellow, I 
understand, had a nice talk with the Massachusetts State 
Police.
    So we have an excellent alternative here. We look forward 
to moving into advanced trials, and we can move into production 
of the system later this year.
    I appreciate any questions. Thank you, sir.
    Mr. Rogers. Thank you very much, Mr. Wood.
    [The statement of Mr. Wood follows:]

                 Prepared Statement of John W. Wood Jr.

    . . .It is a privilege and an honor to be with you this afternoon 
to discuss a subject where I believe my company, Analogic Corporation, 
can make a real contribution in leveraging our technology to improve 
not only aviation security, but other modes of transportation security 
as well.
    Analogic is an innovative, developmental engineering and 
manufacturing company based in Peabody, Massachusetts. Our revenue for 
the year 2004 was $355 million. We conceive, design and manufacture 
high-performance, proprietary medical and security imaging systems, 
principally for leading international Original Equipment Manufacturers 
(OEM's).
    Members of the Committee most likely know Analogic through our 
relationship with L-3 Communications. Following 9/11 we supplied L-3 
with our Explosive Assessment Computed Tomography (EXACTTM) system, 
which was the second certified Explosive Detection System (EDS) to 
screen checked baggage. Our EXACT systems are the heart of the L-3 
Communications' eXaminer 3DX6000 EDS that is installed at airports 
across the country to comply with the Aviation and Transportation 
Security Act of 2001.
    In 2003 we responded to requests from TSA to enhance those EDS 
units already in the field. We, along with Lockheed Martin, were 
awarded $3.85 million under the Phoenix Category 1 Program to design 
and develop a system upgrade that would increase throughput, reduce 
false positive alarms and reduce EDS operating costs. Our field-
installable EDS upgrade kit was certified this spring and we will start 
upgrading EDS units in the near future.
    In addition to the important upgrade work, Analogic was awarded 
$1.15 million for the first phase of a multi-million dollar grant under 
TSA's Phoenix Category 3 Program to design a new generation of 
advanced, networkable EDSs with significantly higher throughput and 
detection capabilities, targeted for delivery in 2007. These new units 
will further reduce EDS operating costs while providing improved 
security.
    TSA also awarded us a cooperative agreement as part of its new 
Manhattan II Program to identify and develop revolutionary technologies 
into deployable systems that will significantly enhance automatic 
threat detection and discrimination capabilities for checked luggage 
for aircraft and other applications.
    I trust this background on our intensive work in finding explosives 
in checked luggage was helpful in understanding our success to date, 
and to describe the close working relationship we have developed with 
TSA. What I really want to talk to you about now is our in-house R&D 
efforts on a product called COBRA (Carry-On Baggage Real Time 
Assessment). We believe that this product has the ability to 
revolutionize today's checkpoint.
    COBRA represents the next generation in aviation security as the 
first automatic explosives detection system designed to easily 
integrate into the operational flow of a checkpoint. Designed, 
developed, and manufactured with our own funding, COBRA is a 
revolutionary advance over today's conventional line scan X-ray 
systems. It integrates Computed Tomography (CT) scanning and leading 
edge image interpretation software to automatically screen carry-on 
baggage/bins for explosive materials, guns and knives. In addition to 
automatic threat detection and analysis, COBRA provides high-
resolution, 3-Dimensional (3-D) images that can be rotated on the 
screen for on screen resolution decisions.
    COBRA has just completed deployment of a pilot program with TSA at 
Boston's Logan Airport. The unit was installed downstream of the 
conventional X-ray systems at the US Air Shuttle Terminal. The trial 
was part of a TSA project to assess operational performance and to 
determine if COBRA should replace the currently installed, but outdated 
X-ray machines.
    Early indicators and results from the successful trial are 
demonstrating that COBRA will save the screeners significant time. One 
of the biggest contributors to checkpoint bottlenecks is the need for 
the TSA screeners to double and triple check the one-dimensional images 
of the conventional systems. Screeners lose efficiency by repeatedly 
sending bags back through the conveyor because the conventional X-ray 
source is fixed and many objects that are on the same X-ray path are 
not imaged clearly or at all. Additionally, the orientation of an 
object is critical in how the image appears on the screen. A gun viewed 
from the wrong direction no longer appears as a gun, but instead 
appears as a rectangular block or stick. There are no hidden objects in 
the COBRA system. By rotating the X-ray source completely around the 
bag, a full-volume image is produced of the entire contents of the bag. 
All contents of the bag are imaged regardless of their orientation.
    Another positive aspect of the trial is the improved and automated 
detection using COBRA. At today's checkpoints, detection of threats is 
almost always dependent on screener training, skill, attention level 
and is very dependent on object orientation and bag clutter. Small 
amounts of explosive materials are at best difficult to detect, and 
particular configurations are very difficult or impossible to detect. 
COBRA provides new capabilities of automatic threat detection and 
analysis for explosive materials in addition to guns and knives. This 
detection is computer based and does not rely on screener attention 
level. Detection is based on physical properties of the imaged objects. 
By automatically identifying and detecting explosives, weapons and a 
variety of other materials, the use of COBRA will reduce the need for 
screeners to view every bag which is a lengthy and tiresome process. 
The screener will only need to view those bags where the system 
indicates there is a suspect object which will increase throughput and 
reduce the number of screeners manning the system.
    Another major advantage we are hearing from the Logan screeners 
relates to the quality of the image on the screen. Today's conventional 
X-ray systems provide a 2-D colorized image. In addition to a similar 
2-D image COBRA provides a real three-dimensional (3-D) color image 
that can be rotated 360 degrees with the touch of a fingertip.
    Other checkpoint issues are being addressed by COBRA. One of the 
main complaints for the business traveler is the requirement to remove 
their laptop computers from their briefcases. When using COBRA, these 
laptops and other electronic devices do not need to be extracted, 
saving time and improving efficiency. Prohibited items such as 
scissors, matches, and lighters present additional problems for 
screeners. With COBRA, these items are seen clearly in a 3-D image, and 
screeners can easily ask that they be removed, reducing the time taken 
to resolve prohibited items with hand searches.
    In addition to addressing security concerns, COBRA technology also 
represents a significant labor savings for TSA. The screener workforce, 
working at our checkpoints today, are doing an excellent job given the 
limitations of conventional x-ray systems and ETDs. However, more 
screener personnel are required than needed in light of these 
limitations. The technology developed in COBRA can, and will 
essentially reduce that number of screeners anywhere from 30-50%.
    COBRA is designed to be installed in less than four hours, is 
designed for serviceability and comes with a built-in tutorial. Its 
imaging and display technology was developed with TSA's human factors 
personnel and is a dramatic improvement over today's image-
interpretation techniques. Perhaps one of the more ``dramatic'' reason 
for considering COBRA at today's checkpoint (to shore up a chink in the 
armor) was summed up best by one of the candidates in their 3rd 
Presidential debate--he said, ``If we are employing CT EDS equipment 
for our checked luggage, why are we not then using that same technology 
at the checkpoint to inspect our carry-on luggage.''
    Furthermore, covert testing scores of our checkpoint screeners 
(that has been in the press of late) reveals that screeners, using the 
currently deployed equipment, are not up to the task of reliably 
finding explosives. Clearly, with using advanced technology such as 
COBRA that automatically detects explosives, those scores will only go 
higher and the public will benefit from the proportionate rise in 
security.
    Recent events in Moscow with the Chechen suicide bombers made us 
reevaluate where the threat is to our commercial airliners today. Since 
Pan Am 103, we have been focused on deploying the best technology to 
detect the smallest amounts of explosives in checked luggage. 
Unfortunately, the threat today is different. We have seen how 
passengers can now bring small amounts of explosives in their carry-on 
items or on their person. The threat is no longer limited to screening 
all the bags in the belly of the aircraft. An equal focus must be on 
the passenger and their carry-on items. Our COBRA system, developed and 
leveraged from all our work on our checked baggage EDS systems, will 
provide TSA with the latest technology as advanced or even superior to 
the technology now installed for checked luggage. The time that 
passengers wait in lines will be reduced and the operating costs will 
be a fraction of what they are today.
    The next step is to provide this technology in a way that affords 
frictionless travel, an integrated checkpoint that is user friendly but 
at the same time is fully capable of detecting small amounts of 
explosives in a passenger's hand bag or on his/her person. Analogic is 
working with other companies in the security industry to provide an 
integrated secure checkpoint. TSA's main focus to date has been to roll 
out products and test them. Significant progress has been made and it 
is my belief that our airports are much safer today than prior to 9/11. 
However, I also know that the 1266 EDS machines that were installed 
across the country were done in a way that emphasized speed of 
installment rather than the ease of travel for the flying public. 
Analogic is doing our part to improve the situation. We are working 
with TSA to not only enhance the systems currently installed, but to 
reduce the lifetime costs of ownership. We , as a company, see the 
checkpoint as a natural focus to bring all our technology to bear to 
not only improve their security, but to do it a way that is also in the 
best interests of the passengers and the TSA.
    We look forward to working with TSA and DHS in the future and to 
also address other venues such as rail stations, subways, ports and 
other critical infrastructure.
    Thank you. I will be happy to answer any questions that you may 
have.
    Attachment to John Wood's Testimony on July 13, 2005 @ 2:00 PM
    Comparison between a Conventional Line Scan X-ray system and 
Analogic's COBRA, an Advanced Explosive and Weapon Detection System
    Overview: Literally thousands of conventional X-ray systems are 
installed at airport checkpoints, office lobbies, agency entrances and 
other locations around the world. They are used for one purpose_to 
detect dangerous objects inside bags. They can provide an excellent 
image (sometimes colored for organic materials) and are relatively 
inexpensive ($30-$60,000). They operate on the principle of a 
Transmission X-ray (TRX) imaging system that has a source (an X-ray 
generator), detectors which capture the X-rays that have penetrated 
through the bag, and a monitor that displays the resulting projection 
image. A conveyor belt takes the bag through the system.
    Analogic's COBRATM (Carry-on Baggage Real Time Assessment) 
represents a revolutionary advancement over these conventional systems 
in that it employs Computed Tomography (CT) scanning, the same 
technology currently deployed by the TSA to screen checked baggage. As 
objects (bags or bins) move through the COBRA, the system performs 
full-volume helical CT scans and analyzes the 3-dimensional images 
using advanced explosive and weapon detection algorithms. In addition 
to automatic threat detection and analysis, the high-resolution, 3-D 
images can be rotated on the screen to clearly identify hidden or 
obscured objects.


------------------------------------------------------------------------
           Conventional Systems                         COBRA
------------------------------------------------------------------------
Physics: A conventional X-ray system has a  Physics: Recognition of the
 fundamental limitation in that the three-   fundamental limitations of
 dimensional volume of a bag is compressed   conventional X-rays led to
 to a two-dimensional image. Because of      the development of Computed
 this, all the objects in a bag are          Tomography (CT). COBRA uses
 superimposed on top of each other, which    volumetric CT, an advanced
 results in reduced detection of threat      diagnostic imaging method
 objects. Numerical values in the image      in which X-ray measurements
 represent summations along the line of      from many angles are
 the X-ray penetration. Image                combined into one image. In
 interpretation is difficult for both        COBRA the combination of X-
 computer-aided (automatic) and operator     ray source rotation and bag
 detection.                                  motion produces true 3-
                                             dimensional images of all
                                             the contents of the bag.
                                             The numerical values at
                                             each point in space
                                             represent material specific
                                             properties of the contents
                                             of the bag.
------------------------------------------------------------------------
Technology: 1970's                          Technology: 21st Century
------------------------------------------------------------------------
The hidden object--Because the X-ray        No hidden object: There are
 generator is fixed (doesn't move), X-rays   no hidden objects in the
 go through a bag at a fixed angle. Any      COBRA system. By moving the
 threat object that is on the same X-ray     X-ray source completely
 path as another item is not imaged          around the bag (on the
 clearly or at all. For example, if a        rotating gantry), a full-
 threat object is behind (or in front of)    volume rendering is
 a radio, the conventional TRX will show     produced of the entire
 an image of the radio, but may not show     contents of the bag. All
 the threat. This is why many operators      contents of the bag are
 using this technology will have the bag     imaged regardless of their
 rescanned in a different orientation so     orientation.
 that they can see behind the obscuring
 object. This re-scanning takes time and
 is inefficient. Additionally, the
 orientation of an object is critical in
 how the image appears on the screen. A
 gun viewed from the wrong direction no
 longer look like as a gun, but instead
 appears as a rectangular block or stick.
------------------------------------------------------------------------
Detection: Conventional systems may detect  Detection: COBRA provides
 guns and knives as long as they are not     automatic threat detection
 obscured by other objects or in a           and analysis for explosive
 difficult orientation. Detection is         materials in addition to
 almost always dependent on screener         guns and knives. This
 training, skill, and attention level.       detection is computer based
 Explosive materials are at best difficult   and does not rely on
 to detect, and particular configurations    screener attention level.
 are very difficult to detect.               Detection is based on
                                             physical properties of the
                                             imaged objects.
------------------------------------------------------------------------
Certification: Conventional systems are     Certification: CT is the
 not certified for automatic detection of    preferred, ``certified''
 explosives.                                 detection technology used
                                             by the TSA for automatic
                                             detection of explosives in
                                             checked luggage. Analogic
                                             is one of three (3)
                                             companies who have passed
                                             the TSA certification
                                             testing for checked baggage
                                             EDSs.
------------------------------------------------------------------------
Image on Screen: A 2-D colorized image      Image on Screen: In addition
                                             to a 2-D image of the
                                             entire bag, COBRA provides
                                             a high-resolution, 3-D
                                             image that can be rotated
                                             with the touch of a
                                             fingertip.
------------------------------------------------------------------------
Laptop Computers: Laptop computers must be  Laptop Computers: Laptop
 extracted from bags using conventional X-   computers do not need to be
 ray systems.                                extracted while using
                                             COBRA.
------------------------------------------------------------------------

    Conventional systems cost less than their CT counterparts, but 
given the severity of the threat and the acceptance of this certified 
technology, TSA should move quickly to adopt it in today's checkpoints.

    Mr. Rogers. The Chair now recognizes Deepak Chopra, 
President of OSI Systems, Incorporated.

                   STATEMENT OF DEEPAK CHOPRA

    Mr. Chopra. I want to thank the Chair for this opportunity 
for OSI, a parent company, and Rapiscan Systems, a global 
company which offers the world's widest array of nonintrusive 
inspection systems for aviation, boats, border crossings, 
cruise lines, and cargo. We have installed more than 50,000 
inspection systems in over 150 countries with 300 airports, and 
after 9/11, we currently provide nearly half of all U.S. 
airport for checkpoint screening systems.
    Today, nearly 4 years after 9/11, I can say that aviation 
security is stronger; however, there is still room for much 
improvement today. One of the things we keep talking about is 
this new technology and new technology. We want to talk about 
it, what we can do to the airports today. People are 
frustrated. The long lines generate confusion at the 
checkpoint. Shoes on, shoes off; greatest detection machine; 
and, finally, what I call the most humiliating experience of 
being spread eagle, getting patted down, searched in the middle 
of an open environment at the airport. It is very embarrassing. 
I get it done 30 percent of the time I find it.
    All the studies have shown that this is very frustrating 
for the passengers, some of you have said in the previous 
panel. I can tell you, my company makes the metal gates through 
which you walk through. None of those units can test anything 
but metal. That means that if there are sophisticated terrorist 
weapons, present technology as it exists will not pick that up.
    My fellow colleague from AS&E is absolutely right. We make 
the same device called the People Screener, it is very 
effective. As a matter of fact, 14 million passengers have been 
tested through that technology over the last 6 months at 
Heathrow Airport, and we are proud to say they have gone live. 
This is the only technology that can be utilized--and I know 
there is a lot of talk, we talked about privacy. The way the 
U.K. has taken care of it is they give the passenger a choice. 
You will either want to get spread eagle and get searched or 
you want to take a scan. Guess what? Ninety percent of the 
passengers have chosen a scan. It is a very powerful 
technology, and it is the only deployable technology that is 
available today--not tomorrow, not the day after--that will do 
that job.
    We have also gone in and tried to improve the plight of the 
passengers as it stands today. EDS, as an alternative that 
people are talking about, I think it is a mistake. We have 
2,000 machines that TSA paid for at 9/11. Those machines can be 
improved. We have been working with TSA. We have integrated a 
quadrapole resonance technology on one single platform. This 
system will do the automatic explosive detection deployed right 
in front of a passenger. Because the QRS system leverages 
currently installed QRS systems, there is little additional 
training and almost no additional operational requirements for 
TSA trainers to be retrained. Congress will not have to hire 
one additional screener or replace a single machine at an 
airport, but, most important, they will cost one-third the cost 
as proposed to EDS Checkpoint Technologies.
    Third, we are going live in L.A. right now to double the 
throughput at a checkpoint by what we call the Checkpoint 
Efficiency System. It is a simple system machine that can read 
out the bags so the lines don't get stopped. We have a lot of 
airports crying for getting these units. It is a very simple 
thing, a win-win situation.
    We have heard a lot of things about the EDS. Our position 
is that we should be looking at the next-generation systems for 
checkpoint screening, even if they happen to be CT. The CT 
technology as it exists right now is 20-year-old medical 
technology. There are other technologies that are there. For 
example, we at Rapiscan, we have been developing over the last 
2-1/2 years an electronic CT which would bypass and supersede 
to the tune of 1,400 bags an hour against the present existing 
technology. These units have been developed at multiple million 
dollars of cost, with zero funding from the U.S. Government.
    We believe that the current platform and technology for the 
checkpoint should be with the present machines that enhance 
technology that is available today, not 2 years from now, and 
get the other body screeners in place; because, like what 
happened in England, it can happen anywhere, and the present 
machines don't work.
    Thank you very much.
    Mr. Rogers. Thank you very much.
    [The statement of Mr. Chopra follows:]

                  Prepared Statement of Deepak Chopra

    Thank you Chairman, Congresswoman Sanchez, and members of the 
committee. I am honored to testify before this committee on the 
critical issue of improving aviation security. Sadly, as the events in 
London last week demonstrate, we are locked in an ongoing fight against 
terrorism and we must continue to harden and improve our defenses 
against these ever changing threats.
    I am Deepak Chopra, Chairman and CEO of OSI Systems. OSI Systems is 
the parent company of Rapiscan Systems, a global company based in Los 
Angeles, California which offers the world's widest array of non-
intrusive inspection systems for airports, seaports, land borders, mass 
transit modes and other secure locations.
    Rapiscan Systems has installed more than 50,000 inspection systems 
in over 150 countries around the world. We currently provide nearly 50 
percent of all U.S. airport checkpoint screening systems. Rapiscan also 
delivers border and sea port inspection systems for U.S. Customs and 
Border Protection and other international customs agencies. The State 
Department employs our systems at every office around the world. And 
the systems we all walked through to gain entry to this building were 
made by Rapiscan Systems.
    Rapiscan Systems invents, develops, manufactures, installs and 
services nearly every type of non-intrusive inspection technology in 
the world. We therefore understand better than anyone, the strengths 
and limitations of all these systems and can help security officials 
employ the best technology for any detection and operational 
requirement.

    Rapiscan Systems is a leader in aviation security with 
installations at the world's most secure airports
    Rapiscan Systems is the leader in providing aviation security 
technology globally. For example, Ben Gurion Airport in Tel Aviv, 
Heathrow Airport in England, Dulles Airport, Taipei Airport, Kiev 
Airport, and over 300 other airports around the world rely on Rapiscan 
Systems' technologies to protect passengers. After September 11, the 
United States government called on Rapiscan Systems for an emergency 
deployment of hundreds of additional systems to U.S. airports.

    Air travel is more secure since 9-11, but relies too heavily on 
either old, slow or expensive technology
    Today, nearly four years after the 9-11 attacks, I can say that 
aviation security is clearly stronger. However, there is still much 
room for improvement. While much of the focus today will be on 
technological advances in explosive and weapons detection, we must pay 
equal attention to how technology affects airport operations and the 
traveling public. Passengers are frustrated with the slow pace of air 
travel and we should not just provide more inspection for inspections 
sake. One of the most significant errors in the post 9-11 world has 
been the rush to install checked baggage inspection equipment with too 
little attention to its impact on airport operations. The aviation 
industry and the traveling public clearly want a secure civil aviation 
system. But long lines, inconsistent inspection procedures, and a 
beleaguered airline industry are not acceptable outcomes of increased 
aviation security.
    I believe that we continue to focus too much on old technology 
solutions. Today, every U.S. airport uses the same technology for 
checkpoint, passenger and checked baggage screening that was in use 
before 9-11. More astonishing, is that not one new technology has been 
deployed aviation system-wide since 9-11. This is after Congress 
appropriated billions of taxpayer dollars to develop new baggage 
screening technologies.
    TSA and the aviation security industry should be evaluating and 
installing technology that not only improves detection, but also 
facilitates the flow of passengers and their baggage. The time of 
endless pilot programs and reluctance to move past old technology 
should be over.

    Moving beyond the focus on EDS technology
    Today's aviation passenger security checkpoint is an amalgam of 
various screening systems from transmission x-ray, metal detection, to 
trace detection. These systems have all been tested and approved by TSA 
but deployed as independent technologies at checkpoints. Some have 
suggested adding yet another stand-alone technology, EDS, to this mix, 
in essence deploying the technology used for checked baggage inspection 
to the checkpoint.
    I could not disagree more with this opinion. Clearly these systems 
have a role for checked baggage, as you heard from the first panel. 
However, EDS systems are either too big, too slow, and too expensive 
for passenger checkpoints. Installing EDS systems will reduce the 
number of checkpoints, slow the inspection process, impose massive 
infrastructure costs on airports, lengthen passenger lines and require 
even more TSA screeners without improving security.

    Addressing aviation security from the passenger's perspective
    At Rapiscan, we have addressed the challenge of improving 
checkpoints from the passenger's perspective. We have asked how can we 
maximize the current technology install base and improve security 
without impeding passenger or baggage flow, or add huge infrastructure 
costs to airports. We have developed four answers to this question:
        (1) QXR-Integrate current systems with new automatic detection 
        technologies in one common platform;
        (2) Secure 1000--Scan for multiple threats in one inspection;
        (3) Checkpoint Efficiency System--Automate the passenger 
        checkpoint and double checkpoint throughput with no additional 
        screeners; and
        (4) CXR--Use in-line next generation systems to quadruple 
        baggage throughput.

    QXR--Integrate current systems with new automatic detection 
technology into one efficient airport checkpoint
    Rapiscan Systems has developed a new checkpoint technology 
utilizing our current transmission x-ray systems and integrating 
Quadrapole Resonance technology in one single platform. This system 
adds automatic explosive detection to deployed systems and provides 
nearly equivalent detection performance to checked-baggage EDS systems. 
QXR systems automatically detect explosives. Therefore, they can be 
installed without adding a single extra TSA screener.
    Because the QXR system leverages currently installed TRX systems, 
there is little additional training and almost no additional 
operational requirements for TSA screeners or airport personnel. These 
systems are simply added to the already deployed checkpoint x-ray 
systems. This allows TSA to leverage its install base instead of 
throwing out all the current machines and replacing them with costly 
and inefficient EDS systems.
    The QXR integrated system limits bag tracking and loss issues 
associated with multiple technologies at a checkpoint. And, most 
importantly, they would cost 1/3 as much as proposed EDS checkpoint 
technologies in terms of both capital and operation costs.

    Secure 1000--Scan for multiple threats in one inspection
    Currently, U.S. airports employ a complex system of metal detection 
gates, trace detection machines, and physical pat-downs to inspect 
passengers for weapons, explosives, and other hazardous materials. This 
process employs a number of imperfect technologies and invasive 
procedures that have known strengths and weaknesses. However, aviation 
security can be improved and passenger hassles reduced if we install 
fewer systems that achieve even better results.
    One such system is the Secure 1000, Backscatter Personnel Screener. 
This technology is the only commercially available, deployable system 
existing today that can inspect people for metallic objects, plastic 
and ceramic weapons, explosives, and non-metallic threats like 
explosives and glass shrapnel. It would have detected the weapons used 
by the 9-11 terrorists and is being deployed to catch suicide bombers 
around the world. This technology has been successfully deployed by 
U.S. armed forces to combat areas around the world, as well as U.S. 
Customs and Border Protection and other homeland security agencies 
where improving security is the most important mission. Because of the 
worldwide deployments of Secure 1000, Rapiscan Systems is in the 
position to deliver it to U.S. airports today without the least bit of 
delay.
    In a recently completed pilot program at Heathrow Airport, British 
aviation security officials put the Secure 1000 through a four month 
test at a fully operational checkpoint. Passengers were given the 
option of being screened by the Secure 1000 or by physical pat down 
search. Not only did the Secure 1000 show a dramatic increase in 
detection capability over pat-downs, but nearly 95 (93.7%) percent of 
all passengers opted to be screened by the Secure 1000 over a pat-down 
search.
    The British have found a way to answer the critics concerned about 
the Secure 1000's impact on passenger privacy. Using simple inspection 
protocols of employing same-sex screeners, non-archived images and 
other steps, British officials have developed an inspection system 
palatable to the traveling public. This has enabled the British to take 
the lead in passenger inspection security. It is important to remember 
that the Secure 1000 is an alternative to the very unpopular, less 
effective, and highly-intrusive physical pat down search. So while much 
has been made in the media about the potential privacy issues of 
backscatter inspection, the traveling public clearly prefers this 
method to invasive and imperfect physical searches.
    From a security standpoint, the Secure 1000 provides comprehensive 
primary or secondary screening for all threats in one machine, reducing 
training, maintenance, and operating costs. And since the Secure 1000 
is designed specifically to fit within the aviation checkpoint 
footprint, it can seamlessly integrate with the metal detection gates 
at most airports.

    Checkpoint Efficiency System--Automating the airport passenger 
checkpoint
    The modern airport checkpoint is a maze of lines and security 
systems packed into small throughways. Even the most seasoned traveler 
has trouble navigating this hectic environment. Rapiscan Systems has 
created a simple structure that helps screeners track bags and people 
requiring secondary screening while continuing to allow the checkpoint 
line to process additional passengers.
    A recent TSA analysis found that most of the delay at passenger 
checkpoints comes from screeners having to stop checkpoint lanes to 
move and inspect bags for secondary screening, taking more than two 
additional minutes per passenger on average. Rapiscan's Checkpoint 
Efficiency System easily fits onto currently deployed checkpoint x-ray 
equipment and automatically separates bags for secondary screening 
enabling the checkpoint to continue to screen passengers. The system is 
designed to double the throughput speed of a standard airport screening 
lane.
    Additionally, the Checkpoint Efficiency System only adds about a 
foot of width to a standard checkpoint while doubling capacity. This 
enables fewer checkpoints to process more passengers faster, with less 
bag tracking confusion and delay. The system also protects passengers 
from suspect baggage behind protective barriers. And, by automating the 
secondary screening process, the Checkpoint Efficiency System reduces 
labor costs and passenger wait times.
    Los Angeles International Airport will be installing the Checkpoint 
Efficiency System at its new terminal, and many airports have asked 
Rapiscan for these systems. We are awaiting final approval from TSA on 
their deployment.

    CXR--Use in-line next generation systems to quadruple baggage 
throughput
    While most of the discussion on this panel has focused on the 
checkpoint, I wanted to take a moment to discuss one advance coming 
from Rapiscan Systems' labs that is applicable to both the checkpoint 
and checked baggage inspection. This new technology, the CXR electronic 
CT, represents a dramatic leap forward in the basic EDS technology.
    EDS systems, even current in-line models, are hampered by an 
inherent limitation of the basic technology. In standard EDS machines, 
an x-ray head spins around on a metal ring to provide a 360 degree view 
of the target bag. However, this design limits throughput to the speed 
the x-ray head can spin. And, with such heavy reliance on a mechanical 
moving part, maintenance costs are high and reliability suffers. Due to 
their slow throughput, multiple EDS systems have to be deployed to meet 
standard throughput demands of the in-line conveyor systems in 
airports. This dramatically increases equipment purchase, installation, 
operation and maintenance costs. And as any airport executive can tell 
you, the infrastructure costs of installing all these EDS machines has 
been astronomical.
    Rapiscan Systems has been developing over the last 2 1/2 years an 
electronic, a non-mechanical CT, the CXR. We have done this development 
without any funding from the U.S. government. This system relies on a 
specialized glass tube ring filled with x-ray diodes that can within 
nanoseconds provide the same (if not better) 360 degree image of a bag 
without the speed and reliability limitations of standard EDS. The CXR 
should provide scan speeds that will quadruple baggage throughput to 
almost 1,400 bags per hour. This is done without any moving parts 
thereby dramatically reducing maintenance costs and improving 
reliability.
    Rapiscan has already received significant interest from European 
aviation officials in this technology where speed of operation is 
paramount. The inspection speed and cost advantages are significant as 
a single unit can provide the inspection capacity of four current EDS 
machines. The system will work both for checkpoint and check baggage 
locations and represent a true next-generation solution for aviation 
EDS.
    I want to again thank the committee for the opportunity to discuss 
these important issues and technological advancements. Rapiscan Systems 
is proud to be part of the United States homeland security effort and 
we take seriously our role as a final line of defense. Rapiscan Systems 
has designed and deployed many of the systems we rely on to catch 
terrorists today. We look forward to continuing to work with Congress 
and the Department of Homeland Security to bring the newest and most 
advanced technologies from the laboratories to the front line. I am 
happy to answer any of your questions.

    Mr. Rogers. The Chair now recognizes Cherif Rizkalla, the 
President of Smiths Detection, Americas.

                  STATEMENT OF CHERIF RIZKALLA

    Mr. Rizkalla. Good afternoon. Thank you, Chairman, Ranking 
Member, and distinguished members of the subcommittee. My name 
is Cherif Rizkalla, and I am the President of Smiths Detection, 
Americas, a New Jersey-based company providing security 
solutions to detect explosives, chemical and biological 
weapons, and contraband in homeland security and defense 
markets worldwide.
    In the National Capital region, Smiths has been a long-term 
partner in securing government facilities such as the one we 
are in right now. On the global scale, Smiths has also provided 
and continues to provide detection equipment to our troops in 
Iraq and Afghanistan and to many, many foreign governments.
    The 9/11 Commission recommended that the TSA and Congress 
improve the ability of security checkpoints to detect 
explosives on passengers. While improvements have been made 
through recent legislation, it is beyond dispute that more can 
be accomplished, including the immediate deployment of high 
throughput portals that detect explosives on passengers.
    Over the years, Smiths has been and continues to be true 
partners as we work with TSA to develop products that improve 
aviation security without disrupting commerce. To that end, I 
would like to highlight a few of Smiths' technologies that have 
enhanced security at airports.
    In response to the general interest in providing a full-
value, nonintrusive explosive screening method at checkpoints 
in high-traffic volume environments, Smiths has developed a 
trace detection walkthrough portal to detect explosives on 
passengers. After nearly 10 years, which is far too long given 
the present threats, a handful of walkthrough portals were 
deployed at test airports in the United States. In my opinion, 
this effort reflects the proper function of TSA in turning to 
the private sector to help solve a public problem.
    Finally, I wish to mention two cutting-edge technologies. 
The first one is the TADAR camera and the second one is the TSA 
Manhattan II Project. The TADAR is a passthrough system 
designed to detect contraband by measuring differences in 
millimeter wave energies emanating from the human body. This 
non-ionizing energy can penetrate clothing and many other 
concealing materials of passengers carrying an explosive or 
weapon. These objects will stand out on the TADAR image while 
continuing to afford passengers the level of privacy they 
expect and demand.
    The second project of note is TSA Manhattan II Project. 
Smiths and TSA have already begun working on next generation of 
check luggage security program. In its second phase, Smiths is 
combining state-of-the-art and emerging technologies to create 
a system that meets the goals of high detection rates, low 
false-positive rates, and sufficient throughput to satisfy the 
demands of the traveling public.
    Mr. Chairman, Smiths offers several proven and New Age 
technologies that greatly assist the TSA. Tests of Smiths 
detection technology establish that the products improve 
passenger safety without disrupting passenger flow.
    Thank you for inviting me to testify today, and we look 
forward to working with you.
    Mr. Rogers. Thank you, sir, for your statement.
    [The statement of Mr. Rizkalla follows:]

          Prepared Statement for the Record by Cherif Rizkalla

INTRODUCTION.
    Good Afternoon, Chairman Lungren, Ranking Member Sanchez, and 
distinguished Members of the Subcommittee. My name is Cherif Rizkalla, 
and I am the President of Smiths Detection, Americas (``Smiths''), a 
Pine Brook, New Jersey-based company providing technologically advanced 
security solutions to detect and identify explosives, chemical and 
biological agents, weapons, and contraband. Employing trace detection 
technology together with Smiths-Heimann x-ray imaging, Smiths provides 
security solutions for customers in homeland security and defense 
markets worldwide. Here, in the United States, Smiths' technology helps 
protect many of the nations buildings and airports. In the National 
Capitol region, Smiths has been a long-term partner in securing 
Government facilities such as the one we are in. Smiths has also 
provided and continues to provide detection equipment to our troops in 
Iraq and Afghanistan.
    It is a pleasure to testify before your Subcommittee today as you 
and your colleagues examine government and private industry efforts to 
leverage technology to improve transportation security in general, and 
aviation security specifically. The stakes are high and we have been 
challenged. We as a manufacturer have been challenged to continuously 
adapt to an ever-changing threat. We have been challenged to innovate 
and develop new products that are better adapted to the evolving needs 
of our customers. We have been challenged to relentlessly search for 
breakthrough technologies that will become tomorrow's solutions. 
Governments worldwide are also challenged, challenged to identify and 
deploy the products and technologies that best respond to their 
specific needs.
    Smiths looks forward to continuing to work with this Committee, the 
Congress, the Transportation Security Administration, the Department of 
Homeland Security, and the Administration to meet the challenges that 
we all face in protecting aviation passengers and the commercial 
aviation system from physical threats. As the Committee is well-aware, 
the 9/11 Commission made several recommendations regarding passenger, 
baggage, and cargo screening to improve aviation security including 
recommending that ``[t]he TSA and Congress give priority attention to 
improving the ability of screening checkpoints to detect explosives on 
passengers. As a start, each individual selected for special screening 
should be screened for explosives.'' While improvements have been made 
through recent legislation passed by Congress and signed into law, it 
is beyond dispute that more can be accomplished, including the 
immediate deployment of high-throughput portals that detect explosives 
on passengers.
    As a preliminary matter, I will present a quick vignette of Smiths 
Detection, which is one of four operating divisions of Smiths Group, 
plc. We are principally engaged in the development of high-sensitivity 
analytical instruments that detect chemicals and other substances found 
in explosives. In October 2002, Smiths acquired Heimann Systems, the 
world's market leader in X-ray security systems whose products are 
primarily used in the transportation security arena to inspect luggage 
and freight. The acquisition of Heimann significantly expanded the 
capabilities of Smiths to conduct checkpoint and other types of 
screening in the transportation security markets. As a market leader, 
Smiths has successfully deployed its security solutions for the 
Department of Homeland Security, the United States Armed Forces, the 
Federal Bureau of Investigation, the Department of State, and the 
Federal Protective Service as well as several foreign governments 
including Israel, France, the UK, Canada, Argentina, Hungary, Spain, 
U.A.E., Japan, Italy, and China.

    I. HIGHLIGHTS OF SMITHS DETECTION'S IMPROVEMENTS TO PASSENGER 
CHECKPOINT SECURITY.
    The Transportation Security Administration (``TSA'') has the 
difficult task of deploying technologies that effectively provide 
adequate aviation security measures while not disrupting the flow of 
commerce, and must do so within budgetary constraints. Smiths has over 
the years, and continues to be, true partners with TSA as we work 
together to develop products that are both useful and efficient, and 
consistent with Congress and the TSA's stated goals.
    Smiths is currently manufacturing dozens of security-oriented 
solutions that improve passenger screening; however, I will focus my 
remarks on three (3) particular product areas that I believe provide a 
good example of how Smiths not only develops security solution products 
for today's threats but is continuously looking out to the future needs 
of government's worldwide:
        1. Smiths' IONSCAN technology and the Heinman X-Ray Security 
        Systems, and their applications to efficient explosive 
        detection efforts;
        2. Smiths' efforts regarding the Sentinel II (``Sentinel II''), 
        a trace detection walk through portal which is used to detect 
        the presence of explosives on the bodies of passengers and 
        which has been deployed at a handful of test airports in the 
        United States, and is currently in operation at other security 
        checkpoints throughout the world; and
        3. Smiths' latest Millimeter Wave TADAR Camera innovation, 
        which reflects the implementation of cutting edge technology to 
        detect explosives through detection of differences in energy 
        emitted by the human body.

    1. The IONSCAN 400B.
    Smiths Detection's original entree into the world of passenger 
screening was with the IONSCAN \2\ trace detection technology from the 
1980s and 1990s which was developed in response to growing demands for 
technological solutions to narcotics problems. This technology has been 
deployed with numerous law enforcement agencies in the United States 
and throughout the world. More recently, the IONSCAN technology has 
been converted for the detection of explosives. The presence of trace 
explosives indicates that an explosives device may be present or that 
the person may have been handling explosive material in preparing a 
bomb and further investigation is necessary.
---------------------------------------------------------------------------
    \2\ A picture of the IONSCAN is included as Appendix B.
---------------------------------------------------------------------------
    Trace detection works by sensing the presence of microscopic 
amounts of target substances on the exterior surface of a package 
containing an explosive such as a backpack or cardboard box. These 
traces are collected and analyzed in a matter of seconds to provide the 
screener with nearly instant notification that an explosive is present.
    A simple wipe with a swab over items such as checked or carry-on 
luggage, portable electronic devices, and packages is all that is 
necessary to collect a sample which is then placed into the IONSCAN 
for analysis. In 8 seconds the color-coded display presents results to 
the operator--red for a detection and green for the ``all-clear''. If a 
contraband substance is detected, the specific name is identified on 
the display. Leading aviation organizations, including the FAA/TSA in 
the United States, Transport Canada, and the BAA in the United Kingdom, 
have evaluated and approved the IONSCAN for their aviation security 
needs. In fact, nearly every federal agency and every major airport 
throughout the world uses the IONSCAN 400B and its related products.\3\
---------------------------------------------------------------------------
    \3\ Recently, TSA used the IONSCAN 400B in its Transit and Rail 
Inspection Pilot by implementing the product at the New Carrollton, 
Maryland train station.

    2. The Sentinel II Contraband Detection Portal.
    Another product of note is the Sentinel II,\4\ which was developed 
in collaboration with the FAA, TSA, and the Sandia National Laboratory 
in response to the general interest in providing a full body, non-
intrusive explosive screening method for use on personnel at 
checkpoints in high traffic volume environments. The Sentinel II has 
proven to be an effective and efficient system that complements proven 
technologies with cutting-edge improvements to create an efficient and 
reliable detection system. The Sentinel II has withstood all TSA 
evaluations and tests and meets all applicable manufacturing 
specifications. Just this year, TSA began field-testing the Sentinel II 
at four major airports in the United States and additional deployments 
nationwide are expected.
---------------------------------------------------------------------------
    \4\ A picture of the Sentinel II is attached as Appendix C.
---------------------------------------------------------------------------
    Despite the complexity of the technology behind the device, it is 
fairly simple to describe and understand its operation. The passenger 
steps into the Sentinel II for a period of only seconds. There are no 
true doors that must open or shut, it's more like walking into and 
stopping in a conventional metal detector much like I walked through 
this morning when I entered this building. Once the passenger is in the 
Sentinel II, gentle puffs of air dislodge any particles trapped on the 
body, hair, clothing and shoes. These particles are then directed into 
the instrument for analysis. The passenger then continues through the 
security process. The time in the Sentinel II takes only seconds--
IONSCAN technology combined with pre-concentration technology 
developed by Sandia National Laboratories allows for the high 
throughput of screening up to 7 people per minute. Trace amounts of 
more than 40 substances are detected and identified in seconds. Results 
are displayed in an easy-to-understand fashion.
    I highlight the Sentinel II not only because it uses a proven 
effective technology for contraband detection but also because of the 
collaborative effort between Smiths and the FAA/TSA to implement the 
use of the Sentinel II. In my opinion, this effort reflects the proper 
function of TSA in turning to the private sector to solve a public 
problem.\5\ As I mentioned above, I believe that transportation 
security in general and aviation security in particular could be 
greatly enhanced by immediately increasing the presence of the Sentinel 
II at airport passenger checkpoints throughout the United States.
---------------------------------------------------------------------------
    \5\ It is worth noting, however, that this collaborative effort 
took nearly ten years from its inception to deployment.

    3. The TADAR Camera.
    Smiths is currently working on several new cutting-edge 
technologies for checkpoints and other types of screening, but I would 
like to highlight one innovative product that we feel is of particular 
interest to the Subcommittee: the TADAR Camera.\6\ The TADAR is a 
passive system designed to detect contraband by measuring millimeter 
wave energy. Its sensors detect differences in the energy naturally 
emitted or reflected by objects at a 3-millimeter wavelength. This 
nonionizing energy can penetrate clothing and many other concealing 
materials. An explosive strapped to the human body, for example, 
returns a different amount of energy to the TADAR than the body around 
it, therefore revealing the explosive. At the same time, the TADAR is 
unaffected by the presence of clothing because clothing is transparent 
at millimeter wave frequencies.
---------------------------------------------------------------------------
    \6\ A picture of the TADAR Camera is attached as Appendix D.
---------------------------------------------------------------------------
    Again, the technology is complicated, but the function is simple: A 
passenger would stand before the TADAR camera which would measure his 
body's natural radiation of energy in comparison to a controlled 
background. If the passenger is carrying an explosive or a weapon, 
these objects will stand out on the TADAR image so that the screener 
can identify them. The image is processed to provide the passenger with 
privacy while still facilitating threat detection.
    The TADAR features several benefits that place it at the vanguard 
of explosive detection systems:
    <bullet> Passive Operation--TADAR uses natural, nonionizing 
millimeter wave energy to sense threat objects, which result in high 
quality images with no risk to the passenger.
    <bullet> High Quality Images--TADAR scanning mechanism produces 
high quality, real time images that can be further sharpened using 
proprietary `super-resolution' software algorithms.
    <bullet> Simple Mechanics--TADAR employs a very novel and simple 
mechanical design that permits a passenger to be scanned very quickly 
and reliably.
    <bullet> Lowest Cost Solution--TADAR's simple and efficient 
electronics and mechanical design makes it the lowest-cost solution 
available.
    The TADAR employs cutting-edge technology that has matured to the 
point where the TSA and Smiths can once again begin a collaborative 
effort to implement this technology at various test airport passenger 
checkpoints throughout the United States. Smiths recommends using the 
template from the successful collaborative effort between TSA and 
Smiths to develop the Sentinel II as a guide. In addition, Smiths would 
welcome the opportunity to continue research and development efforts of 
the TADAR or its offspring so that passenger screening technologies can 
continue to improve as threats to passengers become more sophisticated.

    II. HIGHLIGHTS OF SMITHS' DETECTION TECHNOLOGIES FOR BAGGAGE 
SCREENING.
    In addition to Smiths' improvements to worldwide passenger 
checkpoint security, I would also like to briefly bring to the 
Subcommittee's attention the baggage screening solutions that we often 
provide in concert with our passenger screening technologies at 
security checkpoints. As with passenger screening, Smiths is producing 
dozens of baggage screening technologies, but in the interest of time, 
I will highlight two (2): \7\
---------------------------------------------------------------------------
    \7\ Smiths is currently working with TSA regarding the ``NexGen'' 
Checked Luggage Screening program, named Manhattan II. In its second 
phase, Smiths is combining state of the art and emerging technologies 
to create a system to meet the goals of very high detection rates, very 
low false positive rates, and sufficient throughput to meet the demands 
of the traveling public.

    1. Smiths-Heimann X-Ray Systems.
    Smiths produces various x-ray driven technologies that provide 
useful cargo and baggage screening applications at security 
checkpoints. In fact, my briefcase was run through a Smiths-Heimann x-
ray system this morning when I walked into this building, just as it's 
done for nearly every visitor to the Capitol. These systems come in a 
variety of sizes that permit the technology to be used in any 
transportation setting, in any airport security area, regardless of 
size. The HI-SCAN 5180i,\8\ for example, is a newly designed X-ray 
inspection system for screening objects up to a maximum size of 20 
inches wide, by 31 inches high. The system is perfectly suited to the 
inspection of check-in baggage in civil aviation, which is why so many 
airports worldwide have implemented such systems at security 
checkpoints. The compact dimensions, the low conveyor belt and the 
system technology ready for network operation make the HI-SCAN 5180i an 
outstanding basic system for integrated check-in counter systems 
featuring central image analysis.
---------------------------------------------------------------------------
    \8\ A picture of the HI-SCAN 5180i is attached as Appendix E.

    2. The Explosive Detection Tomography System.
    The Explosive Detection Tomography System \9\ (``EDTS'') is another 
product that is commonly used to improve aviation security. EDTS is a 
multi-view tomography system capable of screening up to 1,800 checked 
bags per hour. The EDTS employs multidimensional image evaluation to 
detect blasting agents, including industrial and military plastic 
explosives and utilizes sophisticated multiplexing techniques for image 
queuing and alarm resolution. The EDTS can accommodate passenger 
baggage of up to 42 inches wide and 32 inches high, reducing the need 
for manual inspection of oversized bags.
---------------------------------------------------------------------------
    \9\ A picture of the EDTS is attached as Appendix F.
---------------------------------------------------------------------------
    EDTS technology is in use in airports throughout the world, except 
in the United States. However, EDTS has recently been judged a success 
in the United States following a successful pilot program at 
Washington's Union Rail Station where TSA utilized Smiths' EDTS 
technology to screen rail passenger baggage.

    III. CONCLUSION.
    Mr. Chairman, Smiths Detection offers several proven and new-wave 
technologies that greatly assist the TSA and Department of Homeland 
Security in achieving its stated goal of improved aviation security. 
Our technologies provide reliable and cost-effective means to detect 
the presence of explosives on passengers, in luggage, and in cargo. 
Tests of Smiths Detection's technologies have established that they 
improve passenger safety without disrupting passenger flow and we are 
continually working to ensure that passenger flow is as efficient as 
possible while maintaining an effective checkpoint process. Smiths 
Detection appreciates the opportunity to testify before the Committee 
and looks forward to working with the Committee members in continuing 
to implement its technologies.

[GRAPHIC] [TIFF OMITTED] T7448.007

[GRAPHIC] [TIFF OMITTED] T7448.008

[GRAPHIC] [TIFF OMITTED] T7448.009

[GRAPHIC] [TIFF OMITTED] T7448.010

[GRAPHIC] [TIFF OMITTED] T7448.011

[GRAPHIC] [TIFF OMITTED] T7448.013

[GRAPHIC] [TIFF OMITTED] T7448.014

[GRAPHIC] [TIFF OMITTED] T7448.015

[GRAPHIC] [TIFF OMITTED] T7448.016


    Mr. Rogers. The Chair now recognizes Mr. Rick Rowe, Chief 
Executive Officer of SafeView, Inc.

                     STATEMENT OF RICK ROWE

    Mr. Rowe. Thank you, Mr. Chairman.
    First of all, I would like to echo some of the comments of 
the other panelists, particularly Rapiscan and AS&E, talking 
about the fact that there are technologies today that can be 
used to screen passengers very effectively. And the only thing 
that I would add from our case is we do use millimeter wave, 
which is what Mr. Parker talked about in the first panel, non-
ionizing radiation non-x-ray. And the only thing that I would 
disagree with their testimony is that we also have our system 
available today.
    But what I wanted to really focus my comments on today was 
the way we go about fielding these technologies. We are a 
California-based start-up, using technology developed at U.S. 
Government. We are the exclusive licensee. When we made our 
decision of how we were going to go out and deploy these in the 
field, we actually made a conscious decision to spend the 
majority of our time outside the U.S., and the reason is that I 
think we all know that the U.S. is very slow to deploy 
technologies, and we felt we could get in the field faster and 
learn more by working directly with the users.
    So the bottom line to my testimony is really two things: 
One, encourage more fielding of pilot programs or whatever you 
want to call them, and get these things out in the field. And 
the second is to work very closely with the end users on the 
concept of operation. That is where you learn. You don't learn 
in the lab with endless testing, you learn by getting into the 
field.
    We have been very aggressive in trying to do the field 
testing, and I will give you a couple of examples. But first of 
all, I think it has been said by many panelists, there is no 
silver bullet; there is no one technology. So we are really 
dependent on a number of different things to try and layer to 
provide a defense.
    In our particular case, we screen people for threats using 
millimeter waves, as I stated earlier. We are a totally safe 
technology, and we essentially also look at all materials and 
can detect those. But what enabled our speed to market, we 
started essentially 2 years ago, and we are in the field today 
around the world, except the United States, and what we did was 
we essentially did our betas offshore. We spent a lot of time 
in Israel, Europe, and other Middle Eastern locations.
    The good news in our story is that we also have two systems 
today in Iraq at checkpoints operating today. And I am the 
person that goes out and spends hundreds of hours with our 
soldiers, as we have been up and running for the last several 
months, and we are essentially screening people, looking for 
suicide threats.
    As was said earlier, what we can do today is we have 
replaced hand-pat searches in Iraq. At the two checkpoints that 
we are operating at, there is no longer a U.S. soldier doing a 
hand-pat search, which is a very dangerous activity.
    When we go out with the users, we tend to be able to work 
with them and learn what that CONOP needs to be, the concept of 
operation, how to adjust the technology. Let me give you a real 
brief example. I was in Iraq last month working with the 
soldiers, and we decided we needed to adjust their technology. 
Through the miracle of technology, if you will, I was able to 
call on a cell phone back to the United States, talk to my 
engineers; in 24 hours they e-mailed me a new set of software 
which we dropped into place and changed that. We could not have 
done that if we were not out sitting with the users, working 
through the concept of operation.
    This doesn't mean that technologies that we look at or 
agencies and labs don't have a critical mission; I think they 
do. That is to ensure that these technologies have promise, but 
not to spend endless hours training engineers the final 
solution. Again, so we are advocates of getting out in the 
field very fast.
    And we would also say don't try to pick a single 
technology. All your good companies here will work very hard 
for everybody over the next several years to develop our 
technologies, to improve them. So our belief is, field as many 
of them as you can. You will have some failures--that goes with 
the territory--but you will have more successes than failures. 
And that way we all learn the technologies will improve. If 
they sit in the lab they don't go anywhere.
    So I thank you for the opportunity to talk to you about our 
company and about our beliefs on fielding.
    [The statement of Mr. Rowe follows:]

                    Prepared Statement of Rick Rowe

    Chairman Lungren, Ranking Member Sanchez, and other Members of the 
Subcommittee, I thank you for the invitation to testify before your 
Subcommittee today. My name is Rick Rowe, and I am the CEO of SafeView, 
Inc., a company that makes highly sophisticated security screening 
portals for checkpoints. I also serve our country as a member of the 
National Academy of Science's Committee on Assessing Technology for 
Transportation Security, and I strongly recommend to you the work of 
our Committee and its subsequent reports, but I wish to clarify that I 
am here today in my capacity as SafeView's CEO, and that my testimony 
is my own and not in any way to be construed as a position of the 
National Academy of Science.
    It is my privilege to be with you this afternoon to discuss 
security checkpoints, and the process changes that I believe are 
necessary to get more new technologies into the field to improve the 
safety, speed, and effectiveness of these checkpoints. These changes 
apply for any venue, be it airport, rail or subway, government or 
private building, nuclear power plant, prison, or military checkpoint. 
All checkpoints for screening people have a great deal of commonality. 
All have threats or contraband they are trying to control, and entry or 
exit that needs to be efficient. All have a rush hour--meaning, peak 
throughput requirements--and all have a need to be safe for use around 
human beings.
    I and members of my company have spent much of the last two years 
sitting at the most dangerous checkpoints in the world, principally in 
Israel's Gaza strip and of late, in Iraq, working on these very issues. 
Safety, efficiency, and throughput are the driving needs at 
checkpoints.
    I truly believe that our nation does not deploy new solutions to 
address ever changing security threats and therefore improve our 
``checkpoints'' as rapidly as it should or is able. This is critical 
not only to save lives, but to provide peace of mind that people are as 
safe as reasonably possible from tragic events such as those that just 
occurred in London. While not all attacks can be prevented, we can 
harden our targets and reduce our vulnerability. By hardening our 
targets, I mean making it obvious to all that this is a ``hard 
checkpoint'' to get through with hidden items. The technology and 
methods used need to create a very high probability that you will be 
caught. Terrorists and criminals do not like to try and get through 
``hard targets'' and they know which ones they are. We all know that 
new technologies are needed to replace those of the 1970's such as 
metal detectors, which is still our backbone of technological 
capability.
    As a small start-up with unique technology, we purposefully planned 
our testing and deployment of our technology in other countries first, 
because we knew that the United States government is extremely slow 
systemically in its implementation of new approaches.
    We are not alone. Many start-ups, often holders of the most 
sophisticated and advanced technologies, do this as a matter of course. 
We all tend to ``prove our solutions'' elsewhere, if for no reason than 
investor pressure for quick results. We do not have the luxury of years 
of endless lab testing driving toward some perfect engineering solution 
that all too often works in the lab, but not in the field, or, at 
worst, provides diminishing returns when compared to lost time to 
market. For example, in the years a developing technology sat in the 
lab going from say, 80% effective to 95%, or whatever criteria set, we 
lost all that opportunity to have at least a more effective solution 
than present methods, confuse our adversaries as they see targets 
harden, and learn what is important in the field, where it matters, to 
drive to higher levels of efficiency. In our view, there is no silver 
bullet. There is no single technology that makes us completely safe. 
Our view is to reap the benefits of developing solutions as they are 
perfected in the field, and layer them into an overall integration of 
systems that creates synergy so that the sum of the parts is greater 
than the whole.
    In our particular case, we screen people for threats using 
millimeter waves. This is a totally safe technology, not ionizing 
radiation that frightens many, and one that was developed at the 
Pacific Northwest National Lab in the late 90's. It bounced around 
government labs for almost five years. But in just two short years, as 
a private company, we designed a commercial product, and, rather than 
wait for the United States to go through its motions, we actually spent 
the majority of our time in Europe, Israel, and other Middle Eastern 
locations, perfecting our design, because we knew we could quickly get 
into the field there. While we have worked with various U.S. agencies 
in parallel, we have, again, spent the bulk of our time with foreign 
governments, who are much more prone to encourage our use of what we 
call ``beta'' field testing. Some call it demonstration projects or 
pilot projects. What it all boils down to is that we take systems that 
may be early in their maturity and not be perfect solutions in the lab, 
but we get them out of the lab and into the field. Then we can adjust 
and tailor them to the threat and throughput requirements. It was 
because these countries were willing to put new technology in the field 
that allowed us and them to learn while strengthening on-going 
security.
    There are successes in the military side. Shortly after the 
terrible bombing that killed our troops in Mosul, Iraq, last December, 
there was a rush as the U.S. military reached out to industry to look 
at technologies to protect U.S. troops from IED's and, in our case, 
walk-in suicide bombers. To the eternal credit of key members of our 
military, I was able to convince them to let us, at only a 
transportation charge to the government, set up our systems to prove 
their worth in Iraq.
    Today we have two systems in Iraq at checkpoints that are exceeding 
anyone's expectations, even mine. They have totally replaced hand pat 
down searches, which was the only previously used method of checking 
for everything from suicide bombers to normal contraband. It has been 
proven to be safer, faster, and more effective.
    I have spent well over 120 hours in the past two months, sitting 
side by side with our soldiers in Iraq. Observing, coaching, learning. 
. .and changing our technology design to meet their needs. I leave 
again this Sunday to sit at the checkpoints with them again. Not a five 
minute visit for an overview, but rather days to understand their needs 
and missions. This is because we are committed to helping protect them 
by providing the best technology possible. I think most of the 
companies here today, if given the opportunity, feel the same way.
    As an important aside, it is also critical to understand that 
hardening of checkpoints is as much about deterrence as catching 
someone. I often get asked about ``how many explosives have you 
discovered in Iraq or Israel.'' This misses the point entirely. The 
worst checkpoint in the world for suicide bombers in 2004 was in 
Israel. They screened over 1.5 million people, yet had only 2 suicide 
bombers and two outright attackers. But these four incidents resulted 
in over 19 soldiers killed and scores injured. Some who were maimed 
forever. But everyone now knows this checkpoint is being hardened and 
the Concept of Operation changed. By Concept of Operation, I mean the 
method of how you run the checkpoint. It is the process or way of 
screening people, the melding of technology and people who operate the 
system.
    One of the biggest changes in systems today is that so much is 
software based. You can get the physical hardware into the field and 
keep improving and updating the software as you go. Enjoy the advantage 
of having faster time to market, knowing the system can keep getting 
better. We recently did this in Iraq. After sitting with the soldiers 
working the Concept of Operation at the checkpoint, we together decided 
they needed more ``views'' of the people being screened. I called back 
to the U.S. on my cell phone and our engineers emailed me a new 
software program, and within 24 hours I had that update installed and 
operating.
    This coupling of getting into the field early and working together 
on the Concept of Operation is where you learn what works and what does 
not. You learn and adapt both the Concept of Operation and the 
technology. What needs to be changed in each and what does not. You do 
not learn this in the lab.
    This doesn't mean the agencies and labs don't have a critical 
mission. They do. In my opinion they should concentrate on initial 
testing and review on an expedited basis to ensure they technology does 
indeed have promise and does have the potential to reach some threshold 
of efficiency, but let it be practical with room to improve. Don't 
require perfection right out of the blocks. Prove that it is safe to 
use with and around people. We need our government agencies to be at 
the threshold, positively encouraging and helping industry provide the 
answers, not some onerous gatekeeper that refuses to let anything pass 
without enormous scrutiny and over-engineering that serves no real 
purpose. Tell us in industry what the problem is, not the solution. We 
in industry are and need to be treated, as suppliers and solution 
partners, not as adversaries who cannot be trusted.
    What this country needs now, in our airports, in our subway and 
train stations, and in our buildings is more ``pilots'' or ``beta-
testing.'' If we wait for our agencies and their labs to churn out the 
perfect solution. . .the silver bullet. . .we will have a very long 
wait. . .if it comes at all. In my past life in commercial and 
industrial businesses, we used to have a favorite expression. . .it is 
time now to end the engineering and deliver the product. It is time now 
for our Nation to adopt the same approach. We need rapid movement of 
technologies from the lab to the field.
    And please don't pick a single technology. . .Don't narrow your 
choices too soon. . .let good companies prove their mettle and get 
their technology out of the lab and into the field. We will all learn 
and grow from it and the best solutions will surely rise to the top and 
be the commercial successes companies hope for, and our Nation, its 
citizens, and our men and women in uniform will be safer.

    About SafeView
    SafeView, Inc. is a privately held developer of systems using 
patented detection technology for various security applications, and is 
based in Santa Clara, CA. SafeView holds an exclusive license to 
commercialize the active millimeter wave holographic technology from 
Battelle, which manages the Pacific Northwest National Laboratory for 
the Department of Energy. SafeView's system uses an active millimeter 
wave technology that is safe and offers unique detection of objects 
made of metal, plastic, ceramic, and other materials that may be hidden 
under clothing without using ionizing radiation. SafeView's system 
offers a more effective and less intrusive alternative to metal 
detectors, pat down searches, and other means used to ensure safety in 
public areas. Additional information about Safeview can be accessed 
from the company's website at http://www.safeviewinc.com.

    Mr. Rogers. Thank you, Mr. Rowe.
    You made a reference in the early part of your statement 
where you said that you decided to go overseas to implement 
some technology because this country was so slow in embracing 
technologies. And I get the impression from all of your 
statements that that is what you have experienced.
    What can we do and what can DHS do to improve the 
relationship--or what is the appropriate relationship between 
vendors such as yourself in new technologies and DHS, and ways 
that we can enhance that and make it more efficient and 
effective and get these technologies in the field more quickly?
    Mr. Chopra, I will invite you first. You seem the most 
aggressive on that point in your comments.
    Mr. Chopra. I don't want to be called aggressive. I think 
it is the size of the country; some of the other places it is 
easier. And I think it is a little bit also of what I call a 
clique, that if--somebody made on the first panel that if you 
are in the EDS mode, the whole DSA or DHS for baggage, and now 
check baggage is being expanded into carry-on baggage, and 
there is also talk about cargo, so that it sort of goes into 
the same mode; and all the other technologies on the side, or 
new technologies that don't follow that path, are more 
difficult to get through to get some funding.
    So people who are smaller companies, not the GEs or the big 
companies, we basically run to offshore. We have more success 
in the U.K. For example, we have got this unit actually 
deployed and being tested on a quarter million passengers, 
while here the debate is still going on between privacy. And 
they have already done that. They have found a way; women are 
checking women. There is no imaging being archived. People who 
are checking are not even looking at them, and they give a 
person a choice.
    So I agree with my companion that it is easier because of 
the size and the enthusiasms outside here. When it succeeds it 
becomes like you have got to get to it tomorrow, but to get 
there it takes a long time, and if you are not in the 
mainstream, forget it.
    Mr. Rogers. Earlier in your statement you made reference to 
the fact that your company manufactures the same technology 
that was referenced by Mr. Fabiano and Mr. Wood in particular. 
You seem to feel like--or I understood your statement to say 
that rather than moving to those technologies now, you think we 
should take the existing systems and enhance them. Why? Is it 
because of cost?
    Mr. Chopra. Well, the two different things I said, for the 
people screening the present units that are deployed at the 
airport, we all know it don't work. What Mr. Fabiano's company 
has, what we have are actually deployable. We have sold more 
than 300 units, all known aviation, all over the world, that 
can be deployed today. Mr. Fabiano's company makes the same 
thing. We can both deploy them today.
    What I meant on the other side is, 2,000 machines exist at 
the present checkpoint x-ray. Definitely they have limitations, 
but it is easier to enhance them and improve them than to 
obsolete them and bring other technology and teach the old 
screening force for EDS.
    Mr. Rogers. Because of the procurement problems you 
described earlier?
    Mr. Chopra. Well, the procurement problem, new things have 
to be learned, and the present machines have done a good job. I 
have heard statements saying an incident hasn't happened. Yes, 
there are weaknesses. We have done something right. Enhance 
them. People are already used to them. And we are working with 
DHS to come up with systems to enhance, and the cost may be 
one-third than to go back and replace 2,000 machines.
    Mr. Rogers. Mr. Fabiano, did you say that the Backscatter 
system that you have is available to go into the field today, 
or is it still in development?
    Mr. Fabiano. It is available today, yes. And I would like 
to specifically answer the question you raised to the others.
    What you can do is ask TSA today to expedite the tests that 
they are planning to qualify the Backscatter units for the 
airports. We have been waiting to have systems deployed in the 
Continental United States in two airports, as has my colleague, 
and we are waiting for the word to deliver those units, and to 
be told where, for several months. As soon as the testing is 
done, it can be done very rapidly, we believe it will be a 
positive outcome and those systems will be deployed.
    Mr. Rogers. If the testing was complete immediately, how 
long it would take to deploy those systems?
    Mr. Fabiano. Weeks.
    Mr. Rogers. Throughout the country?
    Mr. Fabiano. Yes.
    Mr. DeFazio. Mr. Chairman, are we talking about portals 
here, or are we talking about baggage screening Backscatter?
    Mr. Fabiano. No. We are talking about personnel-scanning 
Backscatter system.
    Mr. DeFazio. Right. Thank you, Mr. Chairman.
    Mr. Rizkalla. If I may make a comment, currently there has 
been testing on the trace portals. Right now the weakest link 
in the aviation security--aside from the comments earlier made 
on the cargo, which is an issue--is really the explosives on 
individuals. Right now there is nothing deployed in the U.S. 
airports that allow us to detect explosives if they are on--
specifically on the individual. If they are in his hand-carried 
luggage, there is a chance that the operator will recognize an 
issue and open the bag and find it. But if it is on the 
individual, right now there is nothing.
    There is a program in place, and testing has been made on 
five of our trace portals, and there is a deployment underway 
as we speak right now. We have shipped 25 units to TSA. Could 
this be accelerated? The answer is I am sure it could. And 
should it be? Absolutely it should. We are ready at Smiths to 
manufacture 50 of these per month. We have six teams ready to 
be deployed as we speak right now, to install these systems in 
the airports.
    We need TSA to accelerate this process. And it is not that 
they don't want to; they don't have the resources, the human 
resources, the people to go ahead and identify the different 
airports, prepare the different airports and install these 
systems. The technology exists, the testing is done, it is 
approved, it is going to be deployed. The question is how 
quickly.
    It has been stated that 147 of these portals that are 
manufactured by Smiths and by GE will be deployed by the end of 
the year. Right now, a total of 11--or I am sorry, 16 are 
currently deployed, with an additional 25 from our company that 
are going to be deployed. But a lot more could be done, and 
this could be done quickly. And this is an immediate solution 
ready, available, manufactured, sitting in our warehouse that 
could be deployed and resolve the biggest problem right now in 
aviation security in the United States, the possibility of 
having explosives on the individual literally walk through the 
checkpoint undetected.
    Mr. Rogers. I thank the panel. My time has expired.
    The Chairman now recognizes the Ranking Minority Member, 
the lady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    What do we expect our aviation screeners to do if they have 
a suicide bomber who is detected at the portal when they are 
coming through? I mean, does technology prevent them from a 
problem, and then blowing themselves up right there where all 
the people are at a bottleneck?
    Mr. Rowe. If I could take the first shot at that question, 
since that is what we are doing in Iraq today. We have been 
doing it in Israel for the last year. What you raise is really 
an excellent question.
    I think that one of the issues we have in a lot of 
checkpoints in the world is that we don't experience bad 
people, and so we almost set up a concept of operations that 
does that. And the interesting question really to ask, that I 
like to ask people, is if there is a suicide bomber and you 
detect them, what do you do? And one of the issues is, is if 
the technology is something that I am this close to a suicide 
bomber, I am now dead. So one of the concepts is to take these 
technologies and do two things: One is to make them remote. So 
that is what we do in Iraq is, we actually--the system, the 
portal people walkthrough is remote from the operators, if you 
will, from our soldiers, to give them distance to react.
    The second thing is--and I talked earlier about technology 
and layers, so I think it is not about millimeter wave and 
Backscatter x-ray and trace, it is actually both quite often 
layered together. Now, millimeter wave is the same as 
Backscatter functionally. We just want the chance to be able to 
show that we also are delivering in the world, so we are also 
ready to go today.
    But we talk about trace portals. You actually can put those 
two together. Because if you go through a trace portal, you may 
detect explosives but you don't know when or exactly where. If 
you go through an imaging system, you are not always sure it is 
trace. But if you put the two together, it shows that they feed 
off of each other. So if you get a hit on trace, you put them 
through a screening portal to see what and where it is; if you 
put the other one as a primary, you don't know what it is, it 
may be an explosive, then you can run it through trace portal.
    Actually, the people perfecting that, if you will, are the 
Israelis today. And Smiths Detection and our company were 
involved in field trials in Israel early this year doing 
exactly that, putting the multiple technologies together, 
because none of us have the total solution.
    Ms. Sanchez. Let me just--so, I mean, I am thinking about 
my experience, our experiences, when we go to the airport. I 
mean, everybody is together; we are all together, we are right 
behind each other. So one guy goes through, and maybe we detect 
that something is going wrong with him and he figures out that 
we detected that something is going wrong with him; I mean, 
what would we do at airports? Put everybody 20 feet apart as we 
put them through these systems?
    Mr. Rizkalla. Your comments are absolutely accurate. The 
whole concept of aviation security right now as it stands is to 
avoid allowing explosives to make it on the plane. That 
argument could be exactly the same whether you are queueing in 
front of the airport or if you are queueing at the bank 
machine. Ultimately, whether it is at an airport or not doesn't 
change.
    I would just like to make additional comments on what Rick 
was saying earlier. I am absolutely in agreement with this. 
These trace portals, or millimeter wave, allow you indeed--
because you can remote the detection, and therefore you could 
isolate, if you wanted to, the threat and have the operator 
further away. But your comments are absolutely accurate. Right 
now the whole concept of aviation security is solely to avoid 
for that explosive to make it onto the airport. If he blows 
himself up at the checkpoint, right now there is absolutely 
nothing we can do about it.
    Mr. Rowe. One more comment on the same subject, since we 
are in agreement here. Of the things people are doing is they 
are pushing the perimeter farther out. So, for example, you can 
use a technology at the very front of the perimeter that starts 
to protect the building and the people in it, so you keep it 
out of the building, if you will. You are screening for large 
threats like large weapons, and you are screening for 
explosives or suicide bombers. The kind of explosives that 
people are worried about getting on the plane, as we said, are 
much smaller. You can do a further screen there.
    So again, not speaking for Israelis, one of their concepts 
is you do a screen at the very perimeter for a major threat of 
a suicide bomber or someone with a weapon, and then when you 
get inside the perimeter, you have a second check, if you will, 
more of what you are accustomed to when you are screening for 
all of the other things that we are looking for.
    Mr. Fabiano. Congressman Sanchez, just one quick comment. 
At American Science and Engineering we have over 50 of our 
Backscatter vans in Iraq looking for bombs and suicide bombers. 
And one of the other answers to the remote screening issue--
because we can screen up to half a kilometer away and remotely 
operate our equipment--is to put in jamming technology as well. 
So assume, to your point, as a person is identified, a signal 
can be jammed that could cause them to not be able to activate 
their explosive.
    Ms. Sanchez. Thank you, gentlemen. I see my time has 
expired.
    Mr. Chopra. If I could just add on to that. Iraq has taught 
us a lot about security and how to handle its suicide bombers. 
All of the people sitting there, our equipment is there, and we 
have learned a lot. I think the most separation you do from a 
crowd of people to this terrorist, the better off. And remote 
technology exists, and I think that we are moving in the right 
direction. The real frustration is how fast it can be 
implemented at home.
    Mr. Rogers. The Chairman now recognizes the Ranking Member 
of the full committee, Mr. Thompson of Mississippi.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    This has been quite enlightening. What I fear is the notion 
of best practices; that if we put in place at TSA the notion of 
best practices, we can determine a number of situations about 
how we do it. So if it is working with the person to get on a 
plane, there is a best practice scenario for that; if it is to 
keep people out of the airport with explosives, there is 
another best practices scenario for that.
    I guess my question is, do we presently have equipment that 
can detect all of the potential dangers that a passenger might 
carry onto a plane at one time, or are we going to still have 
some layered system of detection?
    Mr. Rizkalla. If I may try to answer that question. 
Currently there are several different technologies that exist, 
but none of them in itself--and, to my knowledge, that is under 
development--will be able to address all the threats that we 
are currently concerned about at U.S. airports.
    Now the approach nevertheless has to move from a single 
box-type approach where we are looking at an x-ray unit and 
saying, well, what is the x-ray unit going to do; and then you 
look at the metal detector, this is what the metal detector is 
going to do; and you look at check baggage and look, well, are 
there any explosives in this? And we have to start looking at 
the airport as a whole.
    An example. We are going to be deploying trace portals in 
airports. Well, if we have a passenger that alarms and has 
traces of explosives on him, what have we done with his check 
baggage? Are we going to further inspect his check baggage? 
Traces on him does not necessarily mean that he has explosives 
physically on him. It can be in his hand-carried items, or it 
can be in his check luggage. Are we going to have a 
communication between this looking at the system, the entire 
security system, and have something that is going to alert that 
we need further inspection on his check baggage? Well, the 
future is that we have to start looking at the system in 
combination rather than isolated boxes.
    Mr. Thompson. And in your experience, gentlemen, do you see 
TSA promoting this kind of thought processes, or are you all 
having to bring the idea back to TSA? And if so, how is it 
being received?
    Mr. Wood. I can give you a specific example of how the 
process could be accelerated in the case of our CT-based 
equipment for screening carry-on baggage. We have been ready 
for a year to have that system certified or qualified, but the 
TSA has not established standards and they are concerned about 
the accomplice effect. In other words, in the case of a check 
bag, the traveler loses control and contact with their luggage 
once it is checked. In the case of a carry-on bag, they retain 
control. And the concern is that you might have several people 
carrying on multiple components of an explosive.
    As a result, there has been a long delay, and is yet 
unresolved, as to what the standard should be as to the amount 
of explosive permitted. This was established shortly after 9/11 
for EDS systems for check baggage, but not for carry-on. With 
that, those of us in the industry could submit equipment for 
certification, have it approved, and have this equipment 
operational.
    Mr. Fabiano. Congressman Thompson, clarifications of the 
gentleman from Smiths. I believe today with our Backscatter 
technology that any explosive or any bomb can be detected. The 
question, then, I think that you were alluding to is chemical 
and biohazards as well. What we can do is we see the vials or 
the canisters that they are in, so we can detect that there is 
an anomaly there that could be one of those threats as well.
    Mr. Thompson. Thank you. Anyone else?
    Mr. Chopra. Just to add, that trace definitely will work if 
the explosive is on the person; but there are other threats 
like ceramic knives--I mean, some of those are 18 inches long--
or plastics, that needs what we call the body scanner. And the 
body scanner will do--as Mr. Fabiano has said, any object that 
should not be present on the human body is visible. So that it 
does work.
    And the answer to your question about it is--what can we do 
to deploy it? One of the problems is that what I am trying to 
push is, there are bits and pieces that exist. Suicide bombing 
is definitely a problem. In 4 years it has not been solved. 
Fortunately for us, no incident has happened on our soil. If 
you keep waiting for all the bits and pieces and wait for the 4 
years, chances are there might be an incident. We need to start 
deploying, then.
    One of the colleagues here said, it is one thing to be in 
the lab; the other thing is to be in the field. We are always 
going to keep improving them. We must deploy some of the major 
elements of weaknesses in a present security system in 
aviation, cargo, wherever it is, and not wait for the ultimate 
system solution, because it might take a long time. And we need 
to keep plugging the holes, keep persevering and keep going at 
it from day to day to improve it. That takes a lot of guts. 
That is the problem.
    Mr. Rowe. Mr. Thompson, if I could have a real quick 
comment. I think we are sort of preaching to the choir here 
among ourselves, which is good that you see all this unanimity 
in the industry. But one of the things I just wanted to add to 
your question, I don't think that it ever works very well for 
some group to say here is a solution, meet that. I think it is 
better to say what is the problem, and let industry come in and 
work directly to develop the concept of operation, and merge 
those.
    So the problem I see, and I think we have all seen in 
places like Iraq, which is a real learning place for us right 
now, is that when you go out in the field, they don't know 
technology, they don't know what to ask for. And when you are a 
technologist, quite often you are never in the field.
    So we need this combination where we sit down together and 
say we are pretty sure we know what you are afraid of. What are 
the best solutions, whether it is putting pieces together or 
whether it is a single box or what it is, and get it in the 
field and figure out what is important and what is not 
important. And you will never learn that in the lab.
    So what I worry about is if part of the message is if TSA 
is supposed to go off in its infinite wisdom and say here is 
the 18 threat vectors, here is exactly the right solution, you 
guys just go bid on it now. But that is not the right solution. 
It has got to be this combining and sharing together between 
industry, and here is the problem, and we will solve it 
together.
    Mr. Rogers. The gentleman's time has expired. The Chair now 
recognizes the gentleman from Washington, Mr. Dicks, for any 
questions he might have.
    Mr. Dicks. Thank you. That approach that you just described 
is how the Defense Department normally does it. And we have 
found over the years--I have been on the Defense Subcommittee 
for 27 years--that when we just say here is the problem, come 
back with a solution, we do a lot better; and it is a lot less 
expensive and it takes a lot less time to develop. So I 
completely agree with you. And I agree with your idea of 
getting out in the field as well.
    Now, let me ask, Mr. Rizkalla, you say that you have got 
this equipment ready to go for the enhanced screening process, 
right?
    Mr. Rizkalla. Yes.
    Mr. Dicks. What do you call it again?
    Mr. Rizkalla. It is a trace portal. It is the Sentinel II 
explosive detention portal.
    Mr. Dicks. And what is the status with the TSA? Would you 
review that again?
    Mr. Rizkalla. Yes. We had five units deployed in tests in 
various airports, and now have delivered 25 additional units 
for further deployment.
    Mr. Dicks. And you are saying that--so is this a money 
problem, that they don't have the money?
    Mr. Rizkalla. No, that is not the issue. I think TSA, they 
are trying really hard. And it is certainly not a criticism of 
TSA. They are really overburdened with all kinds of deployment 
processes, and to identify appropriately the airports and get 
the airports ready to receive the equipment is not something 
easy. And we are helping them in that. So we have a very high 
level of cooperation with the TSA to expedite the deployment of 
these units. They do need to deploy many more units than these 
25.
    Mr. Dicks. How many, roughly, would you--thousands?
    Mr. Rizkalla. Well, it always depends. If you decide that 
they are going to go at every checkpoint or if you are going to 
use them for cellar T. That remains an issue. If it is every 
checkpoint, then it will be in the thousands; if it is cellar 
T, then it is probably going to be 300 to 400 additional units. 
So that is a question that will be--
    Mr. Dicks. We were just discussing the question that 
properly was asked by Ms. Sanchez about the person coming 
through with a bomb, as we saw just a few days ago in London, 
tragically. The question is, what would be the incentive for 
the bomber when you could go to a football game or the 
supermarket where there is absolutely no security? I mean, that 
is what I worry about is that these people will not go, thank 
goodness, to the airport, but they will go to a place where 
they have the least resistance.
    Mr. Rowe.
    Mr. Rowe. I spent a lot of time in Israel in the last year, 
and I think Israel has probably seen more suicide bombers than 
anybody, so I would like to take a shot at that question.
    First of all, as you harden targets--which is another 
concept I think we would all believe in and as we have talked 
about--people know those checkpoints are hard. In fact, it is 
interesting when you sit and talk to Iraqi interpreters, they 
know which checkpoints are hard to get through and which ones 
are easy based on that. So as you harden targets, you do expose 
the softer targets.
    We take Israel as an example, though. All of their major 
places where people gather in large numbers are hardened. That 
is why you see them bombing night clubs, you see them bombing 
any target now because they have taken the hard ones away. Now, 
none of them are good, but you would rather have it be small 
than big, and then eventually in time they are going to keep 
doing that.
    The other thing you see that occurs in Israel is that they 
go after anyplace that would discourage people. So in this 
case, it is lines of people. Or in Iraq, people who are trying 
to go in and cooperate or do things.
    So I think you, unfortunately, have to start with harden 
your targets so it has a major economic and emotional 
disruption to the country, and you kind of work your way down. 
And hopefully, you know, 3 years or 4 years from now, the 
economy of scale will kick in, because if we were all very busy 
and making lots of units, the prices will fall and suddenly it 
will become very affordable to have these kinds of systems at 
all kinds of sites.
    Mr. Rizkalla. If I may just make a quick comment on that. 
Indeed, the reason why the aviation industry is so interesting 
for the terrorists is because of its destruction on commerce. 
If a plane goes down tomorrow, there is going to be a real 
economic impact. If you blow up a market, outside market, you 
will have some impact, but the impact is not going to be as 
significant economically. That is why the profile of the 
aviation industry is so high. And that is why it is so 
imperative to not let suicide bombers get on these--
    Mr. Dicks. Well, and I agree with that because the economic 
consequences, as we saw in 9/11, there was just a tremendous 
drop in traffic; and the effect on the economy, tourism, all of 
it was devastating to the economy of the United States. We 
suffered billions, maybe even trillions of dollars of economic 
loss because of this one, tragic, awful incident.
    Mr. Rizkalla. And the technology right now to avoid that 
exists, is ready to be deployed. We need to accelerate that 
process.
    Mr. Dicks. So we have got to sit down with TSA and talk to 
them about how to accelerate the deployment of what is 
available that would improve the situation.
    Mr. Rizkalla. That is correct.
    Mr. Dicks. Thank you.
    Mr. Rogers. Well, I want to follow up on that. As I 
understand--he asked about the deployment. As I understood it, 
it is the testing process that is the bottleneck; is that not 
correct?
    Mr. Fabiano. Correct.
    Mr. Rizkalla. From our perspective, it is not, because the 
testing for the trace detection portals is completed. It has 
been improved, all the testing is done. We are beginning the 
deployment. So it is not our issue. It is not.
    Mr. Rogers. Thank you.
    The Chair now recognizes the gentleman from Oregon, Mr. 
DeFazio, for any questions he might have.
    Mr. DeFazio. Thanks, Mr. Chairman.
    Mr. Fabiano, as I understand it, I mean, for several years 
now, since I was exposed, so to speak, to your technology, I 
have been pestering the TSA about it. And they kept saying, oh, 
there is privacy concerns. I said, look, there has got to be an 
easy software fix. You know, people can choose their body; you 
will just show where the things are on that body, Arnold's 
body, whatever body you want, it is fine. So you have solved 
that problem. They can no longer throw up the smoke screen: Oh, 
there is a horrible privacy concern here.
    Mr. Fabiano. They have clearly defined the problem, and we 
have solved it.
    Mr. DeFazio. Okay. And in Mr. Chopra's case, when you 
haven't even provided that privacy screen, people say I would 
rather than being handled by a person--and I have been through 
the Heathrow searches, they are much more intrusive than ours--
they are saying 90 percent of the time we don't care.
    Mr. Chopra. Well, you know, the thing is that there is a 
compromise of security. It comes back to the same thing: There 
is no silver bullet. The more talking you do, the more games 
you play with the software, you are going to find some places 
that you can't be very sure that there is a threat object on 
the human body.
    So one of the things, the European approach has been is 
yes, software has helped, but at the end of the day--I don't 
know whether you have been subjected to it, but I fit the 
profile--35 percent of the time I am spread eagle in the 
airport. And that is a pretty embarrassing thing, whichever way 
people talk about privacy. But given the choice--and Britain 
has come up with this idea and they are deploying them all over 
the terminals. Just put a system in there; there is no 
archiving, and basically you have a woman looking at a woman, a 
man looking at a man, and you basically tell the person do you 
want to be pat-down searched or do you want a scan?
    Mr. DeFazio. I have used that with the TSA, too, and they 
are reluctant. I think either would help.
    Mr. Fabiano.
    Mr. Fabiano. Yes. There is a lot of emotionalism about this 
privacy issue. And you read a lot of things in the paper about 
people talking about they don't want their daughter or their 
wife, because you can see private parts. I think the best thing 
is for us to live demonstration to folks like yourself and let 
you see exactly what the systems do.
    Mr. DeFazio. Right.
    Mr. Fabiano. And I think it would be highly convincing for 
you, and you would be motivated to want to get it in the field.
    Mr. Rowe. And I just want to add to that same litany, but I 
think two added points. One was I think you will find out, 
number one, that these images aren't that good; they are not 
photographic quality; they are not something you are going to 
want to send home.
    And the other thing is that when you train operators, they 
are not spending time--if they are doing their job that they 
are trained to do, they are looking for objects, they are not 
looking at bodies. We are banging through 420 people an hour in 
Iraq. You don't have time to spend time doing that.
    So I think a lot of the comments about that--and I will 
make one challenge for you all--is that, you know, this isn't 
just about airports, this is about congressional buildings like 
this building. I think it might encourage people if we started 
to see some of these systems tested in like this office 
building right here to show that you are willing and have the 
political will to screen people and see what their reaction is 
about privacy. And that would certainly encourage, I think, the 
people who are in airports to say, well, if they will do it at 
the Capitol, they will do it in the office building. And if you 
all will support it, have the political will to support it, it 
is not going to become an issue in the airport.
    Mr. DeFazio. You are all experts on these metal detector 
portals we walk through. If I have a suicide belt that is 
composed of plastic and fabric holding it together and I have 
concealed a detonator elsewhere, not on my person, what will 
happen when I walk through that portal? Nothing, right?
    Mr. Rizkalla. Nothing at all.
    Mr. DeFazio. Right; nothing at all. And that is the same, 
obviously, at airports as well as this office building.
    So that is--you are making a point; I am familiar with the 
trace portals. I am very supportive of that. We just need to 
move this administration and the TSA on this.
    Let me ask about another threat, because these people do 
seem to have patterns and come back to things. I assume most of 
you are familiar with Project Bojinka, which was Ramzi Yousef, 
and it was his idea to take down simultaneously a number of 
747s over the Pacific, and he was only discovered by mistake. 
He had tested the bomb, had blown a hole in a 747, killed a 
number of people. Didn't happen in quite the right place; the 
plane didn't go down, but it worked. It was a contact lens 
cleaning solution, a container full of nitroglycerine and a 
very small detonating device using a digital watch. What are we 
doing to detect those sorts of things at our checkpoints today?
    Mr. Wood. The CT-based cargo solution would be perfect for 
that. It will find the nitroglycerine, it will find a container 
that would have sufficient volume. In fact, I can show you--
    Mr. DeFazio. But I mean, people do carry on--I was behind a 
guy who had six bottles of wine, and they said what is all this 
stuff, and he said oh, they are bottles of wine. Well, they 
don't open the bottles of wine--and it is pretty easy with a 
certain kind of cork to remove it, put something in, et cetera. 
So you could tell it was a container, but we aren't analyzing 
those containers.
    Mr. Wood. No. There are other technologies that would 
discriminate between hydrocarbon and wine.
    Mr. DeFazio. Right. The Japanese make one that I have heard 
of that can do the specific gravity or something. Whatever.
    Mr. Chopra.
    Mr. Chopra. If I could make a comment here. We have a 
technology that is based on thermo-neutron analysis, which 
actually was a demonstration, and detect the difference between 
nitroglycerine and a bottle of wine. It would detect it; it 
will do it in a very specific manner, with no false alarm rate. 
But again, it is another gadget, it is another set of equipment 
to be at the airport.
    And I think TSA in a right way has this nightmare that it 
will start looking like a Best Buy shopping center with 46 
different gadgets that you have to go through and run a system. 
It needs to be evolved. Like I said, these technologies have to 
be brought from the lab out to the open. Everything exists. It 
is a question of putting them together and deploying them. And 
there is no silver bullet.
    Mr. DeFazio. And accessing threats. I mean, we have also 
had attacks in the past where people just simply put gasoline 
in bottles.
    Mr. Rowe. I just wanted to add to that. I think what you 
said is sometimes is what I fear, in that we start to come up 
with scenarios that we can't solve; and so we say, well, 
because we can't solve an ounce of explosive or we can't solve 
this problem, let's not deploy anything. And yet if you look at 
all the history of suicide bombings, whether they are in Iraq 
or whether they are in Israel--which is where the majority 
are--they still tend to be relatively crude. They are not that 
sophisticated. I think sometimes we over-engineer the problem.
    And also if we would quit disclosing to the terrorists how 
our systems work, they are not going to know exactly what will 
get through and what doesn't. So when we see USA Today or when 
we see CNN saying here is how this new technology works, that 
is a huge security risk. Kind of back to--if it ran like DoD, 
probably more things would be classified, because most of this 
information should not be out.
    Mr. DeFazio. And the other thing is to introduce, as I 
think a number of you have offered, kind of a randomness 
factor; we are not going to use a uniform technology at every 
checkpoint for all threats. If you have trace at one place or 
you have the portals and the Backscatter portals in another, 
you create some uncertainty for these terrorists on exactly 
what--and they may study the airports and come back. But it 
just makes it a lot more difficult. If you have a trace and a 
Backscatter, you don't know which portal you are going to go 
through, I think you create a success factor uncertainty for 
these people.
    This will be my last line because I am out of time.
    Mr. Fabiano. There is a common thread in both committees 
that we are here today.
    Mr. Fabiano. There is a common thread in both committees 
that were here today. One is the technologies are evolving 
because the threats are evolving and we are all investing in 
that. But the point today is let us not get into paralysis from 
analysis. Let us act. Because we have systems that can be 
highly effective today that are in order of magnitude better 
than what we have. Let us use them.
    Mr. DeFazio. All right. Thank you.
    I think this a good note to end on. Thank you, Mr. 
Chairman.
    Mr. Rogers. Thank you. The gentleman yields back.
    I want to thank the panel for their time and the members 
for their questions. It has been very valuable. There are some 
members who aren't here that may have some additional questions 
for the panelists, and we are going to leave the record open 
for 10 days. If you do have any questions provided to you, I 
would ask that you would reply to them in writing.
    With that, the Chair would entertain a motion to adjourn.
    Mr. Sanchez. I make a motion that we should adjourn, Mr. 
Chairman.
    Mr. Rogers. We are adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]


                         LEVERAGING TECHNOLOGY
                          TO IMPROVE AVIATION
                                PART II

                              ----------                              


                         Tuesday, July 19, 2005

                          House of Representatives,
                    Committee on Homeland Security,
                 Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2261, Rayburn House Office Building, Hon. Daniel Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Cox, Linder, Pearce, 
Thompson, Sanchez, Dicks, and DeFazio.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security, Subcommittee on Economic Security, Infrastructure 
Protection, Cybersecurity will come to order.
    The subcommittee is meeting today to hear the 
Transportation Security Administration's testimony on how 
technology can best be leveraged to improve aviation security.
    I would like to welcome everybody to today's hearing. This 
afternoon we will hear from the TSA following on the heels of 
last week's hearing on current and emerging aviation 
technologies.
    Last week, we heard from leaders in the aviation technology 
sector to discuss checked baggage, passenger and carry-on 
baggage screening technologies. During the hearing, we 
discussed various technologies, from backscatter X-ray 
technology to screen passengers, to advanced computer 
tomography to scan carry-on baggage for explosives. These 
technologies are available for deployment today but their cost-
effectiveness as part of an overall screening system remains 
somewhat unknown.
    The problem appears to be that TSA takes a technology-
specific approach to testing and evaluation, and while this 
process may be rigorous, it appears to be somewhat slow-going 
and lacking an overall context or plan.
    Not surprisingly, we have made little headway in deploying 
the next generation of screening technology as we continue to 
rely on outdated technology of limited effectiveness.
    TSA, working in partnership with the leaders in aviation 
security technology, must develop a plan to develop an 
integrated system of technology to improve aviation security--
plain and simple. As GAO noted last week, this will require 
airport-specific technology plans, given the differing risks, 
volume and infrastructure profiles among the nation's many 
airports. Technology improvements should reduce operating costs 
and increase our ability to thwart a terrorist attack.
    Of course, we all know that no single technology will offer 
100 percent of the solution to the multitude of aviation 
security threats. The key, therefore, is to identify the most 
effective technology suitable to the particular aviation 
environment and to place them within a sound strategy for 
technology development and deployment.
    I look forward to hearing TSA's views on how they plan to 
accomplish this and soon.
    I thank our witness for appearing before us today and now 
recognize the ranking member of the subcommittee, Ms. Sanchez, 
for any statement she may wish to make.

          Prepared Statement of the Honoable Daniel E. Lungren

                             July 19, 2005

    [Call hearing to order]
    I would like to welcome everyone to today's hearing of the 
Subcommittee on Economic Security, Infrastructure Protection, and 
Cybersecurity.
    This afternoon we will hear from the Transportation Security 
Administration (TSA) following on the heels of last week's hearing on 
current and emerging aviation technologies.
    Last week we heard from the leaders in the aviation technology 
sector to discuss checked baggage, passenger, and carry-on baggage 
screening technologies.
    During the hearing, we discussed various technologies--from 
Backscatter X-ray technology to screen passengers to advanced Computed 
Tomography to scan carry-on baggage for explosives.
    These technologies are available for deployment TODAY, but their 
costs and effectiveness, as part of an overall screening system, remain 
unknown.
    The problem appears to be that TSA takes a technology-specific 
approach to testing and evaluation. While this process may be rigorous, 
it is entirely too slow-going, and lacks any overall context or plan.
    Not surprisingly, TSA has made little headway in deploying the next 
generation of screening technology, as we continue to rely on outdated 
technology of limited effectiveness.
    TSA, working in partnership with the leaders in aviation security 
technology, must develop a plan to deploy an integrated system of 
technology to improve aviation security--plain and simple. As GAO noted 
last week, this will require airport-specific technology plans, given 
the differing risk, volume, and infrastructure profiles among the 
nation's many airports.
    Technology improvements will reduce operating costs and increase 
our ability to thwart a terrorist attack.
    Of course, no single technology will offer a 100 percent solution 
to the multitude of aviation security threats.
    The key, therefore, is to identify the most effective technologies 
suitable to the particular aviation environment, and to place them 
within a sound strategy for technology development and deployment.
    I look forward to hearing TSA's views on how they plan to 
accomplish this, and soon.
    I thank our witness for appearing before us today and now recognize 
the Ranking Member of the Subcommittee, Ms. Sanchez.

    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you for being before us today to testify.
    I am pleased that we are holding this part two hearing 
today to continue to discuss the importance of using technology 
to improve aviation security and security for other modes of 
transportation, which TSA is also responsible to some extent.
    Last week, we heard from the representatives of the 
screening technology industry about the technologies they are 
developing and their views of how it could be used, what has 
been the holdup on trying to get some of this deployed in a 
timely manner, et cetera. So today I am sure you have taken a 
look at that information, and today I hope we get some answers 
from this side.
    I am looking forward to hearing from you regarding TSA's 
process for developing, testing and deploying new technologies, 
how we improve that process and how we can apply these 
technologies to the other modes of transportation security.
    We have been a little frustrated because we have seen 
billions of dollars invested in aviation and yet some of us 
still experience it ourselves when we go through that there are 
different practices in different airports, and depending on the 
person checking you or working security, you have a different 
experience each and every time.
    Some screeners have complained, as is the case, a lot of 
people recognize me when I go through the airport and the TSA 
employees will begin to tell me some of the problems they see 
firsthand, not having the right equipment, in particular, to 
check some of the things that passengers may be carrying 
through and of course the 9/11 Commission recommendations and 
the 9/11 Act passed by the Congress at the end of this past 
year directed TSA to see the deployment of in-line technology 
to improve screener performance.
    I am happy that it is done at John Wayne Airport, which is 
the airport in my area, and that it does have EDS. And I know 
that LAX, which is an airport I use frequently, has revised a 
letter of intent from TSA for reimbursement for the 
installation of in-line of EDS, but there are still too many 
airports that do not have this, and I think we need to talk 
about what the delay is and where we really plan to have that.
    And I think, more importantly, we need to see some sort of 
a long-term strategy of not just what are we doing with 
aviation but with respect to what happened in London this last 
week, what are we doing here with respect to our other modes of 
transportation.
    So we look forward to hearing from you, and these are 
important issues, and I think we just need to be reassured that 
as big a task as this is, and we understand that, that we are 
making progress and we have some long-range strategies and 
plans on how to get this done.
    Thank you, Mr. Chairman.
    Mr. Lungren. I thank the gentlelady for her statement.
    And the chair now recognizes the chairman of the full 
committee, the gentleman from California, Mr. Cox, for any 
statement he may have.
    Mr. Cox. Thank you very much, Mr. Chairman.
    I would like to welcome our witness. I am looking very much 
forward to hearing your testimony as we meet this afternoon to 
examine how the Transportation Security Administration can 
leverage technology to improve our security screening 
operations.
    As we heard last week, a clear technology strategy is 
necessary if the private sector is going to help us to deploy 
the next generation of equipment. It is vital that new 
screening technologies that could fill critical security gaps 
and reduce operating costs at our nation's airports move from 
TSA evaluation into the field.
    We want TSA to be relying on the very latest technology, 
not on outdated technology. We want to move beyond X-ray 
machines and magnetometers that did a good job at finding metal 
items but have a much harder time catching the more menacing 
terrorist threats, such as IEDs, improvised explosive devices.
    The deficiencies with older technologies are forcing 
taxpayers and the federal government to employ more time-
consuming invasive secondary procedures--pat-downs and hand-
conducted luggage searches. They also require screeners to make 
judgments based upon limited information, introducing more 
human error into the system than we would like.
    Testing conducted by the Department of Homeland Security's 
Inspector General and by the Government Accountability Office 
puts questions before us that we can discuss this morning about 
how the current screening system can be changed to operate at 
more optimal levels of efficiency or effectiveness.
    The labor-intensive nature of current equipment has made 
TSA's on-the-job injury problems larger perhaps than we would 
like them to be. Thirty percent of TSA screeners filed workers' 
comp claims during 2004. That is a high number, and it is 
related, of course, to lifting heavy baggage during the 
screening process.
    Despite all of this, TSA, in my view, is poised to make big 
changes and big progress. We have to admit that many of the 
problems that TSA has experienced are due to mandates imposed 
by this Congress. To correct the situation, TSA and the 
Congress have to work together to identify and prioritize 
investment in technologies that can reduce TSA's annual 
operating budget while improving its detection capability.
    I want to thank our distinguished witness in advance for 
appearing today to provide TSA's views on these issues, express 
my willingness and this committee's willingness to work very 
closely with you as we work together to achieve these 
objectives.
    Thank you, Mr. Chairman, for scheduling this second in a 
two-hearing series on this very important topic.

           Prepared Opening Statement of Hon. Christopher Cox

                             July 19, 2005

    Thank you, Mr. Chairman.
    We are meeting this afternoon to examine how the Transportation 
Security Administration (TSA) can leverage technology to improve its 
security screening operations.
    As we heard last week, TSA's lack of a technology strategy has 
hampered private sector efforts to develop next generation equipment. 
As a result, new screening technologies that could fill critical 
security gaps and reduce operating costs at our nation's airports are 
languishing in TSA labs.
    TSA continues to rely excessively upon outdated technology. X-ray 
machines and magnetometers do a very good job at finding scissors and 
nail clippers, but they have a much harder time catching the more 
menacing terrorist threats, such as improvised explosive devices.
    The deficiencies with the current screening machines have forced 
TSA to employ time-consuming and invasive secondary procedures such as 
pat downs and hand-conducted luggage searches. They also requires 
screeners to make judgments based upon limited information, introducing 
an excessive amount of human error into the system.
    In fact, testing conducted by the Department of Homeland Security's 
Inspector General and the Government Accountability Office raises 
serious questions as to whether this current screening system can ever 
operate at optimal levels of efficiency or effectiveness.
    Furthermore, the labor-intensive nature of current equipment has 
made TSA the lead federal agency in on-the-job injuries. In fact, 30 
percent of TSA screeners filed workers compensation claims during 2004, 
mostly related to lifting heavy baggage during the screening process.
    Despite all of the shortcomings of its current screening systems, 
TSA has gone about its technology development and deployment in a 
haphazard fashion--and we must admit that this is partly due to 
mandates imposed by Congress.
    To correct the situation, TSA must promptly move to identify and 
prioritize investment in technologies that can reduce TSA's annual 
operating budget while improving its detection capability.
    I thank the witness in advance for appearing today to provide TSA's 
views on these issues, and yield back my time.

    Mr. Lungren. I thank the chairman.
    Other members of the committee are reminded that opening 
statements may be submitted for the record.
    We have to testify here today the Assistant Administrator 
and Chief Technology Officer for TSA, Mr. Clifford Wilke. He 
has a distinguished record of achievement in both the private 
and the public sector, one of the first few people who knew 
anything about smart cards, someone who then joined the federal 
government where he served in distinguished capacity in the 
Office of Comptroller of the Currency where for 5 years he 
served as Director of Bank Technology.
    We thank you for appearing. Let me just remind you that 
your prepared remarks will be included in the record in their 
entirety. We would ask you to attempt to limit your remarks to 
begin with for 5 minutes, and then we will go to a round of 
questioning.
    Mr. Lungren. Mr. Wilke?

                 STATEMENT OF CLIFFORD A. WILKE

    Mr. Wilke. Good afternoon Mr. Chairman, Representative 
Sanchez and members of the subcommittee. I am pleased to have 
the opportunity today to discuss the vital role that technology 
plays in ensuring the security of our aviation system.
    We are working rapidly to deploy and develop the next 
generation of technology. Our work is focused on not only 
increasing the capabilities of our security but in providing 
the best tools available that improve the experience of the 
traveling public as they go through the security screening 
process.
    In general, TSA provides two distinctive types of 
screening: Passengers and the property they carry into the 
cabin of the aircraft as well as the checked baggage carried in 
the hold of the aircraft. These two types of screening require 
two different types of technologies.
    Frequent travelers are very familiar with the technologies 
used for checkpoint screening. Currently, TSA relies on 
enhanced walk-through metal detectors, threat image projection 
equipment X-ray machines and explosives trace detection units. 
They are all intended to assist screeners in determining 
whether or not a passenger is trying to bring a weapon, 
explosive or a prohibited item on board.
    We are very excited about the technology that is in the 
research and development stage, such as the backscatter X-ray, 
automated explosives and weapons detection for carry-on 
baggage, bottle screeners and enhanced trace detection devices.
    We are also right now in the pilot phase of two 
technologies at selected airports: Explosive trace detection 
portals and explosive detection document scanners. The 
explosive trace detection portal is an automated passenger 
screening system using a whole body portal to inspect 
passengers for traces of concealed explosives. The portal 
conducts a trace sampling process with puffs of air when the 
individual enters the portal. We are conducting pilot tests 
right now at 14 airports and are operationally testing this in 
airports across the country.
    The pilots are quite successful and therefore we are 
proceeding with the purchase and installation of 147 more of 
these units across the country. TSA has identified potential 
airports around the country that will be receiving the majority 
of these portals later this year, and we are also working on 
site surveys for the remaining units.
    In our pilot test in explosive detection equipment, we 
deployed four scanners that require a screener take a travel 
document from a passenger, pass it through a sensor on the 
instrument to detect the presence of explosives. TSA found that 
this system would be more effective if the passenger themselves 
could use it and pass the document through the screening system 
without intervention from a screener. Right now we are working 
to further refine this technology for actual field use.
    I would like to discuss one other technology we are 
developing which is whole body imaging and backscatter X-ray 
technology. The technology would allow TSA screeners to 
visualize metallic and non-metallic items carried on a person 
without physical contact between the passenger or the screener.
    TSA is well aware of the privacy concerns raised by the 
media regarding this technology, and we are working very 
closely with the vendors to ensure that software algorithms are 
incorporated into the device to produce images that will access 
and really address the privacy concerns. We believe this 
technology can enhance privacy because passengers going through 
this process will no longer need to endure pat-down searches in 
the future.
    For fiscal year 2006, the administration has requested a 
total of $72 million for emerging checkpoint technologies. I 
respectfully ask the committee support our request.
    In the checked baggage area, TSA utilizes in-line as well 
as stand-alone explosive detection systems and explosive trace 
detection machines. Under our next-generation explosive 
detection system, Phoenix, we are making significant 
incremental improvements to the present generation of explosive 
detection technology.
    First, TSA certified the Reveal CT-80 in December of last 
year. This is a system that is smaller in size and can be used 
for smaller airports or it can be deployed as a stand-alone 
unit or as part of a small in-line solution to any airport that 
needs it.
    Another part of our Phoenix project is the Analogic 6400 
machine, which is a software upgrade to enhance the capability 
of the eXaminer 6000 EDS system that is currently deployed. It 
gives us the ability for 3-D imaging and reduced false alarm 
rates.
    We are also looking at eight letter of intent that we have 
currently right now to provide multiyear financial assistance 
based on the availability of funds to nine airports across the 
country, enabling them to perform work on installing in-line 
systems.
    The request in fiscal year 2006 includes $264 million to 
support this existing letter of intent. We believe that the 75-
25 cost-sharing model right now is very equitable, and if it 
were to be change, it might create hardships for other parts of 
the industry.
    Mr. Chairman, technology development is a high priority for 
the agency and with the Department, and we are working very 
closely with these efforts with our technology vendors. This 
partnership is important as we pursue cutting-edge technologies 
and work on successfully deploying them.
    This concludes my opening remarks. I would be very pleased 
to answer any questions at this time.
    [The statement of Mr. Wilke follows:]

                Prepared Statement of Clifford A. Wilke

    Chairman Lungren, Congresswoman Sanchez, and Members of the 
Subcommittee, thank you for inviting me to testify regarding the 
deployment of checkpoint and checked baggage screening technologies at 
our Nation's airports. With the summer travel season well underway and 
airline travel now exceeding the pre-September 11th levels, it is an 
appropriate occasion to examine the role that technology plays in 
support of our mission of screening passengers and property, in a 
manner that not only ensures security but also operational efficiency. 
By measuring the capabilities we currently possess against emerging 
threats, we are able to conduct the necessary research and development 
to support the next generation of technology solutions that will 
continually increase our capabilities, minimize staffing requirements, 
and improve the experience of the traveling public. An element of TSA's 
Office of Security Technology is our Transportation Security Laboratory 
(TSL) at Atlantic City, NJ. The TSL is the premier laboratory leading 
the way in explosives and weapons detection in support of protecting 
the transportation infrastructure. I invite you to visit the TSL at 
your earliest convenience, so that you can get a firsthand glimpse of 
some of the technologies that I will be describing today.

Checkpoint Screening Technologies
    TSA's technology program is designed to provide the optimal tools 
to our screeners. For checkpoint screening, TSA's screeners conduct 
pre-flight screening of passengers and their property to ensure that 
they do not bring aboard a commercial flight any concealed weapons, 
explosives, or other threat items. The following are the tools 
currently deployed to support this part of our mission:
        <bullet> 1,910 enhanced walk-through metal detectors: Designed 
        to alarm when a metallic item of sufficient weight and density 
        is detected, these alert screeners to the need to perform 
        secondary screening to ensure that the item causing the alarm 
        is not a prohibited item. After 9/11/01, TSA established a new 
        standard for airport metal detectors and replaced the units 
        that had been previously deployed.
        <bullet> 1,904 threat image projection (TIP) ready x-ray 
        machines: Designed to portray images of items being screened, 
        these allow screeners the opportunity to use image 
        interpretation to identify potential prohibited items. The 
        incorporation of TIP into this technology allows TSA to 
        randomly and covertly insert images of threat items into bags 
        that are processing through the x-ray unit and measure screener 
        alertness and effectiveness. As new threat concealment 
        techniques are designed, TSA can design TIP images to educate 
        screeners without removing them from their work station.
        <bullet> 1,273 Explosive Trace Detection (ETD) units: Designed 
        to detect traces of explosives particles, these provide 
        screeners with a technology to assist in the clearance of items 
        that cannot be cleared through x-ray and/or visual inspection 
        alone. This is a particularly effective technology with regard 
        to screening bags i.e., a suspected false bottom or lining that 
        reveals evidence of tampering, as well as shoes and electronic/
        electrical items. The screener uses a collection media to 
        obtain a sample for the surface of the object to be screened 
        and submits that media for analysis. The unit will alarm if the 
        presence of explosives particles is detected.
    The effectiveness of each of these technologies is dependent upon 
screeners being alert and attentive to their duties 100 percent of the 
time and following established processes and procedures. For example, 
by definition, the use of metal detectors only alerts screeners to the 
presence of metallic objects, which would encompass most weapons and 
most prohibited items. Further, these devices alarm when detecting a 
broad array of metallic items, which then requires a more time 
consuming alarm resolution process to begin, to include use of hand 
held metal detectors to isolate the area of concern and a limited pat 
down search to identify and resolve the item(s) causing the alarm. X-
ray screening requires image interpretation as bags process through the 
unit, allowing only seconds to make a decision. Therefore, screeners 
must not only be well-trained but also continually alert. Finally, the 
ability of the screener to obtain a proper sample is critical to the 
effectiveness of ETD technology.
    Going forward, TSA's checkpoint technology research and development 
program focuses on overcoming the shortcomings of existing technology, 
especially through automation of threat detection. In addition to 
improving detection capabilities, TSA also seeks to develop technology 
that has a minimal ``footprint impact,'' so that their installation or 
actual operations will result in minimal disruption to the flow of 
passengers and require minimal construction investments. TSA must also 
ensure that any technology that is introduced does not pose an 
unintended health or safety risk to passengers and/or screeners. 
Finally, TSA is mindful that with increased technology capabilities 
comes the responsibility for ensuring that such capabilities do not 
lead to undue intrusions into the personal privacy of passengers.
    TSA has conducted operational testing and evaluation of two new 
technologies that will enhance TSA's ability to detect explosives at 
airport checkpoints. The first technology is Explosives Trace Detection 
Portals, designed to inspect passengers for concealed explosives using 
non-contact trace detection as passengers walk through the portal. The 
testing revealed that the portal offers a viable first generation 
solution for explosives detection on people. With the successful 
completion of 14 pilot projects, TSA is planning to purchase and 
install 147 of these portal units in calendar year 2005.
    The second technology undergoing testing and evaluation at four 
airports is a manual explosives detection document scanner. The four 
units currently deployed on a pilot basis require that a screener 
handle a passenger's travel document and pass that document across a 
designated area on the unit to obtain a sample for analysis for the 
possible presence of explosives. TSA has found that while the 
underlying technology is effective, we would achieve more effective 
results if the system were designed to accept travel documents directly 
from passengers. Such a direct approach would not only streamline the 
screening process but would also preserve the integrity of any traces 
of explosives that might be present. TSA is therefore continuing to 
work with technology vendors to develop an automated explosives 
detection technology that will include a document scanner and expects 
to have a prototype to pilot in FY2006.
    TSA is also currently pursuing research and development on a number 
of next generation technology solutions to further expand our 
capability to detect weapons and explosives at the checkpoint. One 
technology that TSA finds especially promising is whole body imaging/
backscatter X-ray technology, which would allow TSA screeners to 
visualize metallic and non-metallic items carried on persons without 
physical contact between the screener and the passenger. The device 
operates by producing an approximate body image that can highlight 
possible weapons or explosives on that individual without unduly 
infringing on personal privacy. TSA is currently developing an 
operational test and evaluation pilot project proposal for this 
technology, including techniques for protecting personal privacy. TSA 
is working closely with vendors to perfect software algorithms that 
would be incorporated into this technology to protect the personal 
privacy of individuals that would undergo backscatter screening. 
Simultaneously, TSA is evaluating other body imaging technologies, such 
as millimeter wave and terrahertz technology. We believe that if whole 
body imaging systems are successfully developed and deployed, with 
effective means to protect personal privacy, this technology could 
improve the secondary screening process and potentially minimize the 
necessity to conduct patdown searches.
    In addition to whole body imaging technology, TSA has a number of 
research and developments projects underway to identify increasingly 
effective and efficient checkpoint technologies, including:
        <bullet> Explosives Detection System (EDS) for carry-on 
        baggage: TSA is conducting preliminary evaluations of an EDS 
        for carry-on baggage that would automate the detection of 
        explosives in carry-on baggage, similar to the capabilities TSA 
        has achieved for checked baggage screening. TSA currently has 
        one unit located at Boston Logan International Airport to 
        collect engineering data needed to support further development 
        of the technology.
        <bullet> Cast and Prosthetic Device Scanner: TSA is working to 
        develop a technology solution to more effectively screen casts 
        and prosthetic devices for weapons and prohibited items.
        <bullet> Explosives Detection Bottle Scanners: TSA is working 
        with industry to evaluate the effectiveness of bottle scanners 
        to screen for liquid explosives. TSA has issued a solicitation 
        to industry to submit products for laboratory evaluation.
    TSA plans to invest $28.3 million in FY 2005 and has requested 
$71.7 million in the FY 2006 budget for emerging technologies to begin 
to equip airports with additional explosives detection technologies for 
passenger screening.
    The FY 2005 purchase and deployment plan for explosives detection 
portals and document scanners is outlined below:

----------------------------------------------------------------------------------------------------------------
                                                                               Cost Per unit (does not include
          FY 05--$28.3M               # of Airports          # of Units              installation costs)
----------------------------------------------------------------------------------------------------------------
Static Trace Portals               41+                  147                                            $175,500
----------------------------------------------------------------------------------------------------------------

    For FY 2006, the Administration is requesting an increase of $43.7 
million, for a total of $72.0 million, to direct additional resources 
to field emerging technology equipment at checkpoints. As emerging 
checkpoint technologies continue to be developed, operationally tested, 
and evaluated, we will be able to determine which other technologies 
are appropriate for deployment.

Checked Baggage Screening Technologies
    For checked baggage screening, TSA conducts pre-flight screening of 
all checked baggage that is carried on a commercial flight for the 
presence of explosives. Currently, TSA uses two types of devices to 
screen checked baggage for explosives: explosive trace detection 
machines (ETD) and explosive detection systems (EDS). ETD machines are 
roughly the same size as a common laser printer, with an average cost 
of $37,500. ETD machines can detect minute traces of explosive residue, 
which may have been transferred to surfaces through direct or indirect 
contact. While the ETD machines themselves have extremely high 
detection rates and very low false-positive alarm rates, the process 
for collecting trace samples is slow, very labor intensive, and 
susceptible to human error. ETD machines work best as a primary means 
of explosive detection at low-throughput airports and for alarm 
resolution when coupled with an EDS machine. As indicated earlier, this 
technology is also used to support screening at passenger checkpoints.
    In contrast, EDS machines scan objects in bulk and compare their 
density to the density of known explosives. The EDS can be highly 
automated and networked and can scan several hundred bags per hour. 
Currently, TSA has deployed at our nation's airports over 1,300 EDS 
machines, which operate from a computed tomography (CT) technology 
platform, and all of which are manufactured by L-3 Communications 
Corporation or GE/InVision Technology, Inc. The greatest advantages of 
EDS over ETD are that threat detection is automated and their 
throughput rate is significantly higher. The EDS does produce higher 
rates of false alarms, and as a result, screeners must resolve those 
alarms by either using on-screen alarm resolution protocols, or by 
using ETD to inspect the item(s) causing the alarm. In addition, the 
current generation of EDS is generally large and bulky (weighing around 
10,000 pounds and measuring on average approximately 24'x6'x6'). EDS 
units are also costly to purchase (as much as $1 million per EDS 
machine). Finally, to accommodate the size and weight of the EDS 
machines, some airport terminals require facility modifications prior 
to installation. Installation costs vary but average approximately 
$340,000-420,000 per unit.
    Further efficiencies can be achieved at the Nation's largest 
airports if EDS is integrated inline with an airport's baggage conveyor 
systems. Inline screening solutions allow TSA to realize maximum 
efficiencies with regard to equipment throughput capacity. For example, 
a standalone EDS unit typically deployed in an airport's lobby will 
process approximately 150 bags per hour, while that same unit installed 
inline will process approximately 450 bags per hour. Unfortunately, 
facility modifications needed to support inline EDS screening solutions 
usually entail extensive terminal modifications--such as reinforced 
flooring, IT networking, electrical upgrades, new conveyer systems, and 
construction of new facilities.
    To date, ten airports have moved to full inline screening systems. 
Many of these airports undertook this work using their own funds, funds 
from FAA's Airport Improvement Program (AIP), or some combination 
thereof. Since 2003, TSA has also issued eight letters of intent 
(LOIs), covering nine airports (of which one, Boston Logan 
International, has completed full inline EDS installation), to provide 
assurance of a multi-year funding stream for selected airports to make 
the necessary airport infrastructure modifications to accommodate 
installation of inline EDS. To this point, TSA has issued the following 
LOIs, which will be paid over several years subject to the availability 
of funding:




Airport Total                               Project Cost
Denver International                        $95 million
Dallas/Fort Worth                           $140 million
Los Angeles/Ontario                         $315 million
Boston Logan                                $116 million
Las Vegas McCarran                          $125 million
Atlanta                                     $125 million
Seattle/Tacoma                              $212 million
Phoenix                                     $115 million


    The Federal Government's total investment over the duration of the 
LOIs, at a 75% Cost Share Rate, would be $957 million.
    The FY 2006 President's budget request includes $264 million to 
support the existing LOIs. This amount includes $240.5 million in 
direct reimbursements and an additional $20 million for equipment 
multiplexing and installation. The FY 2006 President's budget also 
includes $130 million for the purchase of EDS and ETD technology in 
support of checked baggage screening.
    TSA is also developing prioritization criteria that will result in 
a comprehensive strategic plan in which TSA will identify the universe 
of airports that may benefit from an inline EDS system or other 
physical modifications to support the optimal screening solution. This 
plan will identify estimated project costs and potential savings that 
could be achieved through minimizing staffing requirements, capital 
investments and maximizing technology capabilities. It is important to 
note, however, that inline EDS systems are not appropriate for all 
airports, from both operational and cost considerations. For example, 
in December, 2004, TSA certified the CT-80, which is manufactured by 
Reveal Imaging Technology. This unit operates from a CT based platform 
similar to the current L-3 and GE/InVision technologies, but it only 
weighs about 3500 pounds and will cost approximately $350,000 per unit 
The Reveal CT-80 provides TSA with a smaller and less expensive EDS 
unit to include in its planning. At certain airports, the Reveal CT-80 
may be appropriate to install as standalone units within and/or 
immediately behind airline ticket counters at airports. They would 
replace screening currently performed using ETD. For FY 2005, TSA has 
available for obligation $30 million to purchase and install CT-80s, of 
which about $25 million would be used to purchase the actual units and 
$5 million would be devoted to installation. Pilot testing of the units 
is already underway at Gulfport Biloxi Airport and John F. Kennedy 
International Airport (JFK) and will soon be initiated at Newark 
Liberty International Airport (EWR). The pilot testing will allow TSA 
to measure the operational impact associated with use of this new unit. 
TSA's research and development efforts have also yielded a software 
upgrade that enhances the capability of the already deployed eXaminer 
6000 EDS unit manufactured by L-3 Communications. This upgrade, known 
as the Analogic 6400, was certified by TSA in April of this year. The 
upgrade provides improved detection, increased throughput capacity, 
improved reliability, and reduced false alarm rates. TSA will pilot 
this technology at a number of airports to determine operational impact 
by the end of this year.
    The Reveal CT-80 and the Analogic 6400 are concrete examples of 
incremental improvements in existing EDS technology to provide greater 
flexibility in identifying the optimal solution for a variety of 
airport configurations, while also lowering alarm rates, increasing 
throughput, and improving detection capabilities. These enhancements to 
our checked baggage explosives detection capability fall under what we 
term the ``Next Generation EDS--Phoenix Project.'' In addition to this 
applied R&D, TSA is also undertaking basic R&D to explore emerging and 
revolutionary new technologies under the ``Next Generation EDS--
Manhattan II'' project. The purpose of
    Manhattan II is to evaluate and develop next generation EDS 
technology and to challenge industry and academia to apply innovation 
in the development of new screening systems. Under Manhattan II, TSA 
has issued ten multiple proof-of-concept grants, totaling approximately 
$10 million in FY 2004 and FY 2005, which includes the following:

------------------------------------------------------------------------
                                                            Project
         Technology Area                Vendor            Description
------------------------------------------------------------------------
TeraHertz                         L3 Communications   THz Time Domain
                                                       Spectroscopy

                                  TeraView            Applying THz to
                                                       Checked Baggage
                                                       Screening
------------------------------------------------------------------------
Neutron                           SAIC                Neutron-based
                                                       system for Alarm
                                                       Resolution

                                  HiEnergy            Stoichoimetric
                                                       Explosive
                                                       Detection &
                                                       Confirmation
------------------------------------------------------------------------
Trace Detection                   CyTerra             Pressure Activated
                                                       Sampling System-
                                                       Luggage (PASS-L)

                                  Nomadics            Amplified
                                                       Fluorescence
                                                       Quenching
------------------------------------------------------------------------
X-Ray                             Smiths Detection    Coherent Scatter
                                                       with CT imaging

                                  Analogic            Threaded Dual Axis
                                                       Tomosysthesis
                                                       (TDAT)

                                  General Electric    Stationary X-Ray
                                                       Source (CT)

                                  Xintek              Nanotechnology
                                                       Based X-Ray
                                                       Imaging
------------------------------------------------------------------------

    Upon completion of the proof-of-concept phase, TSA will evaluate 
the results and award system development contract(s) to those 
organizations with concepts and technologies that are proven and 
demonstrated. It should be emphasized, however, that Manhattan II is a 
long-term project that is not designed to yield technologies that would 
be deployable in the immediate future.

CONCLUSION
    Subsequent to the attacks of 9/11/01, TSA successfully undertook a 
massive investment and effort to not only hire, train, and deploy a 
Federal screener workforce but to also provide them with the necessary 
tools to perform their duties. Given the urgency in which TSA had to 
operate, the aggressive deadlines set forth by Congress, and the 
technology that was available at the time, deployment has been 
challenging. As the agency matures and as airline travel levels exceed 
the level that existed on 9/11/01, one of our main goals is to optimize 
all of our resources so that security is achieved in the most cost-
effective and operationally efficient manner. Developing cutting edge 
technologies and successfully deploying them is a key component to this 
optimization and is being done in close coordination with the 
Department of Homeland Security's Science & Technology Directorate and 
in partnership with technology vendors. We are developing strategic 
plans for both checkpoint and checked baggage screening technologies 
which will allow us to effectively design our road map to the future. 
Our efforts will focus on increasing our technological capabilities to 
keep pace with potential terrorists, whom we must assume are constantly 
examining how they can penetrate security at our Nation's airports.
    Mr. Chairman, Congresswoman Sanchez, and other Members of the 
Subcommittee, this concludes my prepared remarks. I would be pleased at 
this time to answer any questions.

    Mr. Lungren. The chair recognizes himself for the first 5 
minutes.
    Thank you very much for your testimony, we appreciate that.
    Let me just ask you a general overall question, and that 
is, is your technology development premised on the assumption 
that we are going to have most people who get on airplanes go 
through this, all the people, or do you make any calculations 
as to whether or not certain technologies would be changed with 
respect to their function if you were able to eliminate a 
significant number of people from that, for instance, through 
the Registered Traveler Program?
    Mr. Wilke. I think programs such as Registered Traveler do 
possess and give us a tremendous opportunity to, if you will, 
reduce the size of the haystack of what we really need to focus 
on. That is travelers that we need to spend additional time 
screening, going through the process of perhaps using all of 
our screening technologies on these citizens and traveling 
public that we should be focusing our attention on.
    I know from a policy perspective the agency is looking at 
this, and it is really more of a policy area than technology, 
but from a technology perspective, it would definitely help us 
in that process of raising the level of security for our 
traveling public.
    Mr. Lungren. The backscatter X-ray technology, you have 
indicated that there are privacy concerns, and you have talked 
about methods by which we can address those issues, and you 
used some technical words. How would you explain it in plain 
English to someone who is concerned about going through that 
machine and it exposing them, so to speak? I mean, in concrete 
terms, what about the approach would be used to alleviate the 
concerns that an average person would have after they have 
listened to the press about submitting to such a review?
    Mr. Wilke. I think we have learned and seen what the press 
has portrayed the technology as. However, during the past few 
months, we have been working very aggressively with our vendors 
to develop a new algorithm that, if you will, provides more of 
a cartoon-like image that shows any type of metallic devices, 
explosives carried on body, for example, or knives that are 
carried on person that would normally have to be checked and 
verified through a physical pat-down.
    Mr. Lungren. In the old days, I would understand what you 
are talking about, but some of the cartoons today are rather 
explicit. I mean, what are you really talking about? Are they 
like stick figures but they would actually show the areas of 
concern; that is, they would show if there are any metallic 
objects? What is it, because that is what I have got to answer 
to folks back home, right? Not algorithms or anything like 
that, I have got to tell them what it looks like.
    Mr. Wilke. It is basically an outline of the body, if you 
will, same as if you are silhouette would be there. And it 
would show any types of metallic objects or things that are 
non-organic that are actually carried on person at that time.
    Mr. Lungren. It would not show other outlines of the 
body???
    Mr. Wilke. With the privacy algorithm developed, you would 
not have those type of things.
    Mr. Lungren. Last week we consistently heard from vendors 
that the government should set standards and benchmarks for 
technologies. In your opinion, what is the most effective means 
for TSA to standardize the benchmarks used by aviation security 
technology vendors?
    Mr. Wilke. I think the number one key is reliability. We 
want to be assured that a machine that is deployed out in the 
field meets the need of the traveling public and provides 
security. The worst thing we can do is deploy a technology out 
there, spend the money for it and then not have it meet the 
needs.
    Mr. Lungren. With your past experience in both the private 
and the public sector, what do you see as the appropriate 
relationship between technology vendors and TSA in their 
respective roles in development and deployment of aviation 
security technologies?
    Mr. Wilke. I have believed always in a public-private 
partnership, if you will. We did it in the Treasury when I was 
over there in working with our vendors on that piece, and I 
fully support it in our job here.
    In our two most recent FedBizOpps notifications looking at 
next-generation technology, we are basically going out and 
saying, ``Here is the problem here is the solution, here is 
what we want to solve.'' Vendors give us solutions that meet 
that need. And I think by having an open dialogue with our 
vendors, we can get ourselves a lot better, a lot higher 
quality of products out there in the marketplace to raise the 
level of security.
    A case in point, one of the technologies we are currently 
in very, very early development with based upon a meeting with 
one of our vendors is a technology that can actually sense 
explosives that are carried that a person has. So we can 
basically put a fingerprint down or put a handprint down and 
you can see if the person has touched or traced explosives, 
same as an explosive trace device but just furthering that 
technology out further.
    Mr. Lungren. What would you say to those critics of TSA who 
have suggested that you do not have a technology road map, you 
do not have an overall technology development and deployment 
strategy? Is that true, number one? And if so, what do you have 
as an alternative?
    Mr. Wilke. Okay. That might have been true at a period of 
time. When TSA was stood up, they did a Normandy-like, D-Day-
like deployment of technology to all 450 airports across the 
country. The agency is now evolving to more of a strategic 
approach moving forward, putting together a strategic road map, 
if you will, to look at how various technologies can be used to 
actually meet the security traveling public's needs.
    Mr. Lungren. My time has expired.
    The gentlelady from California, Ms. Sanchez, is recognized 
for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I would like to ask a question for you with respect to the 
aviation issue. Your own analysis has shown that nine airports 
now have the in-line EDS system, which would save the federal 
government about $1 billion over 7 years, and that the initial 
investment in those systems would be recovered in a little over 
a year.
    So my question is, why in your budget you did not request 
more money for us to get that to more airports?
    Mr. Wilke. The first thing I will say is I challenged the 
number that was given for the one-year payout on it. I mean, if 
you look at payout of just the machine alone, it depends on 
really how you use the calculator. I mean, you really need to 
look at the overall price of the entire system, all the things 
that are needed to put an in-line system in place. That 
includes not just the machine itself but baggage handling 
equipment, it also includes sorters and a lot of other things 
for an airport to really do its piece.
    So the payoff ROI piece in some of our calculations are 
further on down the line, maybe in the 2-to 3-, 4-, 5-year, 
depending on the airport, because every airport across the 
country is different, and it is not one type of solution that 
will meet that need of giving security.
    Ms. Sanchez. Okay. Well, my information is that the one-
year payout is actually coming from your agency. This is not an 
outside analysis, this is your analysis. So I guess what we 
need to find out is who did that versus now what your numbers 
are. We need to take a look at both--
    Mr. Wilke. We can get back to you on that.
    Ms. Sanchez. --if you can provide those.
    Mr. Wilke. Sure.
    Ms. Sanchez. This is not an outside analysis. This is 
coming from your own agency. So what you are saying is whoever 
did it within your agency, at whatever point was just wrong or 
now you guys have figured out that that is wrong and you have 
got a new analysis.
    Mr. Wilke. We are putting together a new analysis model.
    Ms. Sanchez. Okay. Because, again, we are trying to 
understand, I am trying to understand if this is going to work 
so well, why you are not coming to the Congress and saying, 
``Get this done as soon as possible.'' We are borrowing for 
other things. Might as well borrow for something that really 
works.
    Do you think that letters of intent are effective to 
construct the public's private partnership or do you have other 
methods you are thinking of in which we can get airports online 
quicker for this in-line media technology?
    Mr. Wilke. Well, as we speak right now, 19 different 
airports around the country have operational in-line systems 
for the entire airport. Twelve other ones have them either 
under construction, planned or partially installed. Only nine 
of the airports are under the LOI program.
    Other airports have had public-private partnership, outside 
funding, and we have worked with the airports across the 
country to give them expertise as far as how the system should 
be put together, what type of equipment could be used, in some 
we have helped with payment of machines. Every one is really 
kind of different right now, and we are working to try to find 
out what is the actual best model moving forward to give the 
taxpayer the most return on their investment.
    Ms. Sanchez. Okay. What about the old EDS and ETD systems 
that larger airports have? Do you have a system by which you 
might get these to smaller airports who are not going to be in 
line or think they cannot afford an in-line EDS system?
    Mr. Wilke. Yes. We have ourselves a waterfall strategy, as 
we call it. For example, when one airport that might have a 
stand-alone system gets an in-line system involved, we will 
take those machines and actually coordinate with another 
airport to redeploy them somewhere else and actually looking at 
new technologies too for smaller airports, such as the Reveal 
CT-80, the smaller footprint machine that can be used for an 
airport that cannot afford a $1 million machine, if you will, 
and wants a smaller-priced machine.
    Ms. Sanchez. Let me ask you something that I asked last 
week. If you have a suicide bomber who is hanging out at the 
security area where quite frankly that is a bottleneck, as most 
of us who use the airports understand, do we have any concerns, 
do we have any plans of what we do if a person is detected with 
a blow-up bomb on themselves as they are going through that 
particular bottleneck?
    Mr. Wilke. I think that is one of the challenges we face 
ahead looking at what the change in threats are based upon 
recent events around the world.
    As we speak today, if that person went through one of our 
trace detection portals, obviously then they would be detected. 
But at that point they might do something tragic, and I think 
it is something we need to look at down the road.
    And we are actually working with some other agencies within 
the federal government to look at how we can have better 
standoff detection down the road and using some of the things 
the military has learned for other venues in the public sector.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I see my time is up, and, again, I would just reiterate the 
desire to see the new analysis you have, and we can show you 
where we got the other information from your own agency. Thank 
you.
    Mr. Wilke. Be glad to.
    Mr. Lungren. All right. The gentlelady's time has expired.
    The gentleman from Georgia is recognized for 5 minutes.
    Mr. Linder. Thank you, Mr. Chairman.
    Mr. Wilke, have you done an estimate in your department as 
to how much it would cost to give 100 percent of the travelers 
in the air 100 percent protection from terrorism?
    Mr. Wilke. What you are asking for is almost a guarantee?
    Mr. Linder. Yes.
    Mr. Wilke. I am not sure if there is any security system 
built today that can give 100 percent guarantee.
    Mr. Linder. I am not either. So how much are you looking 
for?
    Mr. Wilke. We are looking to put together a layered 
strategic approach using the best technologies that are out 
there today in the most efficient manner and use them in a 
layering approach to provide the best security based upon the 
actual threat that is out there today that we feel that we see. 
And that is based upon intelligence, based upon where the 
greatest threats are, where the emplacements are happening and 
also where the greatest threats are moving forward.
    Mr. Linder. Do you believe the greatest threats are on 
airlines?
    Mr. Wilke. Based upon a lot of things we have seen in our 
intelligence, I think airlines are still an attractive target 
for terrorists today.
    Mr. Linder. Are you aware that more people have been killed 
by terrorists in trains than in airplanes?
    Mr. Wilke. The facts state themselves.
    Mr. Linder. And you are spending $200 million to $250 
million a year on trains and $4 billion to $5 billion a year on 
airlines.
    Do you ever believe another airline is going to be allowed 
to hit a building?
    Mr. Wilke. I would expect that the traveling public would 
react differently than they did in the past.
    Mr. Linder. I think you are right.
    Mr. Wilke. However, we still need to be aware of what might 
happen from the explosive detection piece if a passenger had 
explosives and did something catastrophic to a plane.
    Mr. Linder. To that plane. What if the passenger was not a 
passenger but got into a train trestle over a huge river and as 
the Amtrak full of 1,000 passengers was approaching it took out 
the track. What are you doing about that?
    Mr. Wilke. I think that rail security really has to deploy 
a different type of security model. By the way that rail is, it 
is an open system. I am not sure of a technology that could 
physically monitor every inch of track across the country today 
that we have available to us at a cost-effective price. I think 
we do need to look at what can be done to strengthen it.
    We have worked at TSA with a lot of the railroads, 
intermodal agencies, et cetera, looking at best practices. We 
had a project we called our TRIP project. We ran, actually had 
a screening car, if you will, on a rail car going back and 
forth up in Connecticut. And we did that to test out to see how 
it actually works in a real-world scenario, and we learned a 
lot through that process. And the open nature of rail and mass 
transit is one that does present a challenge.
    Mr. Linder. So what you learned is that people who travel 
on mass transit are on their own; is that right?
    Mr. Wilke. I think there are things we can put in place to 
raise the area of security. I think when you look at rail, I 
think you can have things such as sensor devices possibly that 
can detect explosives in the future. I think you might be able 
to possibly look at some things such as canine that can 
possibly detect an explosive presence nearby or if someone is 
carrying something of danger.
    But I think there are technologies moving forward, and I 
think that we are trying to explore those and find out what are 
the best ones that actually work in this mode of transportation 
at an economical and not impede the flow of commerce.
    Mr. Linder. I mean, if you are spending $4 billion a year 
on screening processes, how much are you spending on the rest 
of the detection devices?
    Mr. Wilke. I am not following you, sir. You said $4 
billion?
    Mr. Linder. What is your budget for TSA?
    Mr. Wilke. This year, our budget is about $917 million.
    Mr. Linder. Does that include the screeners?
    Mr. Wilke. The screeners, no. I am talking about the 
technology piece that I am responsible for, sir.
    Mr. Linder. Okay. That is on top of the $4 billion, right?
    Mr. Wilke. Okay.
    Mr. Linder. How much are you willing to spend to, as you 
said, raise the level of security for travelers?
    Mr. Wilke. I think we need to look at what technologies can 
be used in other venues. For example, an explosive detection 
portal has been pilot tested, has been used actually in a rail 
environment, and the results were very nice. There is nothing 
out there precluding a rail authority or a rail association 
that is publicly funded or privately funded from engaging in 
installing these new types of technologies.
    Mr. Linder. I just pray that you do not take TSA for 
airlines and use that as a model for trains, because I do not 
think it is succeeding in airlines.
    Mr. Wilke. We are actually looking at a new generation of 
technology that does use high-speed, high-capacity detection 
devices, because we realize that you do not have formal 
checkpoints in the mass transit, rail, even buses, for example.
    Mr. Linder. How soon are you going to be able to look at 
the Registered Traveler Program and say, ``If we have done a 
background check on that traveler and we have the biometric 
such as a fingerprint and we have made a decision that that 
person is not a threat to the airline,'' how soon are you going 
to be able to say once they walk through that lane or that 
portal and put their fingerprint on and are recognized as the 
person you have done the background check on, they can walk 
right on the plane without going through any more screening?
    Mr. Wilke. That is probably a policy decision that needs to 
be addressed. I am really trying to focus on the technology 
solutions we have. So I am probably not the right person to ask 
for that question.
    Mr. Linder. Thank you, Mr. Chairman.
    Mr. Lungren. I thank the gentleman.
    The gentleman from Washington, Mr. Dicks, is recognized for 
5 minutes.
    Mr. Dicks. Mr. Wilke, in your testimony, I am pleased to 
see that the progress is being made with the installation of 
in-line explosive detection systems, which is either in 
progress or completed at 19 of our nation's airports. TSA and 
people in the industry have been telling us for some time that 
the installation of EDS technology will lead directly to 
greater efficiency in baggage screening, freeing up resources 
for checkpoint screening and other tasks.
    It is my understanding that the Congress and the GAO are 
eagerly awaiting data from the first installation of in-line 
EDS technology to verify these claims. When will that data be 
available to the Congress and to the GAO?
    Mr. Wilke. My department has been working on it now for a 
number of months working. It has gone through a number of 
revisions within the department. It is currently in the process 
of getting reviewed by senior leadership, and at that point it 
will probably be ready for dissemination.
    Mr. Dicks. Now, the major airport in my area, Seattle-
Tacoma, yesterday my staff with officials from Sea-Tac who 
advised that there have been significant delays with the 
expected reimbursement from TSA for work already completed 
installing their in-line systems. Now, who do we talk to about 
that? You are the R&D guy. You are not the guy who pays the 
money, right? Or are you?
    Mr. Wilke. This is true. My team does when the invoices 
come in they do take a look and review that the invoices and 
things are correct, and then they send it to procurement. But 
if you send me information, I will be more than glad to help 
you out and spearhead through it.
    Mr. Dicks. Okay. Well, good. That is what we need. It has 
been 6 months now or longer since--you know, they sent these 
things in last December, as I understand it. But your 
willingness to help is appreciated.
    Mr. Wilke. You bet.
    Mr. Dicks. I am very concerned by the President's budget 
request for in-line EDS installation. Only $264 million is 
included in the budget for the project, which, as your 
testimony notes, is only enough funding to continue work at the 
8 airports that have already entered into an agreement with 
TSA. That is correct, isn't it?
    Mr. Wilke. There is money in there for that, but I believe 
there is also discretionary money that was proposed.
    Mr. Dicks. Well, can you tell us about that?
    Mr. Wilke. Currently, TSA is working with Congress to 
determine what TSA's budget is going to be, and I guess we need 
to wait until the DHS budget is finalized before we can make 
any further comment on it.
    Mr. Dicks. Last week, the American Association of Airport 
Executives provided the committee with a list of more than 50 
airports that would benefit from the installation of online EDS 
technology, including Dulles, Washington Reagan, O'Hare, 
LaGuardia and JFK.
    If the benefit of installations are as great as TSA has 
been saying, why would we possibly take a year off from 
installation at other critical international airports?
    Mr. Wilke. Well, I can assure you, sir, we are not taking a 
year off for deploying equipment. Actually, as you know, up in 
the airports you just mentioned a second ago we are actually 
deploying equipment there I believe either last month or this 
month. Some CTX 5500 machines are being part of that waterfall 
strategy I mentioned earlier.
    Mr. Dicks. Yes.
    Mr. Wilke. They are being actually installed up there. So I 
can assure you that we are not planning to slow down in 2006, 
and we are really looking for where we can install technology 
to get the--
    Mr. Dicks. It sounded like in your testimony that you are 
hoping that some of these airports are going to do this without 
the 75-25 program. Is that correct?
    Mr. Wilke. Many airports across the country are doing it. 
They are using--
    Mr. Dicks. So is the idea to slow down the money hoping 
that they will because of the emergency have to go and do this 
some other way? Could some people cynically think that is the 
approach of this administration, which has not been really 
exceedingly generous on these programs.
    Mr. Wilke. That is probably more of a policy question. I 
probably am not the right one to ask, I am sorry.
    Mr. Dicks. Well, you might mention that you heard this up 
on the Hill, okay, when you get back to your office.
    Let me ask you, almost all the R&D is being done in 
aviation. So here we have the London situation that has been 
mentioned by my colleagues here. I mean, don't we have a 
responsibility to on transit, on rail, on ferries, out in my 
area we have a ferry system. I mean, I think we need to have 
something where people walk through to people that are walking 
on the ferry or we have dogs sniffing some of the cars. But I 
mean, there ought to be some level of R&D in these other areas. 
I do not think we should just focus all the money on aviation.
    Now, do you disagree with that? I know that some money is 
being spent but it is like 20 percent of the 100 percent.
    Mr. Wilke. All the money is not being spent exclusive on 
R&D or in the aviation sector. In fact, most of the technology 
aviation uses can be relatively deployed in other sectors.
    Mr. Dicks. Right.
    Mr. Wilke. As you know, up in Seattle we are doing the test 
using a form of backscatter technology for cars going on the 
ferry system. That is part of an R&D initiative going on 
working with other agencies in the government today.
    I think, for example, backscatter technology that can be 
used for other modes of transportation moving forward. We 
actually have something we posted in FedBizOpps for our next 
generation, looking longer term. I thought we would use 
technology for a mass transit type of scenario, basically a 
turnstile, if you will, that has sensing capability for large 
groups of people going through on a mass transit. So it is an 
area that we are spending requirements for moving forward in 
that area, sir.
    Mr. Dicks. So we are making an effort. I mean, if you would 
like in the record to talk about what we are doing and how some 
of these technologies are applicable to other forms or modes of 
transportation, have at it.
    Mr. Wilke. We have a tremendous amount of projects going 
forth right now. I think we have, at last count, about 200 and 
something different R&D projects that we are doing that apply 
to all different areas of technology. It can be used for all 
different types of transit systems other than just aviation. 
Because aviation has been a primary focus of TSA coming out of 
the gate, a lot of the resources and things were applied for 
that area.
    However, even later on this week I am going out to Sandia 
National Labs to meet with the folks out there to find out 
technologies they are using for other ways that might be 
applicable to other modes of transportation. So it is part of 
our quest as an agency looking at all modes of transportation 
to keep things safe from a technology perspective.
    Mr. Dicks. Thank you, Mr. Chairman. My time has expired.
    Mr. Lungren. I thank the gentleman.
    The chair recognizes the chairman of the full committee, 
Mr. Cox, for 5 minutes.
    Mr. Cox. Thank you, Mr. Chairman.
    Welcome again, Mr. Wilke.
    Just to lay the foundation for a few brief questions I want 
to ask, could you put on the record for the committee and for 
the media and the public that are following this hearing the 
differences and the relevant acronyms between technologies that 
detect some explosives and technologies that detect essentially 
all explosives?
    Mr. Wilke. Okay. ETD, which is explosive trace detection, 
uses the swabbing mechanism, if you will. That goes in and 
basically the machine can be set to look at any number of 
chemicals that are out there that has a widest sloth, if you 
will.
    However, the downside is it is very manpower intensive to 
really look at an entire suitcase. It can take as long as 5 to 
6 minutes to really do a good sample of that entire suitcase.
    EDS, explosive detection system, that is basically what we 
have in our in-line baggage system, stand-alone baggage system, 
and that is where the machines are actually set to look for the 
explosive types that we are aware of and moving forward that 
might be threats to the aviation piece.
    Another acronym we use is EMTD, which is enhanced walk-
through metal detectors, and those are basically magnetometers 
that people do walk through.
    Mr. Cox. And so just to put a fine point on this, it 
matters where I am using EDT or EDS if I am looking for SEMTEX.
    Mr. Wilke. Well, for example, in that particular case, both 
types would be applicable.
    Mr. Cox. So it does not matter.
    Mr. Wilke. For certain categories of explosives, it would 
not matter.
    Mr. Cox. But for plastic explosives, such as SEMTEX, either 
the trace system or EDS would suffice.
    Mr. Wilke. Also, too, to be very candid with you, an X-ray 
would also do the trick, because when you think about it, if an 
X-ray goes through it, you are going to see a block that is an 
abnormality versus what is actually out there in the rest of 
the bag.
    Mr. Cox. But a magnetometer obviously would not work, so if 
someone were seeking to bring plastic explosives onto the 
airplane, they could just wear it under their clothing and walk 
around the airplane.
    Mr. Wilke. That is why we are enthusiastically looking at 
technology such as the electronic trace portals and also 
backscatter technology that gives us the ability to check for 
explosives that are carried on person.
    Mr. Cox. I am very interested in your Manhattan II Project, 
particularly in as much as you are looking at the form factors 
as well as the basic technology. To the extent that technology 
is racing forward, if I may analogize for people that are 
putting home theater in their house, they may regret if they 
hire a carpenter and design their whole bookshelf and so on 
around today's coolest television because 7 years from now they 
are going to be embarrassed to be so retro. There will be some 
much better technology out there and they will have built the 
whole permanent setting for this.
    Well, we have to redesign airports in order to put these 
million dollar machines in place. I hope that in Manhattan II 
you are looking at not only the latest technology for, for 
example, explosive detection, but also ways to minimize the 
overhead costs of installing this equipment.
    Mr. Wilke. And that is one of the areas we are looking at. 
Actually, this year, we certified the Analogic 6400, which is 
basically taking an existing eXaminer 6000 machine, putting in 
new technology, putting in new types of sensing devices in, and 
basically you go from a 2-D type of image to a 3-dimensional 
type of image, which gives you better sensing, better ability 
to detect and also look what is actually in there.
    And part of our strategy is looking at machines that have 
good upward spiral development. For example, the Reveal CT-80 
has a promising development for further upgrades of that 
machine.
    Mr. Cox. And it is a much smaller footprint.
    Mr. Wilke. It is a much smaller footprint. However, for a 
larger airport, it would not meet the speed that is needed to 
get enough bags through. But for a smaller airport it is a 
great solution.
    It is the same for the trace portals. Those particular 
machines have an upward spiral development that, quite 
candidly, will probably mirror Moore's Law with how fast the 
processor speed is, because as that processor can sense and 
process faster, as the technology gets better, you are going to 
have faster processing times.
    Mr. Cox. Mr. Wilke, I want to thank you for that. My time 
has expired.
    Just a closing comment, if I may, Mr. Chairman.
    The question that Mr. Linder put I think is exactly the 
right question, and I recognize, Mr. Wilke, that you are here 
as a technology guy and not necessarily as a policy guy. I also 
observe that in your background of 17 years at Mobil before you 
came to the federal government that you have a lot of 
experience designing smart cards.
    And one of the things we need to look at is whether or not 
we are designing a system that is so big that it is not taking 
into account that we might get the population of folks that we 
have to run through these machines down to a much lower level 
than is presently the case.
    Mr. Chairman, is there an opportunity perhaps for a second 
round of questioning?
    Mr. Lungren. If the gentleman will stick around, I think 
that might happen.
    Mr. Cox. All right. If I am here and you are here, maybe we 
can take this up later. Thank you very much. I yield back.
    Mr. Lungren. Thank you.
    The chair recognizes the ranking member of the full 
committee, Mr. Thompson, from Mississippi for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    And I appreciate the witness.
    I would like to get some things on the records too, like 
our chairman talked.
    Congressman Dicks talked about the difficulty in getting 
airports reimbursed for expenditures. Can you provide this 
committee with a chronology of where that reimbursement for 
technology acquisitions stand at this point?
    Mr. Wilke. I can get that for you from our folks in the 
administrative area.
    Mr. Thompson. Okay. Fine. And I guess since you are here, 
let me ask you for a couple other things.
    You said that you have a strategic road map. You have made 
a couple references to that relative to technology and 
development. Well, GAO has indicated to us that they have been 
trying to get it for quite a while and been unsuccessful. Do 
you have it?
    Mr. Wilke. Yes, sir, we do. I have been with the agency now 
for about 4 months.
    Mr. Thompson. Good.
    Mr. Wilke. It was a process that started before I came on 
board; however, with my business background I think we need to 
have a good strategic plan moving forward. I have reviewed it, 
it has gone up to a number of folks to be reviewed, and we are 
still actually tweaking some parts of it to have concurrence 
among all the stakeholders that are vital to have full support 
for a model of this type.
    Mr. Thompson. So you do see the value of having a strategic 
plan, and I hope you can understand the committee's interest in 
making sure that the Department possesses such a plan, because 
we are asked to do certain things. Any idea when we will get 
it?
    Mr. Wilke. As soon as the approvals are given by our senior 
leadership, I would be more than glad to share it.
    Mr. Thompson. Well, Mr. Chairman, let me suggest that we 
write the secretary and ask him since it is already--the GAO 
report was 2004 December, and here we are 6 months later and we 
do not have it, and I think we need the strategic plan.
    Mr. Wilke. If you would like, sir, I can actually give you 
a verbal of what it kind of looks like and what we are wanting 
to do if you would like me to go and provide that for you.
    Mr. Thompson. Well, things change around here, and I would 
love to have it in writing so we could take a look at it.
    The other situation is, are you aware that we do not have a 
transit security plan for the agency also? You are not.
    Mr. Wilke. I am not.
    Mr. Thompson. Well, I guess then how can we provide and 
plan for technology in securing the transit system when we do 
not have a transit security plan for the agency?
    Mr. Wilke. I think the nature of rail and mass transit 
because the openness is part of a public-private partnership 
with the different people that are involved in it. For example, 
I know that for a fact when we had a symposium, I guess, back 
in April, over 35 to 40 different transit authorities, train 
authorities were there, and we were sharing ideas about what 
best practices were, what we are doing in this area and how we 
can work together.
    Some actually stood up and said that they are taking the 
technology we have used in airport technology and considering 
using it for their own use. So I think the TSA has tried to 
engage the industry, if you will, in these particular areas.
    Mr. Thompson. So you think transit systems can just go buy 
whatever they want off the shelf? I am trying to move us toward 
a transit security plan so that we can, as Members of Congress, 
evaluate our agency. But if we have no plan and we are going 
out buying all kinds of technologies, there is nothing to be in 
judgment.
    And I am trying to impress upon you that I find it very 
difficult to purchase equipment for transit security when we 
have no transit security plan from the agency, and I want you 
to hopefully go back to the secretary and tell him we really 
need that transit security plan if we are to do what we need to 
do here.
    Thank you, Mr. Chairman.
    Mr. Lungren. I thank the gentleman.
    Mr. Pearce is recognized for 5 minutes.
    Mr. Pearce. Thank you, Mr. Wilke. I am not always 
complimentary of many of the agencies and their presentations 
and TSA especially, but I think your presentation today has 
been pretty thorough and pretty informative, and many of the 
questions that generate an answer themselves in your 
presentation.
    I do have a couple of questions.
    There are reports that about a billion dollars in AIP funds 
have been used to scoot over into these new systems for 
protection. Do you know if that is true?
    Mr. Wilke. I am not sure of the exact numbers, sir, but I 
can get back to you on that.
    Mr. Pearce. But money has been taken from AIP funding, 
Airport Improvement Program?
    Mr. Wilke. I am not positive, but I can find out for you.
    Mr. Pearce. If you can find that out. And then if you find 
that out, find out if that was airports donating their own AIP 
money or if we are taking the money from other airports. And if 
that is the case, I would understand, but is there a plan to 
then level that funding out later to the airports that will 
never get any of this screening money? Do any of your systems 
work against plastic explosives protection?
    Mr. Wilke. A number of the systems do, and I would probably 
prefer to discuss that in a closed session with you if that 
would be possible.
    Mr. Pearce. Okay. That would be fine. Are you doing 
anything for the trigger mechanisms? Do you anticipate anything 
where you being to pressurize baggage on the ground and then 
bring it back down, because the trigger mechanisms sometimes 
work off of a barometric presser. Are you doing anything on 
that?
    Mr. Wilke. Once again, I would be more than glad to discuss 
some--
    Mr. Pearce. Be happy to do that.
    Mr. Wilke. --more privately if that could be possible.
    Mr. Pearce. When you are getting the information for the 
ranking member about transit security, could you also get the 
information about what France and England and some of the 
European countries are doing, because I think that looking at 
transit security we are going to have to accept some risk, and 
I think that we should be aware as a committee what other 
nations are doing for transit security when we are wanting to 
look at a plan from here. And if you could find that out, what 
the European nations are doing.
    I am looking at the chart on page 7. Do all of these firms 
that have been taking some of these proof of concept grants, do 
they all have a background in providing this kind of 
technology?
    Mr. Wilke. Before we will go through a process of giving a 
grant, we will be sure that the company has experience in that 
particular area or has been doing work for other parts of the 
government in that particular area.
    Mr. Pearce. Okay. This is money that has already been given 
out in 2004 and 2005.
    Mr. Wilke. Yes, sir. For the ones we--
    Mr. Pearce. You say that you have gone through and proved 
them up.
    Mr. Wilke. Our folks in the lab, as part of the R&D 
process, they will validate that the vendor does have proof of 
concept, they have the technology capability to do it or have 
actually used this technology in other parts of the public 
sector or for government to be sure it is a technology that 
might work moving forward.
    Mr. Pearce. The controls in the process then, you do not 
just give them the money. You make them reach certain points of 
completion before--
    Mr. Wilke. Different grants have different timelines and 
deliverables based upon the actual grant itself. For example, 
some of the ones we spoke of earlier were actually asking for 
proof of concept that actually works before we will fund the 
grant money. Other ones that are for a longer term, science 
type of research, if you will, those type are basically taken 
from paper and then taking it to concept what actually works. 
So it is not a firm model what we use. It changes based upon 
the technology and the application.
    Mr. Pearce. I appreciate that. I guess my concern, I do not 
know if you had a chance to read it, the June 30 article about 
the high cost of risk to security where the TSA starts out with 
$104 million concept to provide labor and it ends up costing 
$700 million. And the contractor, let's see, they had $1,180 
for 20 gallons of Starbucks coffee, rented 14 extension cords 
for $1,540, those kinds of things.
    Are your grant programs going to see that we do not have 
these kind of headlines and kind of articles as we try to 
really convert money into good security systems?
    Mr. Wilke. I think the concern that the other congressman 
mentioned a second ago regarding the scrutiny of invoices 
really underlines that my team does look at invoices before 
they pay them. It does take a little time to get them 
processed, but in this particular case, I think it was a little 
too long and we need to do a better job.
    Mr. Pearce. There is good cause for concern. There was $239 
million for on-the-border detection devices that many did not 
get put in, many did not work when they got put in. So I mean 
it is just the history of a department that has been inept at 
best, maybe even worse, but my time has expired, and I will let 
you address in any way that you would those comments.
    Thank you, Mr. Chairman.
    Mr. Wilke. I can share with you in the area of the EDS 
equipment installed, checkpoint equipment installed, baggage 
handling equipment installed. We can go through and provide 
where the equipment is actually at, where it has been paid for, 
what has been done, because we do feel a sense of fiscal 
responsibility in being sure what we are doing is moving 
forward.
    And as the agency moves from the deployment that it was in 
the early years of TSA being formed to where it is now, I think 
we will get continued scrutiny, so we need to do a better job 
of looking at it and being sure.
    Mr. Pearce. Just to come full circle, I do have that 
confidence when I listen to your report and when I listen to 
you. So, I mean, that is a rare personal presentation and 
knowledge. Your information is reassuring, but you are carrying 
a little bit of baggage around from previous people. I 
understand that. Thanks.
    Mr. Lungren. And just for the record, Mr. Wilke, you have 
been on the job how long?
    Mr. Wilke. Four months now.
    Mr. Lungren. Okay. So we cannot hold you responsible for 
all of that.
    The gentleman from Oregon is recognized for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    However, we have had one administration during that 
timeline who we can hold responsible, and hopefully they are 
making better choices in their personnel and their procurement 
practices.
    Screener performance, I assume even though you have been 
there a short time you are aware of the evaluation of screener 
performance, the most recent evaluations. One of the comments 
made by I think it was the GAO report, and it was mirrored in I 
think the IG's also, ``Significant improvements in performance 
may not be possible without greater use of new technology.''
    When you walked in the building here today, did you have a 
briefcase with you?
    Mr. Wilke. No, just my notebook.
    Mr. DeFazio. Did you put it through the machine?
    Mr. Wilke. Sure did.
    Mr. DeFazio. Did you notice the machine?
    Mr. Wilke. Yes.
    Mr. DeFazio. Okay. Did you notice that it is not what our 
screeners are equipped with at the airport? Even though it may 
look similar, it has the capabilities of seeing things in 
multidimensions without asking you if they can put your 
notebook back through and turn it on its side or stand it out 
for that.
    I am concerned that some of the simplest technology we have 
equipped our screeners with is very outdated and that we are 
being very pennywise, pound-foolish by not replacing that 
equipment.
    That is off-the-shelf technology we have downstairs. The 
machines that the screeners are working with in the airports 
were thrown out nearly a decade ago as inadequate for the 
mission of the U.S. Capitol, United States White House, United 
States Treasury, United States Supreme Court, all federal 
facilities who have not been attacked and who have not been 
subject of this focus.
    I think certainly there is a threat, but the point is we 
have a known attack on aviation, an ongoing threat assessment, 
and yet I am in there, ``Can I take your bag?'' Can I interrupt 
the line, slow everybody down, slow down the throughput, 
require that the person who might have been doing trace is not 
doing trace because they are walking my bag back to the 
beginning of the line and turning it in a different dimension 
because they could not figure out of all the electronic junk I 
have got in there what it is.
    And if we just equipped our screeners with machines like we 
have downstairs here, they would not have to interrupt. They 
could have a throughput, they do not have to walk the bags back 
around. You could then have an extra screener to use the trace 
all the time.
    What I observe is we do not use trace very much except on 
selectees, because the trace machines sits there because that 
person is busy carrying bags back and forth the length of that 
conveyor belt.
    So I would hope you would look at what the savings might 
be, what the improvements in security might be if we asked for 
those well-proven machines.
    Again, you have not been there too long, and I am not 
certain of your historical interest in this. Are you familiar 
with Project Bojinka?
    Mr. Wilke. No.
    Mr. DeFazio. Okay. This is a particular concern.
    There is a guy named Ramzi Yusef who had a well-developed 
plan to take down simultaneously, I cannot remember if it was 8 
or 12, 747s over the Pacific. He developed a bomb, he tested 
the bomb, the bomb went off, blew a big hole in the side of a 
747, killed a number of people, but it was not placed quite 
right, did not take the plane down, just killed some people. 
But it worked, and then he was discovered by accident. He had a 
sloppy bomb maker, had a fire, fire department showed up, 
suspicious, Filipina policewoman said, ``This is not right,'' 
and the threat unraveled.
    But the point is we have not again equipped our people at 
the checkpoint to detect the bomb that he used, which was a 
liquid-based contact lense cleaning solution, nitroglycerin 
type explosive, digital watch, a few little wires, and I am 
concerned that there are patterns out there. They came back 
after the World Trade Center. I am worried that someone's going 
to come back.
    Mr. Linder would say you can kill a lot more people in a 
stadium or something else, but you cannot kill a whole industry 
that way and cause a collapse of about 12 percent of the U.S. 
domestic economy and the world economy, and that is what 
aviation represents.
    And if someone were to have a simultaneous attack on a 
number of planes, just mirroring his plan, which was only 
discovered by accident, it would be absolutely economically 
catastrophic in addition to the horrific loss of life with 
large planes like that, 600 people or more in each plane.
    I noticed that you are modeling and looking at the liquid 
analysis devices. That is good. As far as I know, there is 
actually off-the-shelf stuff available that the Japanese have 
developed and others.
    So I would just really encourage you to focus on carry-on 
explosives, continue the work on the checked explosives, move 
ahead with the portals, because we are doing nothing to detect 
the suicide belts that do not have metal embedded in them, and 
they are not going to put metal in it because they are not 
trying to wound people. They are just trying to take the plane 
down.
    There are many threats out there in all areas of 
transportation and everything else, but these are I think some 
that are particularly relevant in your area. I realize that was 
not a lot of questions, but I have been working on this since 
we created the TSA. I was a principal in that, and these are 
just enduring concerns that none of your predecessors have 
effectively addressed.
    Thank you.
    Mr. Wilke. Well, I think in the area of aviation security, 
both security and efficiency can be strengthened by a better 
use of technology and also using current technology and next-
generation technologies together in a layered approach. And I 
think Secretary Chertoff is talking about that moving forward. 
So that is something we embrace and we will move on.
    Mr. DeFazio. Yes. I was impressed by our meeting with him 
and some of the ideas he has to do things differently, and I am 
willing to try and help him with that, give him some slack and 
expect things are going to be different, and that would be 
great. Thank you.
    Mr. Lungren. I think we will go through a second round here 
for those of us who waited.
    Mr. Wilke, let me start off. You have talked about the 
backscatter X-ray technology, you talk about the issues 
involved with privacy and the work that is being done there. I 
am no expert on this and you are the expert, but at least it 
has come to my attention that there is a technology that is 
currently available that is being used at the Moscow airport 
that has been used in the Netherlands at one time in their 
effort against, believe it or not, drugs. It is hard to believe 
with the Netherlands. It is also used for making sure that 
miners are not taking diamonds out of African mines. I think it 
is called SecureScan or something like that.
    Mr. Wilke. Using millimeter wave technology?
    Mr. Lungren. I am not sure if it uses millimeter wave--I 
have heard it is X-ray technology of some sort. Is there a 
reason we have not looked at that or are we looking at that?
    Mr. Wilke. We have looked at a number of technologies in 
that area; however, we are looking at ones that gives us the 
best image resolution that we can deploy on a short-term basis 
that also meet the privacy concerns. So it is almost like 
combining all the different requirements together to get 
something out there that is deployable and also deployable at a 
reasonable price.
    Mr. Lungren. Again, I am not an expert on this. It was at 
least presented to me that this would allow you not only to 
look at those metal features that you would find on someone but 
also if someone insisted something, and it also would show the 
shoes. And I just wondered if it had to be question of the 
amount of X-ray dosage exposure that one would be obviously 
exposed to if that were a concern?
    Mr. Wilke. Well, for backscatter, for example, we spend a 
lot of time with looking at right now, the actual dosage is 
about one-six-thousandth of what a normal X-ray would be. So, 
basically, it is the same as being on a plane for about 2 
minutes. That is how much radiation you would be getting or if 
you were outside for about 10 minutes. So it is within a very 
safe zone.
    Some of the other areas we will take a look at, and our lab 
has an open invitation for these companies to show their 
technologies to us, and if it passes certification, we would 
consider putting them out.
    Mr. Lungren. I guess that is the question I have. How do we 
know that once you start down the line with backscatter or any 
other technology that you do not become so tunnel visioned on 
proving that that you might not be taking a solid look at 
something else?
    Mr. Wilke. We are taking a look at all technology that come 
to us right now. That is why we have a number of projects 
ongoing within our R&D efforts, and right now we were looking 
what the actual deliverable is and what actually meets the 
requirement for detecting the threat in the best way. Also 
taking in mind too what the image looks like and what a 
screener would have to look at in order to detect that image is 
one of the criteria.
    Mr. Lungren. Again, I do not hold a belief for any 
particular product. It is just when people bring questions up 
like this to me I figure you are the guy that has got the 
answer on that.
    Mr. Wilke. We are looking at a number of technologies that 
will provide the solution.
    Mr. Lungren. I thank you.
    The gentlelady from California is recognized for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I have so many questions to ask you and never enough time. 
I want to go back to the original issue that I brought up with 
respect to the fact that you are going to give us some new 
analysis about the in-line EDS system.
    In looking at our GAO report, the information that I gave 
you about it being paid, the return coming back within a little 
bit over a year on those systems comes from your own agency, 
and this report was just finished on the 13th of July, so that 
was last week.
    Mr. Wilke. We will have to check on that.
    Ms. Sanchez. So we need to coordinate. But I still want 
from you whatever analysis you have done as to what the payoff 
is. Because when we read something like this, we sit there and 
we say, ``Why aren't we getting this done?''
    You can probably note, and if you feel any hostility, this 
is not really about being hostile. We have been at this for 3 
years, most of us on this committee, and in a normal situation, 
we would take a look at what the risks are and we would 
prioritize what we need to do and we would take the scarce 
resources we have and we would try to do the right thing with 
them. But in 3 years we do not have strategic plans out of this 
agency.
    Initially, it was just get anything up that would be safe 
first so that people will begin to fly again. Well, you know, 
now we are at the point where are we going to really spend the 
money and what is it that we need to do, and that is why we are 
looking to you, as well as if you can imagine the pressures 
that we have when every company comes knocking on our door 
wanting to sell us their off-the-shelf technology or their 
latest and greatest and why aren't we buying this because this 
would make everything so much safer.
    And then we all are frequent travelers and we get subjected 
to everything that people see at the airport we actually feel. 
So this is about trying to find, hopefully, my colleague 
mentioned, an administration that really has fallen flat on 
these issues, in my opinion, and his, as he put it.
    So we are looking for people who we can trust, who want to 
stay there a while, who are going to help us figure it all out. 
And it seems to me, as Mr. Pearce said over there, that you may 
be one of those people we can hopefully see around for a while 
and we can get this straight. The first thing was that issue.
    Did you tell Mr. Thompson that you have a strategic plan 
for mass rail and rail travel? Is that what--
    Mr. Wilke. Not one that we have developed in the technology 
area right now. It is one we are looking at, and it is probably 
more informal than formal, because we are still in the pilot 
stages of many of our rail pilots.
    We did one last year that was three-phased, and one was 
actually up here at New Carrollton where we had puffer machines 
in place. We used some detection capability. The second phase 
of it was using Union Station, for example. We had some things 
at Union Station here in D.C. And the third part was actually 
being a screening capability on a rail car up in Connecticut to 
see if it was possible to use it in a rail scenario to screen 
passengers in the rail environment.
    Ms. Sanchez. Why don't we have yet a strategic plan of what 
we are going to do with rail and mass transit, given that all 
sorts of attacks have happened on other rail systems outside of 
our country, and that as an industry and as a government we are 
hopefully talking to our counterparts. Why hasn't TSA, which is 
assigned to transportation passenger safety, not just in 
aviation, why don't we have a strategic plan after 3 years of 
what we are going to do?
    And the reason that is a concern is because I heard you 
earlier say we had a forum where we had mass transit people in 
and we were talking about best practices, but it seemed to me 
like it is still all up in the air.
    Mr. Wilke. I think the real challenge in the area of rail 
is it is a different security model that needs to be employed 
based upon the openness of the entire system itself.
    Ms. Sanchez. I understand that, but the openness exists in 
England, it exists in Madrid, it exists in India. I mean, this 
openness is everywhere.
    Mr. Wilke. We have learned a lot from the pilot test we 
have done now, and we are still trying to formulate what would 
be a good strategy that works in partnership with the goal of 
mass transit, to get a lot of people moved in short order while 
still having a security piece. And it is one that we are 
looking at, but it is one that is going to be more challenging 
than our traditional checkpoint airport type of thing that we 
have had that we are quite familiar with. However, we are going 
to continue to look at it.
    Ms. Sanchez. And why do you think the TSA has spent so 
little in the area of mass transit and rail versus aviation? Do 
you think it was just a bias because we were reacting to 9/11? 
Do you think it is because everybody that went into TSA came 
out of aviation, so it is a bias that way? Why isn't there a 
strategic plan after 3 years, and why is there such a bias, in 
your opinion?
    Mr. Wilke. That is a very controversial question. I really 
do not know. So I hate to even give a premise of what an answer 
to that might be, but it is one that based upon current events 
in Madrid and in London we are spending a lot more focus on. I 
mean, I can share firsthand that I have had a number of 
meetings in the rail area, and as I mentioned before, the rail 
conference forum we had up at our TSL lab back in April was 
before the events in London, because it is an area I think that 
we realize inside the agency we do need to focus more attention 
on moving forward and we want to do that.
    Ms. Sanchez. Thank you, Mr. Chairman. I see my time has 
expired.
    Mr. Pearce. [Presiding.] Chairman Cox?
    Mr. Cox. Thank you very much, Mr. Chairman.
    Mr. Wilke, I want to return to this question that was 
raised by Chairman Lungren, by Chairman Linder, and I mentioned 
it briefly at the conclusion of our last 5 minutes. That is 
whether or not, as we design the security systems for airports, 
we are looking at the right population of people that we want 
to run through these machines.
    If we can conceive of this project that we are building 
with new explosive detection technology as a house, and we are 
in the process of laying the foundation right now, I am 
questioning whether or not we have the right blueprint. I want 
to make sure we are building the right house, and it looks to 
me as if the house is too big. It looks to me as if we are 
working from a model that requires every single passenger to go 
through the same EDS machine and that we are budgeting 
accordingly.
    The letters of intent, according to your testimony, that we 
have already signed in just the federal share total $1 billion 
and that is just eight airports, and that does not count even 
such major hubs as Houston, Minneapolis-St. Paul and so on. 
This is a lot of money. It is fantastically expensive, and as 
other members have mentioned in connection with transit or 
other homeland security priorities, it is crowding out other 
forms of transportation security.
    So I want to ask you in your capacity as the Chief 
Technology Officer some questions about another project that 
Homeland Security has underway and that is Registered Traveler, 
because the point of Registered Traveler is to reduce the 
number of people who have to go through this. If we could cut 
down by, say, 50 percent the number of people who are going 
through these machines, obviously we would not need as many of 
them. That $1 billion could be a half billion dollars. We could 
get a lot more security for our money.
    And I think I am correct in saying that in evaluating 
technologies for Registered Traveler, you are also the main 
man; is that right?
    Mr. Wilke. No, sir.
    Mr. Cox. You are not. Even though you are the Chief 
Technology Officer, you are not in charge of that?
    Mr. Wilke. The Registered Traveler Program is actually a 
program that has been fast-tracked within our agency. We have 
actually a dedicated team that is working on that particular 
area. I have gone through briefings on it, if you will, and 
personally I fully support it. I think it is a great program.
    Mr. Cox. Well, since you are obviously technologically 
literate and very familiar with it, let me just run through--I 
only have 3 minutes or so here anyway, we will not get too deep 
into this, but let me just ask a few questions.
    A well-known software company that makes the operating 
systems for most of our computers has for the last year or so 
made it possible for us if we are willing to spend--$49.95 to 
have a fingerprint reader as the way not only that we log on to 
our system or have access to our computer but also the way we 
interface with Web sites. All those passwords that we have to 
remember at every Web site and so on now, you just use your 
finger and it automatically recognizes you--$49.95 for that.
    I understand that IBM laptops are coming equipped with 
this. I understand that the next version of Windows, so-called 
Longhorn, is going to have it built in. So this idea that this 
is not accepted in the West or it is not accepted in America or 
that there would be some consumer resistance it seems to me is 
given a lie by what is really going on in the marketplace, and 
this is something that you are very familiar with because of 
you are 17 years at Mobil include development of smart card 
technology that is now very much in use. This is simply the 
next step, and it is a very useful one.
    But just imagine if it is true that 8 to 10 percent of 
passengers in airports are responsible for 50 percent of the 
airport trips, and staff advises me that that is a relevant 
number, that we can get those 8 to 10 percent of the people in 
a Registered Traveler Program and they are just walking through 
and they are touching their finger and they are good to go onto 
the airplane. And we could cut in half the population of people 
that have to go through these machines.
    Wouldn't that make sense, and wouldn't that save us a whole 
heck of a lot of money?
    Mr. Wilke. I think, as you know, the agency supports that 
program, and I think we do see the benefits, and I think it 
does help us in our goals long term of who we need to focus our 
screening on.
    Mr. Cox. All right. Now, let me ask you the next question. 
This is a technology question. Registered Traveler in the pilot 
that I am enrolled in as a Member of Congress, uses an iris 
scan, it uses fingerprint images, it uses all sorts of things 
that go well beyond and take a lot more time and are more 
elaborate than what I just described, which is I touch 
something and I go through. Now, maybe we need two-factor 
identification. Maybe I need a card. You are awfully familiar 
with that. Maybe I slide a card that has the same biometric on 
it that matches my fingerprint.
    But we do not need human beings involved in this, do we, if 
this is working? Why shouldn't we just be able to touch 
something as we go through, and why does this have to be 
hundreds of millions of dollars or billions expensive when 
Microsoft is making it available for $49.95?
    Mr. Wilke. I think there are some technological solutions 
we should be looking at moving forward, and I think that the 
agency is looking at solutions of what does provide the best 
return.
    Mr. Cox. All right.
    Mr. Chairman, my time has expired.
    Mr. Pearce. Thank you.
    Mr. Dicks?
    Mr. Dicks. Going back to this, the GAO summarized some of 
these things. Let me just go through a little of this just to 
summarize. Given the resources being provided for aviation 
security R&D, we would hope to see the stealthy deployment of 
various technologies under development. However, this has not 
been the case. Even though contrary to usual R&D standards, TSA 
has been almost solely focused on short-term development and 
deployment.
    It has been reported by the GAO that TSA has not estimated 
deployment dates for 133 of the 146 projects reported to be 
under development. There are various reasons for this failure 
to quickly deploy the optimal technology for aviation security. 
What is the reason for that?
    Mr. Wilke. Many of the technologies still are under 
development and they are not ready for deployment either 
because, number one, they--
    Mr. Dicks. Well, the military does this. I have been on the 
Defense Appropriations for 27 years. They do a lot more R&D 
projects and basic research than ever gets deployed, but, 
again, do you want to elaborate for the record here why it is 
that so few of these have actually moved from R&D into 
deployment?
    Mr. Wilke. Many of the technologies are longer-term 
deployments. They need to be sure that they meet the needs of, 
one, detecting the threat. It would be catastrophic, if you 
will, if we deployed a technology that people thought provided 
a level of security and in fact it did not.
    The second piece is, is it reliable? How does it hold up in 
a commercial environment? I have seen things submitted to our 
lab for evaluation and testing that were great for maybe 50 
people, 100 people, even 1,000 people, but when you look at 
what is needed for an airport checkpoint, if you will, the 
particular technology did not hold up under the rigors of a 
commercial environment where it will be getting a lot of use 
and a lot of abuse, if you will.
    Mr. Dicks. And one other thing on this strategic plan, the 
GAO again says one of your problems is because you do not have 
a strategic plan to ensure that the R&D funds are being used to 
address the highest priority transportation security risk. So 
in other words, without a strategic plan to say which ones of 
these are the most important, what should we do first, you have 
got all these hundreds of these R&D projects without much 
focus. Do you think that is a fair criticism or not?
    Mr. Wilke. It might have been at that time. I can share 
with you now that we have a strategic plan and based upon?
    Mr. Dicks. But it still has not been approved.
    Mr. Wilke. It is still going through the approval process. 
I am pretty confident it will.
    Mr. Dicks. It takes a long time to approve anything down 
there, we found out. Do you think it will ever be approved?
    Mr. Wilke. I am very hopeful it will, sir.
    Mr. Dicks. What is the timeframe? What do you think? Give 
us your best guess. A month? Two months? Three months?
    Mr. Wilke. From CTO perspective, as soon as possible.
    Mr. Dicks. From right now, when do you think the thing will 
be approved by your superiors?
    Mr. Wilke. I cannot speak for them, I am sorry.
    Mr. Dicks. Well, I know that, but what is your estimate? 
You have to give a--you are up here, you have got to testify. 
Tell us, give your best estimate of when you think they can 
approve this. Have you been talking to them about it?
    Mr. Wilke. It has been going back and forth through the 
administration as well as senior leadership in TSA, and--
    Mr. Dicks. You have no idea when it is going to be 
approved.
    Mr. Wilke. I would hate to give you a commitment, sir, 
sitting here.
    Mr. Dicks. I am not saying asking for a commitment.
    Mr. Wilke. Well, but when I tell you something it is a 
commitment, and I appreciate that.
    Mr. Dicks. No. I am asking you to give me your best 
personal judgment.
    Mr. Wilke. I would say in the next few months.
    Mr. Dicks. Okay. Good. Well, that is hopeful.
    You also do not have a database for all your R&D projects. 
Why is that?
    Mr. Wilke. Well, I believe we do, sir.
    Mr. Dicks. You do?
    Mr. Wilke. I have seen an extract of it that I used for 
preparing for our testimony here.
    Mr. Dicks. Well, that is good. It says TSA and DHS do not 
have adequate databases to monitor and manage their spending of 
the hundreds of millions of dollars that Congress appropriated 
for R&D. What this means is that neither organization is 
correctly monitoring the cost, progress and status of many, if 
not most, of these R&D projects. This results in a lack of 
coordination then between the development and deployment of 
programs. So you are saying you do have databases with all 
these projects in them that you can call up.
    Mr. Wilke. Very much so. In addition, sir, I go--
    Mr. Dicks. So if we send our bright staff down to see these 
databases, you can show it to them?
    Mr. Wilke. I would not see a problem with that. In 
addition, sir, I go through a personal quarterly review on the 
projects to ensure and find out the status on how they are 
moving forward.
    Mr. Dicks. You are looking at this, you have been here 4 
months. Are you doing the best programs now, and do you have a 
sense of priorities of what is important, what should be 
developed and deployed first, kind of a list of the top 10 of 
things that we ought to do?
    Mr. Wilke. Yes, sir.
    Mr. Dicks. So you are doing that? I mean, that is one of 
the other criticisms GAO had was that a lot of things are 
happening but there is not a sense of priority. You disagree 
with that. You think there is. You think you have got a sense 
of priority.
    Mr. Wilke. As you are aware, a GAO audit is like any audit, 
it is a picture in time.
    Mr. Dicks. Yes.
    Mr. Wilke. I am not sure when that time was. I can share 
with you, as I sit now, and what I am asking my staff to work 
on and focus on is more results oriented, is more priority 
focused on what we are doing moving forward.
    Mr. Dicks. Okay.
    Thank you, Mr. Chairman.
    Mr. Pearce. Thank you.
    Mr. Wilke, when you in your report list that we have got 
1,910 enhanced walk-through devices, 1,904 threat image 
detection devices, 1,273 explosive trace detection devices, how 
many of those do you suspect might be replaced in the next 2 
years with better technology?
    Mr. Wilke. In fiscal year 2006, we put a proposal in to 
have 100 of the WTMDs replaced, 149 of the handheld metal 
detectors that we proposed. However, the challenge you get into 
and one of the things that in working with the vendors is some 
of the machines can be almost retrofitted and built down to 
zero and then built back up again almost like a new machine.
    We met with some of our EDS manufacturers and asking them 
what is a good life cycle, and they say with proper 
maintenance, proper build-down, it is like taking care of a 
good antique automobile. It can work just the same, the same 
caliber, and if it meets our certification requirements, it 
does have an ability to have a longer life, but you need to 
have good maintenance on it.
    Mr. Pearce. You would guess that the backbone then of our 
imaging fleet or our technology fleet is essentially finished 
and that we just have increments of technology to build on top 
of that. That is what it sounds like to me.
    Mr. Wilke. In some respects; however, there is an 
opportunity for upgrading. For example, airports that right now 
have all ETD, I think it is prudent to give them a higher level 
of explosive detection systems. That is why the Reveal CT-80 
machine does fit that niche. There are also some other machines 
that are on the horizon that other manufacturers are making 
that might also make that same niche. So if their machines come 
through and they do meet the certification, we would be very 
enthusiastic to take a look at those.
    Mr. Pearce. When do you think that we will actually hit 
another plateau of integrating a lot of the components of that 
new technology that is being explored right now? Would you have 
a guess about that?
    Mr. Wilke. Actually, I would probably say probably in the 
5-to 7-to 10-year mark of trying to get machines actually 
integrated. Through our partnership and working with different 
vendors, one of the challenges I face with them is the actual 
amount of floor space we have in the checkpoints.
    I would like to see a machine that has integrated, whether 
it be walk-through metal detecting capability, electronic 
detection of explosive capability, perhaps shoe detecting 
capability in the one footprint as opposed to three different 
footprints that we have today. However, we need to get the 
manufacturer to begin working closer together to develop these 
types of technologies in combination.
    Mr. Pearce. Are you seeing any other nations that are 
investing anything in technology like we are for security 
purposes?
    Mr. Wilke. That is a hard question because of the scale of 
our airport system, having 450 airports that we support. Other 
countries are expending funds to raise their security also.
    Mr. Pearce. But you do not see any advances in technology 
in other countries that we could simply piggyback off of?
    Mr. Wilke. My team has opened dialogue, through the lab and 
also through my scientific advisor, with a lot of our partners 
around the world to find out what the best technologies that 
they are looking at and how we can deploy them within TSA.
    Mr. Pearce. Are all of the nations that fly into the U.S. 
going to eventually--let's say that we had a new technology 
right now that we could test all passengers with. Do we have 
agreements with other nations with passengers coming into here 
so that they would screen people boarding flights for the 
United States?
    Mr. Wilke. That is probably more of a policy question.
    Mr. Pearce. I understand, but if you could--
    Mr. Wilke. From a technology perspective, the equipment 
will be available in the market and when we go through our 
certification process to show the machine meets our standard, 
other countries ask us informally as well formally which 
machines are certified, which ones we are using, and I am sure 
possibly some of them use those in their buying decisions. I 
cannot speak for those countries, obviously, but I am sure they 
look at it.
    Mr. Pearce. Do you have any information, do they ever share 
information about the length of wait that passengers are 
finding right now, the length of wait to get through screening 
processes?
    Mr. Wilke. I have not personally seen anything; however, 
our folks in Aviation Operations who work with the actual line 
piece in screening folks, they might--
    Mr. Pearce. If you could track that information down and 
send it back with some of the other things, I would appreciate 
that.
    Mr. Wilke. Great.
    Mr. Pearce. Well, I think that we have diligently 
questioned you today. We appreciate your presentation. I 
appreciate your service to the country and service in an 
industry that needs a tremendous amount of technology and 
frankly expertise. So thank you for bringing that.
    The members may have some additional questions, and we will 
ask you to respond these in writing. The hearing record will be 
held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
